No. 20In the

Supreme Court of the United States
JANE DOE, et al.,
Applicants,
v.
HOWARD ZUCKER, M.D., et al.,
Respondents.

To the Honorable Sonia Sotomayor , Associate Justice of the Supreme
Court of the United States and Circuit Justice for the Second Circuit

EMERGENCY APPLICATION FOR WRIT OF INJUNCTION

Michael Sussman, Esq.
Jonathan R. Goldman, Esq.
Sussman & A ssociates
Goshen, NY
Mary Holland, Esq.
Robert F. Kennedy, Jr., Esq.
Children’s Health Defense
New York, NY

Sujata S. Gibson, Esq.
Counsel of Record
The Gibson Law Firm, PLLC
407 North Cayuga Street, Suite 201
Ithaca, NY 14850
(607) 327-4125
sujata@gibsonfirm.law
Stephen Bergstein, Esq.
Bergstein & Ullrich
New Paltz, NY
Counsel for Applicants

301411

A
(800) 274-3321 • (800) 359-6859

QUESTIONS PRESENTED
New York law provides for a medical exemption to its childhood vaccine requirements “if
any physician licensed to practice medicine in this state certifies that such immunization may be
detrimental to a child’s health.” In August 2019, the New York State Department of Health
(“DOH”) promulgated an administrative regulation narrowly pre-defining what “may be
detrimental to a child’s health” in a manner that (1) undisputedly fails to include all the reasons a
child may need a medical exemption; and (2) in the context of school admissions, permits nonmedically trained school principals to reject the medical judgment of a child’s treating physician
about whether the child is at risk of harm. As a result, hundreds of medically fragile children were
removed from school after school principals overruled their treating physicians and revoked their
exemptions. More are removed each month. In fall 2020, the DOH issued guidance directing
schools to bar the excluded children from even being allowed to participate in entirely online
educational programming and services.
The questions presented are:
1. Do families have a fundamental right to a medical exemption from a vaccine
requirement that would likely place their child at risk of harm or death?
2. Do the challenged DOH regulation and implementing policies unconstitutionally
infringe on the right to a medical exemption, facially or as applied? Specifically, is it
unconstitutional for state actors to (a) narrowly predefine “what may cause harm” in a
manner that removes clinical judgment from licensed treating physicians and
disqualifies a substantial percentage of children at risk of serious harm from the
exemption; (b) deputize school principals to overrule a treating physician’s
determination that a child is at risk of harm; (c) deprive children of an education at any
i

New York public or private school – including 100% remote learning and home-based
special education services – if the parents will not subject their child to risk of harm by
vaccinating their child against medical advice?
3. Is an emergency injunction warranted to prevent the Respondents from excluding these
children from distance learning pending resolution of the Impacted Children’s appeal?

ii

PARTIES AND RULE 29.6 STATEMENT
Applicants are (1) the captioned parents of medically fragile children jointly moving on
behalf of themselves, their children and all others similarly situated (collectively “Applicants” or
“the Impacted Children”)1; and (2) Children’s Health Defense (“CHD”), a not-for-profit
corporation whose mission is to safeguard children’s health through advocacy and education. CHD
has no parent corporation and there is no publicly held corporation owning 10% or more of its
stock. Applicants are the Plaintiffs in the United States District Court for the Northern District of
New York and the Appellants in the United States Court of Appeals for the Second Circuit.
Respondent against whom primary relief is sought is Howard Zucker, M.D.
(“Commissioner Zucker”), in his official capacity as the Commissioner of Health for the State of
New York Department of Health (“DOH”). Additional parties in interest are the additional
captioned Respondents excepting those from the Shenendehowa School District and the Penfield
Central School District.2 Respondents are Defendants in the Northern District of New York and
Appellees in the Second Circuit.

1

Excepting Jane Koe and Jane Goe. The Koe family withdrew from the suit without prejudice. Jane Goe is still a
party to the suit but has graduated since filing so is not seeking the temporary injunctive relief for herself.
2
Claims against the Shenendehowa School District, attended by the Koe family children, were withdrawn. Jane Goe
attended the Penfield Central School District.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ............................................................................................................ i
PARTIES AND RULE 29.6 STATEMENT ................................................................................. iii
TABLE OF CONTENTS ............................................................................................................... iv
TABLE OF APPENDICES ........................................................................................................... vi
TABLE OF CITED AUTHORITIES ..............................................................................................x
DECISIONS BELOW .....................................................................................................................1
JURISDICTION ..............................................................................................................................1
STATEMENT OF THE CASE........................................................................................................6
A.

New York Childhood Immunization Requirements and Exemptions .....................6

B.

As-Applied Challenges ..........................................................................................10
Jane Boe .................................................................................................................11
Jane and John Coe ..................................................................................................12
John Foe .................................................................................................................13
John Loe .................................................................................................................15

REASONS FOR GRANTING THE APPLICATION ...................................................................18
I.

II.

III.

The Right to a Medical Exemption if a Child is at Risk of Harm or
Death is Indisputably Clear ....................................................................................19
a.

The challenged policies violate the harm avoidance doctrine ...................21

b.

The challenged policies impermissibly infringe on the
physician’s independent medical judgment ...............................................25

c.

The challenged policies are not narrowly tailored to uphold a
compelling state interest sufficient to outweigh a child’s right to
a medical exemption ..................................................................................30

The Lower Courts’ Decisions Exacerbate Confusion on Constitutional
Issues of Nationwide Importance...........................................................................35
a.

Doe and Ayotte apply to all medical exemption cases, not just
abortion cases .............................................................................................36

b.

The Unconstitutional Conditions Doctrine Requires Strict
Scrutiny Review .........................................................................................38

The Circumstances are Exigent – Each Day of Exclusion from School
and Special Education Services Causes Further Irreparable Harm .......................40
iv

IV.

The Balance of Hardships and Public Interest Likewise Favor Injunctive
Relief ......................................................................................................................41

CONCLUSION ..............................................................................................................................42

v

TABLE OF APPENDICES

APPENDIX A—DENYAL OF INJUNCTION PENDING APPEAL OF THE UNITED
STATES COURT OF APPEALS FOR THE SECOND CIRCUIT, DATED
JANUARY 5, 2021
APPENDIX B—U.S. DISTRICT COURT NORTHERN DISTRICT OF NEW YORK,
CIVIL DOCKET FOR CASE #: 1:20-cv-0 0840-BKS-CFH
APPENDIX C—ORDER OF THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF NEW YORK, FILED OCTOBER 22, 2020
APPENDIX D—DECLARATION OF JANE DOE IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX E—DECLARATION OF JANE BOE IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX F—DECLARATION OF JOHN COE IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX G—DECLARATION OF JOHN FOE IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX H—DECLARATION OF JANE JOE IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX I—DECLARATION OF JANE LOE IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020

vi

APPENDIX J—DECLARATION OF LAWRENCE PALEVSKY M.D. IN SUPPORT OF
PLAINTIFFS’ MOTION FOR A PRELIMINARY INJUNCTION IN THE
UNITED STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF
NEW YORK, FILED AUGUST 25, 2020
APPENDIX K—DECLARATION OF A.M. 2 IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX L—DECLARATION OF E.C. IN SUPPORT OF PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF NEW YORK, FILED
AUGUST 25, 2020
APPENDIX M—DECLARATION OF J.S. IN SUPPORT OF PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF NEW YORK, FILED
AUGUST 25, 2020
APPENDIX N—DECLARATION OF N.C. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX O—DECLARATION OF B.B. IN SUPPORT OF PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF NEW YORK, FILED
AUGUST 25, 2020
APPENDIX P—DECLARATION OF A.M. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX Q—DECLARATION OF K.W. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX R—DECLARATION OF C.M. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020

vii

APPENDIX S—DECLARATION OF N.F. IN SUPPORT OF PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF NEW YORK, FILED
AUGUST 25, 2020
APPENDIX T—DECLARATION OF C.B. IN SUPPORT OF PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF NEW YORK, FILED
AUGUST 25, 2020
APPENDIX U—DECLARATION OF A.M. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX V—DECLARATION OF R.B. IN SUPPORT OF PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF NEW YORK, FILED
AUGUST 25, 2020
APPENDIX W—DECLARATION OF M.D. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX X—DECLARATION OF B.P. IN SUPPORT OF PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF NEW YORK, FILED
AUGUST 25, 2020
APPENDIX Y—DECLARATION OF R.F. IN SUPPORT OF PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF NEW YORK, FILED
AUGUST 25, 2020
APPENDIX Z—DECLARATION OF M.N. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX AA—DECLARATION OF S.P. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020

viii

APPENDIX BB— DECLARATION OF J.H. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020
APPENDIX CC— DECLARATION OF H.D. IN SUPPORT OF PLAINTIFFS’
MOTION FOR A PRELIMINARY INJUNCTION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF NEW YORK,
FILED AUGUST 25, 2020

ix

TABLE OF AUTHORITIES
Page(s)
Cases:
Am. Trucking Ass’ns, Inc. v. Gray,
483 U.S. 1306 (1987) .........................................................................................................19
Ayotte v. Planned Parenthood of N. New England,
546 U.S. 320 (2006) ................................................................................................... passim
Brown v. Board of Education,
347 U.S. 483 (1954) ...........................................................................................................40
Colautti v. Franklin,
439 U.S. 379 (1979) ...........................................................................................................26
Doe v. Bolton,
410 U.S. 179 (1973) ................................................................................................... passim
Faively Transp. Malmo AB v. Wabtec Corp.,
559 F.3d 110 (2d Cir. 2009)...............................................................................................40
Jacobson v. Commonwealth of Massachusetts,
197 U.S. 11 (1905) ..................................................................................................... passim
Koontz v. St. Johns River Water Mgmt. Dist.,
570 U.S. 595 (2013) ...........................................................................................................39
Little Sisters of the Poor Home for the Aged, Denver v. Sebelius,
571 U.S. 1171 (2014) .........................................................................................................19
Matter of Hofbauer,
47 N.Y.2d 648 (1979) ........................................................................................................29
N.Y. Progress & Prot. PAC v. Walsh,
733 F.3d 483 (2d Cir. 2010)...............................................................................................42
Ohio Citizens for Responsible Energy, Inc. v. Nuclear Regul. Comm’n,
479 U.S. 1312 (1986) .........................................................................................................18
Parham v. J.R.,
442 U.S. 584 (1979) ...........................................................................................................28
Perry v. Sinderman,
408 U.S. 593 (1972) ...........................................................................................................39
Planned Parenthood of Central Missouri v. Danforth,
428 U.S. 52 (1976) .......................................................................................................26, 29
Planned Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833 (1992) ...........................................................................................................22

x

South Bay Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020) .........................................................................................................5
Stenberg v. Carhart,
530 U.S. 914 (2000) ...............................................................................................21, 22, 30
Troxel v. Granville,
530 U.S. 57 (2000) .............................................................................................................28
Wallis v. Spencer,
202 F.3d 1126 (9th Cir. 2000) ...........................................................................................29
Whalen v. Roe,
429 U.S. 589 (1977) ...........................................................................................................36

Statutes & Other Authorities:
28 U.S.C. § 1292 ..............................................................................................................................1
28 U.S.C. § 1651 ..........................................................................................................................1, 2
28 U.S.C. § 1651(a) .......................................................................................................................18
1 W. BLACKSTONE, COMMENTARIES 119 .......................................................................3, 19
10 N.Y.C.R.R. § 66.1 .................................................................................................................7, 18
A.J. ASHWORTH, SELF-DEFENCE AND THE RIGHT TO LIFE,
34 Cambridge L.J. 282 (1975) .............................................................................................3
JOHN LOCKE, SECOND TREATISE OF GOVERNMENT,
Ch II, 6, 1690 .......................................................................................................................3
LAWRENCE O. GOSTIN, PUBLIC HEALTH LAW: POWER, DUTY, RESTRAINT
126-28 (2d ed. 2008) ..........................................................................................................21
N.Y. P.H.L. § 2164 ....................................................................................................................6, 38
N.Y. P.H.L. § 2164(2)......................................................................................................................6
N.Y. P.H.L. § 2164(7)......................................................................................................................6
N.Y. P.H.L. § 2164(8)................................................................................................................6, 30
Sup. Ct. R. 20 ...................................................................................................................................2
Sup. Ct. R. 22 ...................................................................................................................................2
Sup. Ct. R. 23 ...................................................................................................................................2

xi

DECISIONS BELOW
The short caption of this case is Jane Doe, et al v. Howard Zucker, et al. The docket number
in the pending matter before the Northern District of New York is 1:20-cv-00840-BKS-CFH. The
docket number in the pending interlocutory appeal in the Second Circuit is 20-3915.
The Second Circuit’s order denying Applicants’ motion for an injunction pending appeal,
dated January 5, 2021, is attached as Exhibit A (the “Second Circuit Order”). The District Court’s
text order, dated November 20, 2020, declining to exercise jurisdiction over the Applicants’
motion for an injunction pending appeal, is available at Docket 1:20-cv-00840-BKS-CFH [Doc.
No. 128], and a highlighted copy of that text order is attached as Exhibit B. The District Court’s
order, dated October 22, 2020, denying Applicants’ motion for a preliminary injunction, which is
the order on appeal in the Second Circuit, is attached as Exhibit C (the “PI Order”). The District
Court’s text order denying Applicants’ motion for a temporary restraining order, dated August 27,
2020, is available at Docket 1:20-cv-00840-BKS-CFH [Doc. No. 46], and highlighted in Exhibit
B. Declarations submitted with the Applicants’ Motion for a Preliminary Injunction filed in the
District Court on August 25, 2020, are attached as Exhibits D-CC and incorporated by reference
in this motion.
JURISDICTION
Applicants have a pending interlocutory appeal in the Second Circuit, pursuant to 28
U.S.C. § 1292. This Court has jurisdiction pursuant to 28 U.S.C. § 1651.

1

TO THE HONORABLE SONIA SOTOMAYOR, ASSOCIATE JUSTICE OF THE
SUPREME COURT AND CIRCUIT JUSTICE FOR THE SECOND CIRCUIT:
Pursuant to Rules 20, 22, and 23 of the Rules of this Court, and 28 U.S.C. §1651,
Applicants respectfully request a writ of injunction prohibiting Respondents from excluding
children from distance learning on the basis of vaccination status if a state-licensed physician has
certified that compliance would place the child at risk of harm.
Each school district in the State already offers entirely online and remote education options
for the 2020-21 school year (“distance learning”). However, after this suit was filed last summer,
Commissioner Zucker issued guidance directing schools to exclude the Impacted Children even
from distance learning. The Impacted Children are likely to succeed on the merits, as this Court’s
prior decisions examining substantially similar burdens on medical exemptions establish that the
challenged policies are unconstitutional. Moreover, excluding medically fragile children from
distance learning because they are missing a vaccine that might harm or kill them serves no valid
state interest and will cause irreparable harm, particularly to those vulnerable children whose
families lack the resources to move out of state or pay for private tutors and services while their
rights are litigated in the courts during the coming months or years.
The fundamental right to a medical exemption from vaccines that could harm or kill a
child is indisputably clear, particularly where, as here, state-licensed physicians have certified
that full compliance puts the child at risk of serious harm. This right requires the highest level of
scrutiny. It is more strictly guarded even than well-protected fundamental liberty interests. To be
sure, the infringement on the right to a medical exemption burdens many well-established
fundamental liberty rights, such as informed consent, bodily autonomy, the right to refuse medical
treatment, parental rights, fundamental physician/patient rights, and privacy rights, each of which
independently requires strict scrutiny review. But at its core, the right to a medical exemption
2

derives from the inalienable right to protect one’s life, which is the most universally guarded
fundamental right - not just under our constitutional system, but in any civilized nation.
The right to self-preservation, enshrined in the Fourteenth Amendment of the United
States Constitution as inalienable, is the primary natural right. It is antecedent to the social
contract, and deeply rooted in our foundational concepts of law and justice. See, e.g., A.J.
ASHWORTH, SELF-DEFENCE AND THE RIGHT TO LIFE, 34 Cambridge L.J. 282, 282
(1975). In Commentaries on the Laws of England, William Blackstone described the right to
protect one’s “life and limb” from harm as “the primary law of nature,” holding that it is an
“absolute right” which cannot be infringed. Id. (citing 1 W. BLACKSTONE, COMMENTARIES
119). John Locke discussed the “Fundamental, sacred and inalterable law of self-preservation” as
“antecedent and paramount to all positive Laws and constitutions.” He saw the right as so
fundamental to basic human nature that “no law can oblige a man to abandon it.” Id (citing JOHN
LOCKE, SECOND TREATISE OF GOVERNMENT, Ch II, 6, 1690). Similar holdings are
central to the writings of most of the political and legal philosophers that helped shape our
constitutional democracy.
Unsurprisingly, this Court has consistently safeguarded the right to a medical exemption
from regulation that places a person at risk of physical harm, applying the highest level of
scrutiny. More than 100 years ago, this Court already held that requiring a person to submit to an
immunization if he is at risk of harm from the vaccine is unconstitutional. Jacobson v.
Commonwealth of Massachusetts, 197 U.S. 11, 27, 36-39 (1905) (the state’s interest in mandating
vaccines to protect the public at large from communicable disease can override personal liberty
interests but cannot supersede a person’s right to a medical exemption if he is at risk of harm from
the vaccine).

3

Since Jacobson, the Court has provided guidance on the limits of state involvement in
determining whether a person needs a medical exemption. As demonstrated below, two doctrines
have emerged: (1) strict harm avoidance, see Ayotte v. Planned Parenthood of N. New England,
546 U.S. 320 (2006) (holding that a medical exemption regulation is unconstitutional if it is
narrow enough, facially or as applied, to exclude anyone at risk of harm); and (2) rigorous
protection against infringement upon a chosen state-licensed provider’s “best medical judgment,”
see Doe v. Bolton, 410 U.S. 179 (1973) (holding that the state cannot interfere in medical
exemption decisions of state-licensed physicians by predefining “necessity” or subjecting their
exemptions to corroboration requirements or third-party review).
In this case, the challenged regulation and policies violate both doctrines, and will likely
be found unconstitutional.
Last August, the impacted families sought emergency preliminary injunctive relief, and
later an injunction pending appeal, in the Northern District of New York to stay the challenged
policies for the upcoming school year so that children with a medical exemption could attend
school pending resolution of the case. The lower courts denied the applications and the subsequent
emergency motion for a narrower injunction pending appeal in the Second Circuit, in which the
children sought – as they do now - access at least to online education and services pending appeal.
While the District Court found the children would be irreparably harmed by the ongoing
total deprivation of access to school (PI Order at 9), it concluded that they are unlikely to succeed
on the merits. In so holding, the court (1) failed to recognize the right to a medical exemption as
fundamental; (2) ignored the unconstitutional conditions doctrine, proposing that since there is no
“fundamental right” to an education, any condition on access to school is subject only to rational
basis review; and (3) misread Jacobson v. Massachusetts, 197 U.S. 11 (1905), and Chief Justice

4

Roberts’s concurrence in South Bay Pentecostal Church v. Newsom, 140 S. Ct. 1613, 1613-14
(2020), as establishing carte blanche authority for administrative agencies to impose unfettered
restrictions on fundamental rights in the name of public health without strict scrutiny review or
independent judicial analysis of the facts.
These foundational legal errors urgently need to be corrected as they carry great
significance nationwide. Last year, New York and California became the first states to attempt to
limit the medical exemption in such bold violation of this Court’s direct, binding precedent. Other
states are watching. If the lower courts’ decisions are allowed to stand, medically fragile children
across the nation could be put at serious risk and harmed as they are being harmed in New York
and California.
Most importantly, these children are suffering urgent, ongoing, irreparable harm every day
they are denied access to school and special education services. If denied any relief or guidance
from the Court now, it could take years for this case to proceed through the lower courts. In the
meantime, medically fragile children state-wide are in crisis. Each impacted child has a
certification from one or more licensed physician stating the child cannot safely comply with the
full vaccine schedule. The modest relief they seek -- to be allowed to participate in distance
learning pending appeal -- does no harm to anyone. The damage already done to the children
cannot be undone, but at least having some access to school and services might mitigate ongoing
new damage. Each day the children are excluded from access to desperately needed educational
services causes them to fall further behind. Hundreds of medically fragile children are falling
through the cracks. They need this Court’s urgent intervention.

5

STATEMENT OF THE CASE
A. New York Childhood Immunization Requirements and Exemptions.
New York Public Health Law (P.H.L.) § 2164 requires that all New York children receive
an average of 50 doses of 16 different vaccines between birth and the age of eighteen. But the
straightforward statutory medical exemption states that “if any physician licensed to practice
medicine in this state certifies that such immunization may be detrimental to a child’s health, this
section shall be inapplicable.” P.H.L. §2164(8).
Although the lower court wrongly assumed the requirements apply only as a condition to
attend school, the plain language of the statute shows that the immunization and exemption
requirements apply to all children, whether or not they attend school. See, e.g., P.H.L. § 2164(2)
(“Every person in parental relation to a child in this state shall have administered to such child an
adequate dose or doses of an immunizing agent [on a schedule provided by the CDC]…”).
The statute further requires all public and private schools to exclude any child who does
not submit proof of immunization or a medical exemption form within 14 days of the start of
school each year. P.H.L. § 2164(7). But a family can face other consequences, such as loss of
custody or injury to a child if a physician is unable to use her best medical judgment about an
exemption.
In August 2019, without direction from the Legislature, the unelected administrators at the
DOH promulgated new regulations and policies that eviscerate the Public Health Law’s medical
exemption protection. They purportedly did so in reaction to the Legislature’s June 2019 decision
to remove the religious exemption; however, in repealing the religious exemption, the Legislature
not only left the medical exemption intact, but it had also justified the religious exemption repeal
as necessary to protect children who had medical exemptions.

6

It is undisputed that children with medical exemptions make up a small portion of the
public and that respecting their exemptions cannot impact herd immunity thresholds. This would
be true even if their numbers were to triple after the removal of the religious exemption, as the
DOH speculated could occur (currently, the number of applicants is 0.2% of children – even if that
number tripled, it would still be less than 1% of all school children, far below the most aggressive
estimates for herd immunity thresholds proposed by the state which require less than 10%
exemption levels).
Moreover, the Public Health Law already offers multiple less restrictive methods to protect
the public from harm should there be an outbreak of a vaccine-preventable disease. Under the
PHL, during an outbreak, schools can exclude unvaccinated students from any school with a single
case of a vaccine-preventable disease.

The DOH can also impose quarantines of infected

individuals and contacts. Also, all schools right now are implementing rigorous social distancing,
daily temperature and symptom checks, and other virus prevention policies. The possibility that a
child with a medical exemption could catch, leave aside catch and pass on, a vaccine-preventable
disease is virtually zero.
Nonetheless, the DOH announced that it was adopting new regulations and aggressive
policies to impose burdens on the availability of a medical exemption so that drastically fewer
children could get one.
First, Respondents added a new subsection (l) to DOH regulation codified at 10 N.Y.C.R.R.
§66.1, which predefines “what may be detrimental to a child’s health” so that physicians can no
longer exercise independent clinical judgment but must now select from a narrow list of
contraindications provided in the CDC’s Advisory Committee on Immunization Practices
“General Best Practice Guidelines” (“ACIP” guidelines). Technically the regulation also allows

7

exemptions to be based on the undefined category of “other nationally recognized evidence-based
standards of care.” However, Respondents admit that, in practice, the DOH and implementing
school districts do not read this as meaningfully expanding the definition beyond ACIP and in
practice only consider whether a medical exemption meets the narrow ACIP criteria without any
consideration of whether it could meet “other nationally recognized evidence-based standards of
care” than the narrow ACIP guidelines. See, e.g., Affidavit of Dr. Howard R. Sussman, consultant
to Three Villages School District, Docket 1:20-cv-00840-BKS-CFH [Doc. No. 63-26] (“When the
district provides me with a medical exemption request, I refer to the ACIPs General Best Practice
Guidelines for Immunization to determine if the student’s purported illness constitutes a
contraindication or precaution. Specially, I refer to Tables 4-1 and 4-2 of the ACIP guidelines…My
reliance on the ACIP guidelines to determine if a student has a recognized contraindication or
precaution to a particular vaccine is consistent with NYCRR 66-1.1(1).”).
The new regulation is not only arbitrary. It is dangerous. Respondents did not refute that
the ACIP guidelines are not exhaustive and were never meant to define the limits of valid medical
exemptions. The CDC itself acknowledges this. Dr. Andrew Kroger, a representative of the ACIP
committee and author of the most recent guidelines confirmed this in writing to plaintiff Jane Doe:
“The ACIP guidelines were never meant to be a population-based concept.…The CDC does not
determine medical exemptions. We define contraindications. It is the medical provider’s
prerogative to determine whether this list of conditions can be broader to define medical
exemptions.” Docket 1:20-cv-00840-BKS-CFH [Doc. No. 1 ¶265; Doc. 41-12 ¶27].
Inflexible adherence to ACIP necessarily eliminates hundreds of known adverse reactions
and conditions that may give rise to the need for medical exemptions. The eliminated reasons are
not fringe or speculative. Indeed, the ACIP list does not even include many of the presumptive

8

injuries routinely compensated by the U.S. government as acknowledged serious vaccine reactions,
leave aside the hundreds of other medical reasons for precaution or contraindication articulated in
evidence-based studies, Institutes of Medicine reports, and the manufacturers’ own warnings.
In short, Respondents cannot dispute that narrowing the definition of “what may cause
harm” as they have will inevitably result in denial of at least some valid medical exemptions to
children who need one.
Second, as applied, the DOH regulations deputize school principals, with no medical
training whatsoever, to substantively review and overrule treating physicians about what qualifies
as a valid reason for exemption. Respondents admit that school principals are not qualified for this
task. As a result, most of the schools hire consulting doctors or nurses to review the medical
exemption forms and make recommendations to the principals. But, if the consultants disagree
with the treating physician, the challenged regulation authorizes the lay school principal to make
the final decision between the competing medical opinions.
Respondents admit that deputizing school principals to review and deny medical
exemptions, even in consultation with non-treating medical professionals, has and will also result
in denial of valid exemptions for children who need it. As Respondents acknowledge in their
briefing below, successful individual litigation has already even established several cases where
school principals expelled children whose exemptions fell squarely within the ACIP guidelines.
This policy endangers medically fragile children. School principals are no more qualified
to decide between differences of medical opinion than they are to substantively review the treating
physician in the first place. School principals have no understanding of the individual child’s needs
nor do they possess the medical training to decide which medical opinion will best safeguard the
child. Respondents presented no evidence to rebut this assertion.

9

These are very vulnerable kids. Some of these families have already lost one or more child
to an adverse vaccine reaction resulting in death. All these children have valid, evidence-based
medical reasons for exemption as certified by one or often multiple state-licensed physicians.
There is no allegation that any of their parents are unfit to make medical decisions in accordance
with their trusted medical providers or that their medical providers have done anything other than
provide their best good faith medical judgment.
B. As-Applied Challenges.
The District Court erred by characterizing this suit as “strictly facial” (over Applicants
objection), thereby denying the children’s request for an evidentiary hearing and failing to consider
the as-applied challenges at the heart of this case. The record does not support the District Court’s
characterization. The complaint states that Impacted Children challenge the policies both facially
and as-applied, see, e.g., Docket 1:20-cv-00840-BKS-CFH [Doc. No. 1 ¶27](“The barriers and
burdens placed on the medical exemption process in New York through the new regulations are
unconstitutional both on their face and as applied.”(emphasis added)); see also Docket 1:20-cv00840-BKS-CFH [Doc. No. 1 Prayer for Relief C, D, and E, at 72-74](seeking relief for facial and
as-applied claims). The moving papers attached and incorporated dozens of affidavits and argued
that the regulation and policies are applied in an unconstitutional manner as well as facially
deficient. Exhibits D-CC. Despite Plaintiffs’ clear articulation, the District Court refused to
consider the as-applied challenge in its ruling.
What has happened to these medically fragile children and their families cannot be ignored
in determining whether to grant injunctive relief. A few of the many compelling individual stories
are provided as a snapshot below. Applicants respectfully request the Court additionally review
the declarations submitted with the preliminary injunction motion, attached hereto as Exhibit D

10

through CC, which share substantially similar stories and reveal a heartbreaking pattern of
unconstitutional application across the state.
Jane Boe
Jane Boe is fifteen and has multiple serious diagnosed autoimmune syndromes and health
challenges, including autoimmune encephalitis, which causes progressive neurological injury and
attacks the brain. She is up to date on all immunizations aside from the meningococcal vaccine.
The unrebutted evidence below establishes that the meningococcal vaccine can only provide
personal protection and cannot prevent infection and asymptomatic transmission to others.
Jane’s health began to seriously deteriorate after her last set of immunizations at age
twelve. A few years later, her older brother died from complications caused by the meningococcal
vaccine. He had the same diagnosed conditions and vulnerabilities as Jane, and he took the vaccine
against medical advice as a freshman in college.
Jane’s physicians determined that for Jane, the risk of injury and harm far outweighs any
potential benefit from this vaccine. Her primary care physician submitted a certified exemption in
the fall of 2019. Acting under the guidance of a consultant who never even met Jane, the three
Villages School District denied the exemption and then denied two subsequently submitted
exemptions from two other treating licensed physicians, each of whom certified that Jane is at risk
of serious harm and cannot safely take the meningococcal vaccine.
After the denial of her second exemption, in December 2019, Jane was removed from
school. In March 2020, the district official expelled her, despite guidance from Elizabeth RauschPhung, M.D., a non-practicing physician at the DOH, who recommended conditional acceptance
of the third exemption. Dr. Rausch-Phung’s letter indicated that death of a sibling was not listed
as a covered reason for exemption under ACIP but acknowledged one of Jane’s other bases for

11

exemption did meet the ACIP criteria and should be accepted. However, the letter advised that the
school ask Jane for a fourth exemption certification in 30 days to ensure she still qualified. Despite
Dr. Rausch-Phung’s recommendation, the district did not issue a conditional acceptance. Instead,
the district expelled Jane without giving her a chance to get a fourth exemption letter, perhaps
rightly assuming that the requirement that her parents obtain a new medical exemptions every 30
days, leaving Jane with the constant uncertainty about whether she might suddenly be removed
from school again at any moment, was unreasonable.
Jane has suffered greatly as a result of the school’s callous treatment of her health needs.
The District humiliated and ostracized her, ignoring, and ridiculing valid health concerns. Her
parents had to obtain not one, but three different corroborating opinions from licensed physicians,
requiring unnecessary medical appointments, tests, and financial and emotional stress. And still,
even though all her doctors agreed that Jane cannot be safely vaccinated with the meningitis
vaccine, the District still refused to honor her exemption. The family is still grieving Jane’s brother,
and the past year has been too much for Jane in her fragile state. As her classmates remain
immersed in their lives at school, she feels abandoned, angry, and confused and struggles with
serious depression and anxiety.
Jane and John Coe
Two children in the Coe family died from adverse vaccine reactions. After establishing
causation in contested proceedings, the federal government compensated the family for a vaccinecaused death. Several other members of the Coe family have also suffered documented severe lifethreatening adverse reactions to vaccines. The Coe children have the same genetic risk factors as
their deceased and injured family members. They have multiple documented immune system
vulnerabilities and have never been vaccinated, both for religious reasons and upon the advice of

12

medical providers.
In fall 2019, the Coe family submitted lengthy evidence-based certifications from their
licensed physician accompanied by letters from their genetic counselor. The Lansing Central
School District did not respond, and the family assumed the medical exemptions had been granted.
Three months later, without warning, the District notified the family that it was denying their
medical exemption and that the children had one week to get over a dozen immunizations, each
against medical advice, or be expelled. The District attached a letter from Dr. Rausch-Phung,
advising that adverse reactions of family members, including death, are not listed as reasons to
avoid further vaccination under ACIP.
The Coe family hired an attorney who argued that the regulation also allows for “other
nationally recognized evidence-based standards of care” and that the children’s doctor provided
evidence-based reasons for exemption in his lengthy medical exemption letters. The school district
replied that its principals had not relied on Dr. Rausch-Phung’s recommendation but rather
“independently” decided to overrule the children’s doctor. The District refused to provide any
additional information about the reasons for denial or give the family any time to obtain a
corroborating opinion from a “pediatric genetic specialist,” as Dr. Rausch-Phung recommended.
Instead, the District expelled the Coe children. Though the District offers an entirely remote online
learning option to all students, its agents told the family this fall that they cannot participate. The
children are suffering and desperately want to rejoin their classmates online. The Coes both work
full time and urgently seek help so that their children do not fall further behind.
John Foe
John Foe, eleven, was born with Hirschsprung’s Disease, a rare genetic disease that
prevents the formation of connections between the brain and gastrointestinal system. As an infant,
surgeons removed a section of John’s intestine and reattached the system. He uses a prosthetic
13

colon system that must be inserted every night to keep him socially continent. The surgery
profoundly affected John’s immune system, more than 70% of which is in the gastrointestinal
system. John also suffers from a long list of severe allergies. He is so sensitive to chemicals and
metals that he cannot wear sunscreen or even drink tap water. When he drinks water that is not
filtered correctly, he suffers cramping, diarrhea, and a bleeding rash around his rectum. When
antibiotics are necessary, John requires in-patient hospitalization for several days to manage
adverse symptoms of vomiting, diarrhea, and dehydration. He also requires concurrent
administration of metronidazole to minimize reaction symptoms.
Another of John’s known triggers is immunization, to which he had a severe reaction at
age three. Due to this serious reaction, and considering his and his family’s3 medical histories,
John’s pediatrician determined that he was at substantial risk of having even more severe reactions
to subsequent immunization and recommended that he should not receive any more
vaccines. Pursuant to this medical advice, and in consideration of his parents’ religious beliefs,
John has not received any immunizations since his serious adverse reaction at age three.
In August 2019, John submitted a medical exemption from his pediatrician. On September
22, 2019, the Albany City School District Transportation Center informed John’s mother that the
District had denied John’s medical exemption and expelled him from school. The District based
its decision on advice from a consulting physician who never met John or his family and is
unfamiliar with John’s medical history and particular conditions.
Since September 23, 2019, the Albany City School District has barred John from attending
school. The expulsion has significantly impacted John. A very social child, John loved attending
school and was beloved by his classmates. He was an honors student, an avid participant in

3

John’s mother suffered paralysis after receiving the DTaP shot.
14

marching band, chorus, chess club and running club, and affectionately referred to as the “mayor”
of his school. John also has special needs and qualified for and received critical services under a
504 plan at school. Following his expulsion, the District refused to provide John with these
services at home, and he has been without them since September 2019.
John’s parents, both teachers in the District, worked full time, and John was alone most
days trying to learn on his own in self-directed programming his family found online. The program
did not work for him and John became angry and confused. He fell into a serious depression. In
crisis, the family began making plans to disrupt their lives and careers and move to another state
though his parents are only certified to teach in New York. They were so worried about their son
they were ready to sacrifice everything – their home, their careers and all that they had built.
In desperation, the parents first submitted John’s medical exemption to several private
schools in the area. Each one accepted John’s exemption after review without issue. In March
2019, he began attending a Catholic school and finished the spring semester there. It was better
than no school, but his new school did not provide John with special education services, and John’s
family suffered unsustainable financial stress from the tuition burden. This school year, John’s
family cannot afford to send him to private school. John is once again unable to go to school. John
wants desperately to return to his old class, where he felt at home and was beloved. Even
participation in distance learning for now with other students and teachers would make an
enormous difference to John and his family.
John Loe
John Loe is 15 and diagnosed with two forms of debilitating autoimmune encephalitis:
Pediatric

Acute-Onset

Neuropsychiatric

Syndrome

15

(“P.A.N.S.”)

and

Hashimoto’s

Encephalopathy. Since he was seven years old, he has had a medical exemption to further
immunizations.
For the first seven years of his life, John was vaccinated in strict accordance with ACIP
guidelines, receiving all the influenza and H1N1 flu vaccines that were strongly
recommended. Following a series of immunizations at age five, John’s health increasingly began
to deteriorate. His condition worsened after his age six immunizations and finally reached a crisis
point after his immunizations the following year. John became so ill that he could tolerate only a
sip of water and one saltine cracker a day. His neurological and physical symptoms became
debilitating and alarming, including hallucinations, self-harm as he banged his head in reaction to
the pain of his swelling brain, and suicidal ideation.
Desperate and scared, his parents found a pediatric neurologist, who diagnosed John’s
serious medical conditions and stabilized his health. Since age seven, the same trusted pediatric
neurologist has treated John. Upon this neurologist’s advice, John has not received any vaccines
since age seven and, until last year, his schools accorded him a medical exemption without issue.
John is current on all his immunizations except for a final booster dose of the Tdap vaccine
(tetanus,

diphtheria,

and

pertussis)

and

two

doses

of

meningococcal

vaccine

(meningitis). Respondents do not contest that each of these missing vaccines can provide only
personal protection and cannot stop infection and transmission to others.
In 2018, in ninth grade, John began attending St. Anthony’s High School (“St.
Anthony’s”), a private Catholic college preparatory school in the South Huntington School
District. For 2018-19, St. Anthony’s accepted his annual medical exemption for the Tdap and
meningococcal vaccines. But in September 2019, the school refused to accept John’s medical
exemption. It based its decision on the advice of an osteopath who acts as consultant to the South

16

Huntington School District, and who St. Anthony’s elected to use to assist with their review. This
consultant never met John and has no expertise in John’s serious health conditions. Based on his
advice, St. Anthony’s removed John from classes on September 20, 2019. To make matters worse,
after receiving intimidating calls from the district’s consultant, without explanation, John’s longrelied upon and trusted pediatric neurologist dropped him as a patient.
For the remainder of the fall of 2019, the family’s life revolved around the uphill battle of
trying to return John back to school and to find a new specialist. There are few specialists with
expertise to treat John’s conditions and their waiting lists are long. John’s health and academics
declined dramatically. In November 2019, the Loes finally secured an appointment with a pediatric
immunologist with expertise in autoimmune encephalopathy. The new specialist agreed that it is
unsafe to immunize John and wrote a medical exemption immediately. St. Anthony’s denied this
request, wrongly asserting that the immunologist needed to fill out a separate medical exemption
form for each vaccines, though this is not required by the regulations. John’s mother missed
substantial work time and essentially “camped out” at the immunologist’s office to get another
appointment and a third set of forms. By then, the immunologist was hesitant to sign the new forms
because the DOH contacted him after he signed the first ones and, though nothing in the law
supports this, told him that only pediatricians who administer the vaccine can write exemptions.
After the Loes showed him the statute and regulatory guidance, the immunologist ultimately
signed the forms.
Months of bureaucratic delay followed the submission of the third set of forms. In the
meantime, John was not able to attend school, though he was still technically a student on home
instruction. In spring 2020, St. Anthony’s denied John’s third medical exemption because the
consulting osteopath asserted that the immunologist could not “sufficiently defend” the

17

exemptions in his phone conversation with him. Thus, St. Anthony’s immediately and permanently
expelled John.
John’s school expulsion has been traumatic. A hallmark of his condition is severe social
anxiety. Before his expulsion, John was just at a point of recovering enough health to start
developing confidence. He was proud to have been accepted to St. Anthony’s, which had been his
dream since he was little. He was doing well in school, getting recognition for his music and was
excited to be in several school bands. He was finally overcoming some of his social anxiety and
making friends. John’s confidence has now been shattered. He is severely depressed and is not
able to keep up with his home studies.
School expulsion has dashed John’s college prospects and substantially altered the course
of his life for the worse. His parents work full time and home instruction has not been successful.
Additionally, because of his vaccine status, John was excluded from the P.S.A.T. course and has
not performed well. He feels hopelessly lost and his depression and anxiety have become
debilitating. His mother reached out to psychologists who can provide counseling about his
situation, feelings, and homeschooling encouragement, but John refuses to engage and has shut
down to an alarming degree.
REASONS FOR GRANTING THE APPLICATION
The All Writs Act, 28 U.S.C. § 1651(a), authorizes an individual Justice or the Court to
issue an injunction in “exigent circumstances” when the “legal rights at issue are indisputably
clear” and injunctive relief is “necessary or appropriate in aid of the Court’s jurisdiction.” Ohio
Citizens for Responsible Energy, Inc. v. Nuclear Regul. Comm’n, 479 U.S. 1312, 1312 (1986)
(Scalia, J., in chambers) (internal quotation marks and brackets omitted). This Court’s discretion
is broad: it may issue an injunction pending appellate review “based on all the circumstances of

18

the case . . . [without] express[ing] . . . the Court’s views on the merits.” Little Sisters of the Poor
Home for the Aged, Denver v. Sebelius, 571 U.S. 1171 (2014). A Circuit Justice or the full Court
may also grant injunctive relief “[i]f there is a ‘significant possibility’ that the Court would” grant
certiorari “and if there is a likelihood that irreparable injury will result if relief is not granted.” Am.
Trucking Ass’ns, Inc. v. Gray, 483 U.S. 1306, 1308 (1987) (Blackmun, J). Here, the factors favor
granting the application for an injunction pending appeal.
I.

The Right to a Medical Exemption if a Child is at Risk of Harm or Death is
Indisputably Clear.
The rights at issue in this case are indisputably clear. For more than one hundred and

fifteen years, a sufficient medical exemption has remained an explicit constitutional prerequisite
to any vaccine mandate. Jacobson, 197 U.S. at 27, 36-39 (holding the state’s interest in mandating
vaccines to protect the public at large from communicable disease can override personal liberty
interests but cannot supersede a person’s right to a medical exemption if she is at risk of harm).
It is as close to an absolute right as we possess, and indeed, has been described as “absolute” by
legal and political foundational philosophers since at least the 1600s. See, BLACKSTONE, supra.
This Court strictly guards the right to a medical exemption from otherwise permissible
health regulations as an independent fundamental right in modern jurisprudence. See, e.g., Ayotte,
546 U.S. at 325 (recognizing an independent fundamental right to a medical exemption from
otherwise permissible health regulations and holding that a medical exemption is unconstitutional
if it might exclude even a few children who are at risk of harm).
Medical exemption cases demand the highest level of scrutiny. As discussed above, not
only are there numerous fundamental liberty rights at stake – including but not limited to informed
consent, bodily autonomy, privacy, medical rights, and in the case of children, parental rights to
make important medical decisions for their children. But the right to a medical exemption is more
19

than that. It is not just a liberty interest; it derives primarily from our inalienable right to protect
life, which is the most fundamental of the natural rights.
Unsurprisingly, Jacobson, which generally counseled deference to public health
calculations and predates modern fundamental rights analysis, expressly carved out medical
exemptions as an area requiring courts to engage in vigorous independent judicial review. 197
U.S. 11 at 36-39. Jacobson held that it would not only be unconstitutional to force a person to be
vaccinated in a case where she would be at risk of harm, it would be “cruel and inhuman in the
last degree.” Id. Jacobson directed that, where a person alleges that he is “not at the time a fit
subject of vaccination, or [for whom] vaccination by reason of his then condition would seriously
impair his health,” the judiciary is not only competent to strictly review the appropriate tailoring
of the medical exemption, but must do so:
We are not to be understood as holding that . . . the judiciary would not be
competent to interfere and protect the health and life of the individual concerned.
Id. at 39 (emphasis added).
Jacobson substantially predates the application of the Bill of Rights and substantive due
process liberty interest analysis to review of state action. Nonetheless, even in 1905, the Court de
facto recognized the Fourteenth Amendment’s protection of the right to life – and to be free from
government vaccine mandates that might jeopardize one’s life -- as requiring the strictest judicial
scrutiny. Indeed, to hold otherwise would be barbaric. A person may sometimes be asked to live
with the infringement of certain liberty interests in the service of the collective benefits derived
from the social contract, but no just government can force parents to sacrifice their innocent
children’s health or life for the benefit of others, leave aside hope to do so without strict scrutiny.
Since Jacobson, this Court continues to strictly guard against infringements on medical
exemptions, affording them significantly higher protection than given to infringements of

20

fundamental rights derived only from liberty interests. Even where the state establishes a
compelling interest, this Court has drawn a bright line against infringements on the right to a
medical exemption for those who are at risk of harm.
In determining the sufficiency of a law’s medical exemption protection, two clear
doctrines have emerged: (1) strict harm avoidance, and (2) a bar against infringement on the
licensed provider’s independent “best medical judgment” about the necessity of an exemption.
The challenged regulations and policies violate both doctrines and are likely unconstitutional.
a. The challenged policies violate the harm avoidance doctrine.
Jacobson’s harm avoidance principle – that a state cannot compel a person to submit to
an otherwise permissible health regulation that puts him at risk of harm – continues to be strictly
observed today. Public health law scholars acknowledge this principle of harm avoidance as part
of the foundational holding of Jacobson. See, e.g., LAWRENCE O. GOSTIN, PUBLIC HEALTH
LAW: POWER, DUTY, RESTRAINT 126-28 (2d ed. 2008)(per Jacobson, public health
regulations require five elements to be constitutional: (1) public health necessity, (2) reasonable
means, (3) proportionality, (4) harm avoidance, and (5) fairness).
Since Jacobson, this Court has repeatedly upheld the harm avoidance principle, finding
that if a medical exemption is narrow enough to exclude even a few who might need it, it is
unconstitutional on its face. For instance, in Stenberg v. Carhart, this Court held that the
hypothetical possibility that a woman in need could be excluded by the challenged statute’s
narrow medical exemption rendered an otherwise permissible partial-birth abortion law
unconstitutional. 530 U.S. 914, 937 (2000). In Stenberg, it was not clear that the narrow
exemption afforded by the statute – which protected a woman’s life, but not necessarily her health
-- was insufficient to protect all at risk women. Many other arguably safer methods of postviability abortion were still available if the woman’s health were at risk from the continued
21

pregnancy, and even the plaintiff’s experts could not point to a specific instance where a woman
would certainly need this type of abortion to protect health but not life. The Court’s analysis for
determining necessity is instructive:
The word “necessary” in Casey's phrase “necessary, in appropriate
medical judgment, for the preservation of the life or health of the
mother,” . . . cannot refer to an absolute necessity or to absolute
proof . . . Casey's words “appropriate medical judgment” must
embody the judicial need to tolerate responsible differences of
medical opinion.”
Id. at 937 (citing Planned Parenthood of Southeastern Pennsylvania v. Casey, 505 U.S.
833 (1992).
Similarly, in Ayotte, the Supreme Court addressed another hypothetical facial challenge
to an abortion regulation’s medical exemption, again striking it down as unconstitutionally narrow
because it allowed for the possibility that an at-risk young woman might not be covered. See 546
U.S. at 320. The challenged law required that a provider notify a minor’s parents 48 hours before
performing an abortion unless her life was in danger. This Court’s unanimous decision held that
the restriction on abortion was permissible under strict scrutiny – parents have a liberty interest
in notification 48 hours before their child has an abortion, and the state’s compelling interest in
safeguarding that right was sufficient to infringe upon a young woman’s liberty interest in
abortion. Yet, the Court held that the infringement on the separate right to a medical exemption
was unconstitutional because “in some very small percentage of cases” a young woman’s health,
but not life, might be endangered by waiting 48 hours to perform an abortion. Again, the statute
only provided an exemption where a woman’s life was threatened and did not provide a clear
exemption for situations in which a woman’s health, but not her life, were at risk; therefore, some
women might not be covered because their physician would not wish to subject themselves to
liability by operating in a grey area. There was a “bypass” option available for immediate and
22

deferential judicial review in cases where a woman’s health was in jeopardy, but the Court
deemed this insufficient to ensure all at risk young women could avail themselves of the
exemption in practice. Since the medical exemption was narrow enough to permit the possibility
that some women who might need it to protect their health would not receive an exemption, the
Court held that the law’s medical exemption was unconstitutional.
Ayotte illustrates how much stricter the scrutiny is for medical exemptions compared to
other fundamental rights, even well protected rights such as abortion. A plaintiff alleging a facial
challenge to a regulation impacting abortion has to establish that “in a large fraction of cases in
which [the law] is relevant, it will operate as a substantial obstacle to a woman’s choice to undergo
an abortion.” Casey, 505 U.S. at 895. However, in analyzing a facial challenge to a medical
exemption, this Court held that, even where the risk of harm might occur only in “some very small
percentage” of cases potentially not covered by the exemption, it was too narrow and therefore
unconstitutional. Ayotte, 546 U.S. at 328.
In the above cases, even the hypothetical possibility of denial of a medical exemption if a
woman’s health might be at risk was enough to render the statutory exemption facially
unconstitutional. Here, the state’s constricted regulation on medical exemptions cannot survive
where the risks are not just hypothetical but have occurred -- hundreds of children certified by
their treating doctors as at risk of serious harm are actively being denied medical exemptions in
New York.
In this case, like in Ayotte, it is not refuted that the challenged policies will result in at least
some children being denied necessary medical exemption protection. The complaint and moving
papers provide evidence of hundreds of additional evidence-based reasons that exist beyond the
narrow ACIP guideposts that put some children at substantial risk of harm or death. Manufacturers,

23

the United States government, and the Institutes of Medicine, among others, have acknowledged
these risks. The unrefuted evidence shows that even the CDC acknowledges the ACIP guidelines
cannot be used safely as the sole basis for granting or denying medical exemptions because they
do not provide an exhaustive list of valid reasons for exemption, are not population based, and
cannot supersede the clinical judgment of the treating physician. In short, Respondents’ limiting
definition is irrational and reckless.
The District Court erred by refusing to assess the unrefuted as-applied challenges. The
Impacted Children assert that, in practice, Respondents only consider whether the asserted
reasons for exemptions fall under a narrow list of ACIP contraindications. Not only did
Respondents fail to refute this, but many districts submitted affidavits admitting it. Nonetheless,
the District Court held that, since the language of the new regulation technically allows for an
undefined category of “other nationally recognized evidence-based standards of care” in addition
to ACIP, it was possible that would be read to cover all at-risk children. No evidence was
submitted to support this conclusion, which was contradicted by the Applicants factual assertions
and even Respondents’ own admissions, and the Court denied the request for an evidentiary
hearing. The District Court further refused to examine or consider the affidavits from the named
class members and dozens of additional impacted families to determine if the definition was being
applied narrowly, and thus resulting in the risk of denial of exemptions to children at risk of harm,
as the evidence proved.
Moreover, the Court applied the wrong standard for facial review, adopting Respondents’
shocking proposal that if just one school principal got her medical exemption review right, the
lawsuit should fail, even if hundreds of medically fragile children are denied valid and necessary

24

exemptions. This is an error of law. Pursuant to Ayotte, a medical exemption is facially invalid if
it could possibly exclude even a very few who need its protection. Ayotte, 546 U.S. at 328.
Since the uncontested facts in this case establish that at least some children will risk
improper denial of an exemption either by the narrow definition of “what may cause harm” or by
the reckless policies allowing school principals to overrule doctors, Applicants are likely to
succeed on the merits both facially and as applied.
b. The challenged policies impermissibly infringe on the physician’s independent
medical judgment.
In addition to violating the harm avoidance principle, the challenged actions also violate
this Court’s instructions on the limits of state interference in medical necessity determinations.
Fifty years ago, this Court examined nearly identical state interference in medical
exemption determinations declared the policies unconstitutional. Doe, 410 U.S. 199-200. Doe is
a seminal case in medical exemption jurisprudence because it lays out how to balance compelling
interests of the state while safeguarding the fundamental right to a robust and inclusive medical
exemption. The ultimate compromise the Court struck is that so long as a person submits
certification from a state-licensed physician, the state cannot further encroach on the
doctor/patient relationship. See Doe, 410 U.S. at 200 (holding that if a physician is licensed by
the State, he is recognized by the State as capable of exercising acceptable clinical judgment).
In Doe, this Court examined three aspects of further state interference in the medical
exemption decision almost identical to the challenged state interference here and held each
unconstitutional.
First, the Court affirmed that the state cannot predefine “what may cause harm” as it has
done here. Rather, a physician must be able to consider a broad range of factors to clinically
determine whether a medical exemption is “necessary.” “We agree with the District Court that
25

the medical judgment may be exercised in the light of all factors—physical, emotional,
psychological, familial, and the woman's age—relevant to the well-being of the patient. All these
factors may relate to health. This allows the attending physician the room he needs to make his
best medical judgment.” Id.
Several subsequent Supreme Court cases cite Doe’s warning and hold that it is
unconstitutional for the state to predefine the criteria a physician can rely upon in making medical
determinations generally. See, e.g., Planned Parenthood of Central Missouri v. Danforth, 428
U.S. 52 (1976) (citing Doe to reject state attempt to predefine viability and holding that the point
of viability, a medical determination, must be reserved to the unconstrained judgment of the
responsible attending physician); Colautti v. Franklin, 439 U.S. 379, 396-97 (1979) (affirming
Doe’s holding that the state must allow physician the “room he needs to make his best medical
judgment” and stressing that Doe “underscored the importance of affording the physician
adequate discretion in the exercise of his medical judgment in light of all attendant
circumstances”).
Pursuant to this clear line of precedent, the DOH requirement that a physician limit her
determination of “what may cause harm” to a narrow list provided in the ACIP best practices
guidelines or even any other predefined criteria beyond best medical judgment is likely unlawful.
Physicians are already duty-bound to make medical decisions based on the best available evidence
in accordance with their clinical judgment about how best to protect the patient’s safety. For the
safety of the patient, they must not be further constrained, particularly by a definition that is too
narrow to protect all children at risk of harm. As the author of the current ACIP guidelines
explained to plaintiff Jane Doe, the ACIP guidelines are neither a population-based concept nor
an exhaustive list. They are a guide for the practitioner to use as a starting point as she considers

26

what is best for the individual child in light of all the circumstances, including that child’s medical
history and the physician’s clinical judgment. Removing clinical judgment and using the ACIP
guidelines in this improper and unconstitutional manner seriously endangers children lives as well
as the associated fundamental liberty interests involved in family medical decision-making.
Second, the Court held it unconstitutional to allow third parties to substantively review a
treating physician’s medical exemption determination. In so holding, the Court first
acknowledged that the admitting hospitals had good reasons to want to independently verify the
medical exemption determination before allowing the abortion to proceed at their hospital.
However, even these valid interests were deemed insufficient to allow third-party review:
Saying all this, however, does not settle the issue of the
constitutional propriety of the committee [medical exemption
review] requirement…The woman's right to receive medical care in
accordance with her licensed physician's best judgment and the
physician's right to administer it are substantially limited by this
statutorily imposed overview.”
Id. at 192 (emphasis added).
The same reasoning applies with greater force to the challenged policies here, which allow
(and encourage) non-medically trained school principals to substantively review and deny treating
physicians’ medical exemption determinations. There is not even a rational basis for such a policy.
Respondents admit that school principals are not qualified for this task. It does not solve the
problem that schools often hire non-treating consultants to help the unqualified school principals
make medical decisions for these vulnerable children. The consultants are not qualified to make
medical decisions for the children either – they have never met the children or spoken to their
parents and they do not have all of the information necessary to understand the children’s health
needs. Moreover, when these consultants present different opinions than the treating physicians,
the school principals are then once more placed in the role of making medical determinations for
27

vulnerable children. School principals are no more qualified to decide between differences of
medical opinion than they are to second guess the treating physician in the first place.
Nor do school principals have the right to decide between competing medical opinions.
Rather, that right lies with the children’s parents, who alone possess the fundamental right to
direct the care and upbringing of their children, including medical decisions, which fall squarely
within that liberty interest. See Troxel v. Granville, 530 U.S. 57, 58 (2000) (“There is a
presumption that fit parents act in their children’s best interests” and thus “there is normally no
reason for the State to inject itself into the private realm of the family to further question fit
parents’ ability to make the best decisions regarding their children.”); Parham v. J.R., 442 U.S.
584, 604 (1979) (“Simply because the decision of the parent … involves risks does not
automatically transfer the power to make that decision from the parents to some agency or officer
of the state. The same characterizations can be made for a tonsillectomy, appendectomy, or other
medical procedure … Parents can and must make those judgments”).
It is constitutionally impermissible for the state to usurp these decisions because of a
difference of medical opinion between the treating physician and the random school district
consultant, a person who has never examined the child and who is, thus, inherently less qualified
to make critical health decisions. Such a regime is also against the child’s best interest. Advised
by their physicians, parents are in the best position to determine a course of action to protect their
medically fragile child’s health, particularly where there are differing medical opinions. Parents
of medically fragile children typically spend years working with providers, diving deep into the
medical literature, and gaining first-hand experience with their child’s reactions to various
medical interventions and triggers. They love their children and are best equipped to ask the
appropriate questions, evaluate, and make the final determination in the child’s best interests.

28

These rights adhere not only to the parent but to the child as well. “The right to family
association includes the right of parents to make important medical decisions for their children,
and of children to have those decisions made by their parents rather than the state.” Wallis v.
Spencer, 202 F.3d 1126, 1141 (9th Cir. 2000).
New York State’s highest court cited Doe and held that notions of parens patriae do not
allow the state to usurp parental rights to make medical decisions, even controversial ones, as
long as the decision is supported by a state-licensed physician. Matter of Hofbauer, 47 N.Y.2d
648, 655–56, (1979) (holding that parents and children have protected constitutional rights to
choose a trusted physician and follow the advice of the state-licensed physician; pursuant to Doe
v. Bolton, the state cannot substitute its judgment based on a difference of medical opinion about
what is best for the child).
Doe’s holding is clear and prescient: medical exemptions are between a patient and her
state licensed doctor, and it is unconstitutional (and generally unsafe) for the state to deputize third
parties to second guess that determination. As this Court recognized in Doe and citing cases, “the
State does not have the constitutional authority to give a third party an absolute, and possibly
arbitrary, veto over the decision of the physician and his patient.” Danforth, 428 U.S. at 74.
Finally, Doe held that it is unconstitutional to require the treating state-licensed physician
to establish that other physicians corroborate his determination. The Court’s discussion of
corroborating opinions in Doe is particularly apposite to our case:
The reasons for the presence of the confirmation step in the statute
are perhaps apparent, but they are insufficient to withstand
constitutional challenge … If a physician is licensed by the State, he
is recognized by the State as capable of exercising acceptable
clinical judgment…It is still true today that ‘(r)eliance must be
placed upon the assurance given by his license, issued by an
authority competent to judge in that respect, that he possesses the
requisite qualifications.’
29

Id. (emphasis added).
If it is unconstitutional to require a doctor to show that other physicians will corroborate
his opinion, it is certainly unconstitutional to overrule the treating physician when a random
consultant does not agree with a child’s doctor. This Court’s precedent repeatedly cautions that
unanimity of medical opinion cannot be required in the context of medical exemptions. Stenberg
530 U.S. at 937.
By enacting Public Health Law § 2164(8), which provides a medical exemption if “any
physician” licensed in the state certifies need, the New York State Legislature reached the
constitutional limit of permissible restriction on medical exemptions. Under Doe, further
regulation is unconstitutional. The challenged DOH regulation and policy, and the defendant
School Districts’ applications thereof, violate both the plain language of the statute and this Court’s
binding precedent by limiting medical exemptions to those with which only Respondents’ hand
picked physicians, not any state licensed physician, agree.
c. The challenged policies are not narrowly tailored to uphold a compelling state
interest sufficient to outweigh a child’s right to a medical exemption.
Respondents have not justified their medical exemption restrictions as necessary to
achieve a compelling state interest, making the risks they impose all the more unconscionable. To
the extent Respondents assert the need to protect the community from contagious disease, the
challenged policies are not narrowly tailored to that end or even rationally related.
In Roman Catholic Diocese, this Court granted injunctive relief pending appeal where the
state failed to show that the applicants had contributed to the spread of COVID-19 or that there
were no less restrictive rules that could be adopted to minimize risk. 141 S. Ct. at 67. Here, the
state has failed to meet similar burdens.

30

Respondents did not submit evidence sufficient to establish that: (a) children with medical
exemptions are contributing to the spread of contagious disease; (b) there is widespread medical
fraud by state-licensed doctors requiring aggressive state interference in medical decisions; (c)
state infringements on the medical exemption are narrowly tailored enough to ensure that all
children at risk of harm will receive an exemption; or (d) that the less restrictive options available
to the state are insufficient to meet the state’s interest in limiting the spread of contagious disease
in schools.
First, Respondents failed to establish that the medical exemption as written by the State
legislature is insufficient to protect the public from the imminent spread of contagious deadly
disease.
Half the vaccines on the schedule are unrelated to herd immunity and cannot offer
protection to anyone but the recipient. Science supports this fact, which is unrefuted in the record.
Some types of vaccines, like the measles vaccine, can produce “sterilizing” immunity, which
prevents infection and transmission, but others, like the meningococcal (meningitis), Tdap
(tetanus, diphtheria, and pertussis) and IPV (inactivated polio) vaccines, can only mitigate
symptoms (“non-sterilizing immunity”). Non-sterilizing vaccines still allow for infection and
asymptomatic transmission.4 Many children are only missing vaccines in this latter category. In
this context, Respondents offered no argument or evidence for why the state should compel these
vulnerable children to risk their lives by receiving a non-sterilizing vaccine against medical advice
since these vaccines cannot protect the public, only the individual.
For those categories of vaccines that can provide protection from transmission as well as
symptoms, Respondents concede the number of children seeking a medical exemption is far too

4

Other than tetanus, which is not communicable person to person.

31

low to impact herd immunity, as recognized by the Legislature when it declined to remove or
amend the medical exemption despite the measles outbreak last year.
Even if the number of children seeking exemption increased threefold with the removal
of the religious exemption (rising from 0.2% to 0.6% of school children), that number is still too
small a percentage to realistically impact herd immunity thresholds, which Respondents assert
require 80-95% coverage for sterilizing vaccines (non-sterilizing vaccine coverage cannot create
herd immunity).
Second, Respondents did not submit any evidence establishing that there is a widespread
problem of state-licensed physicians fraudulently writing medical exemptions in violation of their
ethical duties of care. Physicians are already duty-bound to make medical decisions in their best
medical judgment, based on clinical evaluation of the patient and in light of the evidence-based
data relevant to protecting the patient’s health and life. There is no reason to take clinical judgment
away from physicians and impose a narrow regulatory definition of what “may cause harm,”
particularly not one that is insufficient to cover all the reasons a child may be at risk of harm.
Furthermore, as the Court found concerning in Ayotte, physicians may not certify needed medical
exemptions if unsure that their determinations of medical necessity fit within the arbitrary new
definition, even in cases where the child is at risk of serious harm. Differences of opinion about
what qualifies under ACIP are common among licensed medical practitioners, as evidenced by the
as-applied challenges in this case.
Third, the DOH did not submit evidence proving why available statutory options will not
suffice to meet their goal of limiting the spread of contagious disease in schools. If there were an
outbreak of a vaccine preventable disease (currently there are none in the state), the DOH has less
restrictive means of mitigating risk. The agency can require any unvaccinated child to stay on

32

home instruction until the outbreak subsides at her school. The agency can also employ quarantine,
and temperature and symptom checks.
Most relevant to this motion, Respondents have not advanced any permissible reason to
exclude the Impacted Children from online education. The children cannot pose a health threat to
their classmates through the computer. The state’s only apparent justification is they hope to
coerce parents into waiving their fundamental rights by conditioning access to vital benefits on
the parents agreement to contravene medical advice and subject their children to risk of harm or
death. This is a violation of the unconstitutional conditions doctrine and is not a valid purpose, let
alone a compelling state interest.5
Even if the State had provided evidence that the burdensome measures implemented are
necessary and narrowly tailored to support compelling state interests, it is doubtful that such
interests could override the children’s interest in protecting their life and health.
In the abortion context, courts acknowledge that the state has a compelling interest in
protecting the life of the unborn child, and that the state’s interest outweighs the woman’s liberty
interests in ending the pregnancy post-viability – if a woman proceeds with an abortion at that
point, the fetus, who otherwise has a chance to survive, will die. However, even in the abortion
context, where it is certain a child will die if the woman has a post-viability abortion, the state’s
compelling interest cannot outweigh a woman’s right to protect her health or life where continuing

5

In addition to the failures of the state to narrowly tailor its infringements on the fundamental right to a
medical exemption, these children all meet the definition of disabled children pursuant to Section 504 of the
Rehabilitation Act of 1973, and their complaint alleges violations of Section 504 as well as violations of Constitutional
rights. Under the standards governing exclusion of children with disabilities from school, the state must establish that
the excluded children pose a “direct threat” to their classmates sufficient to be denied reasonable accommodations.
As noted above, there is no basis to claim these children pose a direct threat to classmates if they are able to join their
classes online, and such a reasonable accommodation should not be denied while the Impacted Children litigate the
constitutional sufficiency of the medical exemption provided in New York.

33

the pregnancy might place her at risk of physical harm, full stop.
Here, the state cannot argue, as it can in the abortion context, that allowing a child to optout of a vaccine requirement will necessarily (or even likely) result in death or harm to another.
The DOH appeared to justify the restrictions by pointing to a measles outbreak in 2018-19
which infected approximately 1,000 people over the course of a year. Every infected person
recovered. No evidence was presented, or in fact exists, that a single child with a medical
exemption caught measles or contributed in any way to the spread during the outbreak.
Moreover, without diminishing valid societal reasons to encourage widespread measles
vaccination, the basic facts establish that the rate of death is relatively low for this disease and
there are no current outbreaks to justify placing medically fragile children’s lives at risk. It is
undisputed that the measles outbreak ended more than a year ago and that there were no casualties
during that outbreak. In fact, there have been no confirmed casualties from measles in New York
for decades, despite much greater numbers of exempt children in the past due to the prior
availability of the religious exemption as well as the medical exemption.
Even before a vaccine existed, the risk of death from measles in this country was very low.
According to the CDC, “[i]n the decade before 1963 when a vaccine became available, nearly all
children got measles by the time they were 15 years of age. It is estimated 3 to 4 million people in
the United States were infected each year. Also each year, among reported cases, an estimated 400
to 500 people died.”6 Pursuant to these estimates, the fatality rate of measles is about 0.01%.
Assuming, arguendo, that the State had presented evidence showing that the children pose
a direct threat (which has not been established), at best, the argument would be that there is some
unspecified chance that the child’s exemption could lead to another person catching and possibly

6

https://www.cdc.gov/measles/about/history.html
34

being harmed by a disease that might have been prevented had the child taken the vaccine. Though
this may be enough of a compelling reason to allow the state to infringe on liberty interests, like
the right to refuse vaccination for philosophical reasons, it is not a sufficient reason to ask the child
to risk her own health or life.
This was a central holding of Jacobson, which cautioned that it is unconstitutional to
demand someone sacrifice her health or life in service of public health goals. 197 U.S. 11 at 3639. As this Court recognized in Ayotte, if a medical exemption can exclude even one child who
needs it, it is unconstitutional. 546 U.S. at 328. Even where the state has shown a compelling
interest supporting its desire to limit unnecessary medical exemptions, the requirement that a statelicensed physician has to approve the exemption is sufficient to meet that need and is the limit of
allowable state infringement on the process. Doe, 410 U.S. 199-200.
II.

The Lower Courts’ Decisions Exacerbate Confusion on Constitutional Issues of
Nationwide Importance.
As this Court’s precedent shows, and justice demands, the right to a medical exemption

where a child is at risk of harm or death is a fundamental constitutional right requiring the highest
level of judicial scrutiny. Respondents are impermissibly burdening this right by violating the
limits of incursion set forth in Jacobson, Doe, and Ayotte, among other Supreme Court decisions
cautioning against state infringements on the right to a medical exemption. Yet the courts below
denied injunctive relief without applying strict scrutiny. They justified this with three fundamental
legal errors, each of which implicates issues of critical national importance.
First, the lower courts failed to apply this Court’s precedent on medical exemptions,
improperly conflating the right to abortion with the right to a medical exemption and suggesting
that the Court’s precedent only applies to abortion cases. Second, the lower court misread
Jacobson as requiring blanket judicial deference to any law or policy that implicates vaccines,
35

even where such policies substantially burden a child’s right to a medical exemption to protect her
life or health. Third, the District Court ignored the “unconstitutional conditions” doctrines and held
that any requirements related to school access, even those that burden fundamental rights, are
absolved from strict scrutiny since there is no “fundamental right” to an education.
a. Doe and Ayotte apply to all medical exemption cases, not just abortion cases.
The District Court failed to recognize that the inalienable right to life includes the right to
refuse state mandated vaccines that a licensed physician has certified may kill or seriously harm.
Instead, the District Court conflated the right to a medical exemption with the separate right to an
abortion, failing to apply this Court’s clear guidance on the limits of state infringement on medical
exemptions by asserting that Doe and Ayotte only apply to medical exemptions from abortion
regulations.
Nothing in the case law supports this theory. In fact, this Court already confirmed that Doe
applies outside the abortion context. In Whalen v. Roe, the Supreme Court examined a legal
challenge to New York State regulations requiring the collection of data on controlled substance
prescriptions across the state. 429 U.S. 589, 603 (1977). The Court ultimately held that the
anonymous collection of data was permissible, but specifically cautioned that, pursuant to Doe, it
would be unconstitutional if patient access to controlled medications were to be “conditioned on
the consent of any state official or third party” other than a person’s chosen state-licensed
physician. Id. Whalen, which has no relation to abortion, expressly clarifies that Doe applies to all
medical decision-making, not just abortions.
Moreover, as discussed above, Ayotte defines the right to a medical exemption as a separate
right from the liberty interest in an abortion. Ayotte, 546 U.S. at 325. There, though the state’s
compelling interest was deemed sufficient to override the liberty interests at stake, the Court held
36

this separate right to a medical exemption could not be infringed, no matter how compelling the
state’s interest. Even the possibility that a medical exemption was narrow enough to exclude the
very small percentage who might need it rendered the exemption unconstitutionally narrow. Id at
328. Therefore, the Court remanded the case to the lower court to determine if any part of the
remaining statute other than the medical exemption could be saved through declaratory or
injunctive relief or severance, or if the entire parental notification statute needed to be struck down.
In failing to apply strict scrutiny to medical exemption review, the District Court also failed
to follow the clear guidance in Jacobson, which addressed immunizations not abortion. Jacobson
was the first case to articulate the right to a medical exemption and prepared a framework later
followed in the abortion context. Jacobson held that the state has a right to defend the community
from contagious disease, which can override personal liberty interests in certain emergency
circumstances (essentially a prequel to compelling state interest analysis). But it recognized that
even the most compelling state interest was insufficient to override a person’s right to defend his
own life through a medical exemption if he was personally at risk of serious harm or death from
the vaccine. Jacobson stressed that the determination of whether a medical exemption was too
narrow to protect such persons is a matter for rigorous independent judicial review, without the
deference given to general public health decisions.
As recognized in the Roman Catholic Diocese case, Jacobson essentially set up tiers of
scrutiny decades before this Court formally adopted modern substantive due process analysis.
Even in 1905, this Court properly recognized that the right to a medical exemption requires the
highest level of scrutiny and independent judicial review.

37

b. The Unconstitutional Conditions Doctrine Requires Strict Scrutiny Review.
The District Court’s reasoning for denying injunctive relief, and failing to apply strict
scrutiny, violates the unconstitutional conditions doctrine and misapplies the incidental burdens
doctrine.
Though failing to recognize that a medical exemption is an independent fundamental right,
the District Court did acknowledge that other fundamental rights are at stake in this case, such as
the well-established right to refuse medical treatment and the parental right to make medical
decisions for their children. The lower court even acknowledged that Whalen v. Roe requires that
Doe be applied to all medical decision-making, not just abortion related exemptions, and that
strict scrutiny is required for assessment of state interference in medical decision-making.
Nonetheless, the District Court sidestepped strict scrutiny analysis, reasoning that the
Impacted Children “are unlikely to succeed in showing that the medical exemption regulations
directly infringe on these fundamental rights, as they do not force parents to consent to
vaccination. Thus, the right being burdened is the right to attend school at a public or private
institution…And, the Second Circuit has made clear, ‘the right to public education is not
fundamental.’”
As a threshold matter, the District Court made a clear error of fact. The childhood vaccine
requirements apply to all children and are not merely a condition precedent to attend school. The
plain language of P.H.L. § 2164, and the challenged regulation defining “what may cause harm,”
require that every child under the age of 18 must be in compliance with the childhood vaccine
schedule, not just children who wish to attend school. Though expulsion from school is one
consequence that can arise if a needed medical exemption is denied due to the narrow new
regulatory definition, other serious consequences include interference with the right to make

38

medical decisions based on a physician’s best medical judgment and loss of custody. The direct
burden here is on the right to a medical exemption, and loss of access to school is merely one of
several consequences that may ensue.
Even if the policies only applied as a condition to be allowed to attend any public, private
or online school in New York, the burdens the condition places on fundamental rights would still
require strict scrutiny review. The government cannot condition receipt of a benefit, fundamental
or not, on the waiver of a constitutional protection. “[E]ven though a person has no ‘right’ to a
valuable governmental benefit and even though the government may deny him the benefit for any
number of reasons, there are some reasons upon which the government may not rely. It may not
deny a benefit to a person on a basis that infringes his constitutionally protected interests.” Perry
v. Sinderman, 408 U.S. 593, 597 (1972).
The unconstitutional conditions doctrine “vindicates the Constitution's enumerated rights
by preventing the government from coercing people into giving them up.” Koontz v. St. Johns
River Water Mgmt. Dist., 570 U.S. 595, 604 (2013). In Agency for International Development, for
example, the plaintiffs brought a successful facial challenge to the application of a 2003 law that
required a statement against prostitution as a condition of eligibility for a discretionary grant to
help stop the spread of HIV. 570 U.S. 205 (2013). The government argued that since NGOs are
not entitled to such grants, this was a proper condition designed to advance compelling government
interests that only incidentally burdened free speech rights. This Court disagreed, recognizing that
the government is not allowed to do indirectly what it cannot do directly in conditioning a
government benefit. After finding the condition’s infringement on fundamental speech rights was
not likely to meet strict scrutiny review, preliminary injunctive relief against the coercive condition
was upheld.

39

Here, it is well established that the state cannot subject medical exemption decisions
written by state-licensed physicians to burdensome review or demand that parents vaccinate their
children against the advice of licensed physicians. The state cannot get around this by conditioning
a benefit, particularly a benefit as vital as access to an education at any school in the state, on
waiver of these rights. Respondents openly admit that their reason for denying the children access
to online education is to coerce parents into waiving their medical exemption even though a
licensed physician has certified that doing so places their child at risk of harm or death. This
argument is as abhorrent as it is boldly unconstitutional. The District Court’s reasoning that
substantial burdens on fundamental rights are excused from strict scrutiny if they implicate access
to school, carries grave connotations and if left uncorrected, will lead to widespread danger and
injustice to medically fragile members of our society.
III.

The Circumstances are Exigent – Each Day of Exclusion from School and
Special Education Services Causes Further Irreparable Harm.
Relief is desperately needed to prevent ongoing irreparable harm to the Impacted

Children. Each day that they are excluded from accessing education and services causes further
irreparable harm.
A showing of irreparable harm is “the single most important prerequisite for the issuance
of a preliminary injunction.” Faively Transp. Malmo AB v. Wabtec Corp., 559 F.3d 110,118 (2d
Cir. 2009). Here the District Court properly held that Applicants met this burden, holding that
irreparable harm is a presumption where children are excluded from school. See PI Order (P. 9).
(“Courts considering this issue routinely assume that a child prevented from attending school
would suffer irreparable harm.”).
There is no serious question that the complete deprivation of access to school will cause
ongoing irreparable harm to the Impacted Children. As this Court recognized in Brown v. Board
40

of Education, “In these days, it is doubtful that any child may reasonably be expected to succeed
in life if he is denied the opportunity of an education.” 347 U.S. 483, 493 (1954).
The District Court acknowledged that the deprivation of an education is so widely
considered harmful that even short periods of exclusion establish a presumption of irreparable
harm. Some of these children have been excluded from school for over a year and there is no
indication that absent intervention they will ever be allowed to return7.
The harm is even greater for medically fragile children, many of whom require special
education services that their parents cannot typically provide at home. Their humiliating exclusion
from school psychologically scarred these children, who feel ostracized for a condition
completely beyond their control. Excluding them even from online access to school and remote
special education services is cruel, inhuman and can serve only punitive purposes. As the
irreparable harm to the Impacted Children continues to compound with each passing day, the need
for relief here is critical and exigent.
The District Court properly recognized that, “the exclusion of Plaintiffs’ minor children
from school supports a strong showing of irreparable harm.” PI Order (9).
IV.

The Balance of Hardships and Public Interest Likewise Favor Injunctive Relief.
The balance of equities also favors keeping children in online school pending the outcome

of this appeal. When compared with the seriousness of the constitutional harm being done to these
impacted families, and the irreparable harm to the impacted children each day that they are
deprived of an education, the Respondents’ interests pale in comparison.

7

Though some of the Impacted Children have been excluded from access to any New York school for over a year,
some were excluded more recently, and others were accepted at other schools, or were conditionally admitted to
online programs and face imminent removal.

41

The government simply “does not have an interest in the enforcement of an
unconstitutional law.” N.Y. Progress & Prot. PAC v. Walsh, 733 F.3d 483, 488 (2d Cir. 2010)
(quotation marks omitted). And although the state has a valid interest in preventing the spread of
contagious disease to protect the public, it has not established that excluding children from online
education serves any purpose other than punishment or coercion.
At stake here are children’s lives. The state cannot justify its callous treatment of these
children’s safety and health by vague and unproven invocations of “public health.” The state has
no right to demand that children’s lives be put at stake to protect others, particularly where it has
not even bothered to prove that such sacrifice is necessary or that the children pose any direct
threat in the first place. Indeed, there is no conceivable threat any of these children could pose
while attending class remotely.
Moreover, each day that these children are deprived of access to education and special
services causes further irreparable harm. Each day of exclusion, their prospects and chances of
success deteriorate. Allowing this to continue harms us all.
The Impacted Children do not seek to open the floodgates. They merely ask that they and
other children who have submitted a medical exemption from a state-licensed physician be able
to access online education while the courts review the constitutionality of the challenged
regulation and policies burdening the medical exemption process.
CONCLUSION
Simply going to school should not mean risking one’s life. For these Impacted Children,
with their litany of serious medical conditions, life is hard enough. But the challenged DOH
regulations, and Respondent School Districts’ applications thereof, have forced them into the
Hobson’s choice of attending school at risk of injury or death or becoming a pariah, so tainted as

42

to be unworthy of participation even in remote learning. To deny them access to online education,
where the justification for vaccinations is undisputedly absent, only rubs salt in already deep and
festering wounds.
Since (1) the Constitution clearly protects these children’s medical exemptions under the
circumstances here presented, (2) these children will continue to be irreparably harmed each day
they continue to be excluded from school, and (3) there is clearly no harm in allowing them to
learn remotely, the Circuit Justice or the full Court should enjoin the DOH and school districts,
pending appeal, from excluding children from distance learning and services on the basis of
vaccination status if a state-licensed physician has certified the child is at risk of harm or death.
Applicants further ask this Court for any other relief deemed just and proper.
Respectfully submitted,
/s/Sujata S. Gibson
Sujata S. Gibson, Esq.
Counsel of Record
The Gibson Law Firm, PLLC
407 N. Cayuga Street, Suite 201
Ithaca, NY 14850
Tel: (607) 327-4125
Email: sujata@gibsonfirm.law
Michael Sussman, Esq.
Jonathan R. Goldman, Esq.
Sussman & Associates
Goshen, NY
Mary Holland, Esq.
Robert F. Kennedy, Jr., Esq.
Children’s Health Defense
New York, NY
Stephen Bergstein, Esq.
Bergstein & Ullrich
New Paltz, NY
Counsel for Applicants
43

APPENDIX A

Case 20-3915, Document 63, 01/05/2021, 3006660, Page1 of 1

N.D.N.Y.
20-cv-840
Sannes, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
_________________

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 5th day of January, two thousand twenty-one.
Present:
Guido Calabresi,
Reena Raggi,
Denny Chin,
Circuit Judges.
Jane Doe, on behalf of herself and her minor child, et al.,
Plaintiffs-Appellants,
Jane Goe, Sr.,
Plaintiff,
v.

20-3915

Howard Zucker, in his official capacity as Commissioner of
Health for the State of New York, M.D., et al.,
Defendants-Appellees,
Shenendehowa Central School District, et al.,
Defendants.

Appellants move for an emergency injunction pending appeal. Upon due consideration, it is
hereby ORDERED that the motion is DENIED because Appellants have not met the requisite
standard. See In re World Trade Ctr. Disaster Site Litig., 503 F.3d 167, 170 (2d Cir. 2007); see
also Respect Maine PAC v. McKee, 562 U.S. 996, 996 (2010).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

APPENDIX B

APPEAL,MANDATORY-MEDIATION

U.S. District Court
Northern District of New York - Main Office (Syracuse) [NextGen CM/ECF Release 1.5
(Revision 1.5.3)] (Albany)
CIVIL DOCKET FOR CASE #: 1:20-cv-00840-BKS-CFH
Jane Doe et al v. Zucker et al
Assigned to: Judge Brenda K. Sannes
Referred to: Magistrate Judge Christian F. Hummel
Cause: 42:1983 Civil Rights Act

Date Filed: 07/23/2020
Jury Demand: None
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
Jane Doe
on behalf of herself and her minor child

represented by Michael H. Sussman
Sussman, Watkins Law Firm
1 Railroad Avenue
P.O. Box 1005
Goshen, NY 10924
845-294-3991
Fax: 845-294-1623
Email: sussman1@frontiernet.net
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Sujata Sidhu Gibson
The Gibson Law Firm, PLLC
407 North Cayuga Street, Suite 201
Ithaca, NY 14850
607-327-4125
Email: sujata@gibsonfirm.law
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
Jane Boe, Sr.
on behalf of herself and her minor child

represented by Michael H. Sussman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Sujata Sidhu Gibson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
John Coe, Sr.
on behalf of himself and his minor children

represented by Michael H. Sussman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Sujata Sidhu Gibson

(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Plaintiff
Jane Coe, Sr.
on behalf of herself and her minor children

represented by Michael H. Sussman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Sujata Sidhu Gibson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
John Foe, Sr.
on behalf of himself and his minor child

represented by Michael H. Sussman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Sujata Sidhu Gibson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
Jane Goe, Sr.
on behalf of herself and her minor child

represented by Michael H. Sussman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Sujata Sidhu Gibson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
Jane Loe
on behalf of herself and her medically
fragile child

represented by Michael H. Sussman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Sujata Sidhu Gibson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Plaintiff
Jane Joe
on behalf of herself and her medically
fragile child

represented by Michael H. Sussman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Sujata Sidhu Gibson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Plaintiff
Childrens Health Defense
and all others similarly situated

represented by Michael H. Sussman
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Sujata Sidhu Gibson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

V.
Defendant
Howard Zucker
in his official capacity as Commissioner of
Health for the State of New York

represented by Michael G. McCartin
Office of Attorney General - Albany
The Capitol
Albany, NY 12224
518-776-2620
Fax: 518-915-7738
Email: michael.mccartin@ag.ny.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Andrew W. Koster
New York State Attorney General - Albany
The Capitol
Albany, NY 12224
518-776-2609
Email: andrew.koster@ag.ny.gov
ATTORNEY TO BE NOTICED

Defendant
M.D. Elizabeth Rausch-Phung
in her official capacity as Director of the
Bureau of Immunizations at the New York
State Department of Health

represented by Michael G. McCartin
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Andrew W. Koster
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
New York State Department of Health

represented by Michael G. McCartin
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Andrew W. Koster
(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Three Village Central School District

represented by Adam I. Kleinberg
Sokoloff Stern LLP
179 Westbury Avenue
Carle Place, NY 11514
516-334-4500
Fax: 516-334-4501
Email: akleinberg@sokoloffstern.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Gregg T. Johnson
Johnson Laws, LLC
646 Plank Road, Suite 205
Clifton Park, NY 12065
518-490-6428
Fax: 518-616-0676
Email: gtj@johnsonlawsllc.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Chelsea Weisbord
Sokoloff Stern LLP
179 Westbury Avenue
Carle Place, NY 11514
302-547-4318
Email: cweisbord@sokoloffstern.com
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
Johnson Laws, LLC
646 Plank Road, Suite 205
Clifton Park, NY 12065
518-490-6427
Fax: 518-616-0676
Email: lcj@johnsonlawsllc.com
ATTORNEY TO BE NOTICED

Defendant
Cheryl Pedisich
acting in her official capacity as
Superintendent, Three Village Central
School District

represented by Adam I. Kleinberg
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Chelsea Weisbord
(See above for address)
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Corinne Keane
acting in her official capacity as Principal,
Paul J. Gelinas Jr. High School, Three
Village Central School District

represented by Adam I. Kleinberg
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Chelsea Weisbord
(See above for address)
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Lansing Central School District

represented by James G. Ryan
Cullen, Dykman Law Firm - Garden City
Office
100 Quentin Roosevelt Blvd.
Garden City Center
Garden City, NY 11530
516-357-3750
Fax: 516-296-9155
Email: jryan@cullenanddykman.com
ATTORNEY TO BE NOTICED
Roxanne Lorig Tashjian
Cullen and Dykman LLP
100 Quentin Roosevelt Boulevard
Garden City, NY 11530
516-357-3704
Fax: 516-357-3792
Email: rtashjian@cullenllp.com
ATTORNEY TO BE NOTICED

Defendant
Chris Pettograsso
acting in her official capacity as
Superintendent, Lansing Central School
District

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED

Roxanne Lorig Tashjian
(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Christine Rebera
acting in her official capacity as Principal,
Lansing Middle School, Lansing Central
School District

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED
Roxanne Lorig Tashjian
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Lorri Whiteman
acting in her official capacity as Principal,
Lansing Elementary School, Lansing
Central School District

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED
Roxanne Lorig Tashjian
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Penfield Central School District

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED
Roxanne Lorig Tashjian
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Dr. Thomas Putnam
acting in his official capacity as
Superintendent, Penfield Central School
District

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED
Roxanne Lorig Tashjian
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
South Huntington School District

represented by Adam I. Kleinberg
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Chelsea Weisbord
(See above for address)

ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED
Defendant
David P. Bennardo
Dr., acting in his official capacity as
Superintendent, South Huntington School
District

represented by Adam I. Kleinberg
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Chelsea Weisbord
(See above for address)
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
BR. David Migliorino
acting in his official capacity as Principal,
St. Anthony's High School, South
Huntington School District

represented by Elaine Nancy Chou
Biedermann Hoenig Semprevivo
One Grand Central Place
60 E 42nd Street - 36th Floor
New York, NY 10165
646-218-7560
Fax: 646-218-7510
Email: elaine.chou@lawbhs.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Joseph Kim
Biedermann, Hoenig Law Firm
60 East 42nd Street
New York, NY 10165
646-218-7560
Email: joseph.kim@lawbhs.com
ATTORNEY TO BE NOTICED
Meishin Riccardulli
Biedermann Hoenig Semprevivo
One Grand Central Place
60 E 42nd Street - 36th Floor
New York, NY 10165
646-218-7560
Fax: 646-218-7510
Email: meishin.riccardulli@lawbhs.com
ATTORNEY TO BE NOTICED

Philip Semprevivo
Biedermann Hoenig Semprevivo P.C.
60 East 42nd. Street, FL 36
New York, NY 10165
646-218-7560
Fax: 646-218-7510
Email:
PHILIP.SEMPREVIVO@LAWBHS.COM
ATTORNEY TO BE NOTICED
Defendant
Ithaca City School District

represented by Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Adam I. Kleinberg
(See above for address)
ATTORNEY TO BE NOTICED
Chelsea Weisbord
(See above for address)
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
DR. Luvelle Brown
acting in his official capacity as
Superintendent, Ithaca City School District

represented by Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Adam I. Kleinberg
(See above for address)
ATTORNEY TO BE NOTICED
Chelsea Weisbord
(See above for address)
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Susan Eschbach
acting in her official capcity as Principal,
Beverly J. Martin Elementary School,
Ithaca City School District

represented by Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Adam I. Kleinberg
(See above for address)
ATTORNEY TO BE NOTICED
Chelsea Weisbord
(See above for address)
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Shenendehowa Central School District
TERMINATED: 11/02/2020

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
DR. L. Oliver Robinson
acting in his official capacity as
Superintendent, Shenendehowa Central
School District
TERMINATED: 11/02/2020

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Sean Gnat
acting in his official capacity as Principal,
Koda Middle School, Shenendehowa
Central School District
TERMINATED: 11/02/2020

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Andrew Hills
acting in his official capacity as Principal,
Arongen Elementary School, Shenendehowa
Central School District
TERMINATED: 11/02/2020

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Coxsackie-Athens School District

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED
Roxanne Lorig Tashjian
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Randall Squier
Superintendent, acting in his official
capacity as Superintendent, CoxsackieAthens School District

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED
Roxanne Lorig Tashjian

(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Freya Mercer
acting in her official capacity as Principal,
Coxsackie-Athens School District

represented by James G. Ryan
(See above for address)
ATTORNEY TO BE NOTICED
Roxanne Lorig Tashjian
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Albany City School District

represented by Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Adam I. Kleinberg
(See above for address)
ATTORNEY TO BE NOTICED
Chelsea Weisbord
(See above for address)
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Kaweeda G. Adams
acting in her official capacity as
Superintendent, Albany City School District

represented by Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Adam I. Kleinberg
(See above for address)
ATTORNEY TO BE NOTICED
Chelsea Weisbord
(See above for address)
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED

Defendant
Michael Paolino
acting in his official capacity as Principal,
William S. Hackett Middle School, Albany

represented by Gregg T. Johnson
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

City School District; and all others
similarly situated

Adam I. Kleinberg
(See above for address)
ATTORNEY TO BE NOTICED
Chelsea Weisbord
(See above for address)
ATTORNEY TO BE NOTICED
Loraine Clare Jelinek
(See above for address)
ATTORNEY TO BE NOTICED

Date Filed

#

Docket Text

07/23/2020

1 CLASS ACTION COMPLAINT: against Howard Zucker, Kaweeda G. Adams, Albany
City School District, David P. Bennardo, Luvelle Brown, Coxsackie-Athens School
District, Susan Eschbach, Sean Gnat, Andrew Hills, Ithaca City School District, Corinne
Keane, Lansing Central School District, Freya Mercer, David Migliorino, New York State
Department of Health, Michael Paolino, Cheryl Pedisich, Penfield Central School
District, Chris Pettograsso, Thomas Putnam, Elizabeth Rausch-Phung, Christine Rebera,
L. Oliver Robinson, Shenendehowa Central School District, South Huntington School
District, Randall Squier, Three Village Central School District, Lorri Whiteman, (Filing
fee $400 receipt number ANYNDC-5182902) filed by John Coe, Sr, Jane Doe, Jane Goe,
Sr, Childrens Health Defense, Jane Coe, Sr, Jane Joe, John Foe, Sr, Jane Boe, Sr, Jane
Loe. (Attachments: # 1 Civil Cover Sheet) (jmb) (Entered: 07/29/2020)

07/23/2020

2 MOTION to Proceed by Pseudonym regarding the # 1 Complaint and MOTION for
Protective Order, filed by Plaintiffs' Jane Doe, Childrens Health Defense, Jane Boe, Sr,
Jane Coe, Sr, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr and John Foe, Sr.
(Attachments: # 1 Affirmation, # 2 Memorandum of Law) Motions referred to Christian
F. Hummel. (jmb) (Entered: 07/29/2020)

07/27/2020

3 Summons Issued as to Howard Zucker. (Attachments: # 1 Summons issued for Elizabeth
Rausch-Phung, # 2 Summons issued for New York State Department of Health, # 3
Summons issued for Three Village Central School District, # 4 Summons issued for
Cheryl Pedisich, # 5 Summons issued for Corinne Keane, # 6 Summons issued for
Lansing Central School District, # 7 Summons issued for Chris Pettograsso, # 8
Summons issued for Christine Rebera, # 9 Summons issued for Lorri Whiteman, # 10
Summons issued for Penfield Central School District, # 11 Summons issued for Thomas
Putnam, # 12 Summons issued for South Huntington School District, # 13 Summons
issued for David Bennardo, # 14 Summons issued for BR. David Migliorino, # 15
Summons issued for Ithaca City School District, # 16 Summons issued for Luvelle
Brown, # 17 Summons issued for Susan Eschbach, # 18 Summons issued for
Shenendehowa Central School District, # 19 Summons issued for Oliver Robinson, # 20
Summons issued Sean Gnat, # 21 Summons issued for Andrew Hills, # 22 Summons
issued Coxsackie-Athens School District, # 23 Summons issued for Randall Squier, # 24
Summons issued for Freya Mercer, # 25 Summons issued for Albany City School
District, # 26 Summons issued for Kaweeda G. Adams, # 27 Summons issued for
Michael Paolino) (jmb) (Entered: 07/29/2020)

07/27/2020

4 G.O. 25 FILING ORDER ISSUED: Initial In-Person Rule 16 Conference set for
11/16/2020 at 9:00 AM in Albany before Magistrate Judge Christian F. Hummel. Civil
Case Management Plan must be filed and Mandatory Disclosures are to be exchanged by

the parties on or before 11/9/2020. (Pursuant to Local Rule 26.2, mandatory disclosures
are to be exchanged among the parties but are NOT to be filed with the Court.) (jmb)
(Entered: 07/29/2020)
07/27/2020

5 NOTICE OF ADMISSION REQUIREMENT: as to Party Plaintiffs'; Attorneys' Robert F.
Kennedy, Jr., Esq. and Mary Holland, Esq. Email address for Mary Holland is
mary.holland@childrenshealthdefense.org. Admissions due by 8/10/2020. {Clerk
Emailed notice and a courtesy copy of the GO #25 to Attorney Holland on 7/27/2020 and
Mailed via regular a copy of the notice and a courtesy copy of the GO #25 to Attorney
Kennedy on 7/27/2020} (jmb) (Entered: 07/29/2020)

08/10/2020

6 AFFIDAVIT of Service for Summons and Complaint served on Kaweeda G. Adams,
Superintendent, Albany City School District on August 4, 2020, filed by Childrens
Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe,
John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/10/2020)

08/10/2020

7 AFFIDAVIT of Service for Summons and Complaint served on Albany City School
District on August 4, 2020, filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe,
Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman,
Michael) (Entered: 08/10/2020)

08/10/2020

8 AFFIDAVIT of Service for Summons and Complaint served on New York State
Department of Health, c/o Attorney General on August 4, 2020, filed by Childrens Health
Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John
Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/10/2020)

08/10/2020

9 AFFIDAVIT of Service for Summons and Complaint served on New York State
Department of Health on August 4, 2020, filed by Childrens Health Defense, Jane Boe,
Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr.
(Sussman, Michael) (Entered: 08/10/2020)

08/10/2020

10 AFFIDAVIT of Service for Summons and Complaint served on Elizabeth Rausch-Phung,
Director of Bureau of Immunizations, NYS Department of Health on August 4, 2020,
filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr,
Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered:
08/10/2020)

08/10/2020

11 AFFIDAVIT of Service for Summons and Complaint served on Howard Zucker,
Commissioner of Health, NYS Department of Health on August 4, 2020, filed by
Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe,
Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/10/2020)

08/11/2020

12 AFFIDAVIT of Service for Summons and Complaint served on Michael Paolino,
Principal of William S. Hackett Middle School on August 4, 2020, filed by Childrens
Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe,
John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/11/2020)

08/12/2020

***Answer deadline set for Kaweeda G. Adams; Albany City School District; New York
State Department of Health; Michael Paolino; Elizabeth Rausch-Phung and Howard
Zucker to 8/25/2020. (jmb) (Entered: 08/12/2020)

08/13/2020

13 AFFIDAVIT of Service for Summons and Complaint served on Dr. Thomas Putnam,
Superintendent, Penfield Public School District on August 6, 2020, filed by Childrens
Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe,
John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/13/2020)

08/14/2020

***Answer due date set for Dr. Thomas Putnam answer due 8/27/2020. (kmp) (Entered:
08/14/2020)

08/18/2020

14 AFFIDAVIT of Service for Summons and Complaint served on Lansing Central School
District on August 11, 2020, filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe,
Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman,
Michael) (Entered: 08/18/2020)

08/18/2020

15 AFFIDAVIT of Service for Summons and Complaint served on Chris Pettrograsso,
Superintendent, Lansing Central School District on August 11, 2020, filed by Childrens
Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe,
John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/18/2020)

08/18/2020

16 AFFIDAVIT of Service for Summons and Complaint served on Christine Rebera,
Principal, Lansing Middle School on August 11, 2020, filed by Childrens Health
Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John
Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/18/2020)

08/18/2020

17 AFFIDAVIT of Service for Summons and Complaint served on Lorri Whiteman,
Principal, Lansing Elementary School on August 11, 2020, filed by Childrens Health
Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John
Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/18/2020)

08/18/2020

18 AFFIDAVIT of Service for Summons and Complaint served on Ithaca City School
District on August 13, 2020, filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe,
Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman,
Michael) (Entered: 08/18/2020)

08/18/2020

19 AFFIDAVIT of Service for Summons and Complaint served on Luvelle Brown,
Superintendent, Ithaca City School District on August 13, 2020, filed by Childrens
Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe,
John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/18/2020)

08/18/2020

20 AFFIDAVIT of Service for Summons and Complaint served on Susan Eschbach,
Principal, Beverly J Martin Elementary School on August 11, 2020, filed by Childrens
Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe,
John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/18/2020)

08/18/2020

***Answer due date updated for Susan Eschbach, Lansing Central School District, Chris
Pettograsso, Christine Rebera, and Lorri Whiteman answers due 9/1/2020. (pjh, )
(Entered: 08/18/2020)

08/18/2020

***Answer due date updated for Luvelle Brown and Ithaca City School District answers
due 9/3/2020. (pjh, ) (Entered: 08/18/2020)

08/20/2020

21 NOTICE of Appearance by Gregg T. Johnson on behalf of Kaweeda G. Adams, Albany
City School District, David P. Bennardo, Corinne Keane, Lansing Central School District,
Michael Paolino, Cheryl Pedisich, Chris Pettograsso, Christine Rebera, South Huntington
School District, Three Village Central School District, Lorri Whiteman (Johnson, Gregg)
(Entered: 08/20/2020)

08/20/2020

22 STIPULATION Extending Time to Answer by Kaweeda G. Adams, Albany City School
District, David P. Bennardo, Corinne Keane, Lansing Central School District, Michael
Paolino, Cheryl Pedisich, Chris Pettograsso, Christine Rebera, South Huntington School
District, Three Village Central School District, Lorri Whiteman submitted to Judge Hon.
Christian J. Hummel, USMJ. (Johnson, Gregg) (Entered: 08/20/2020)

08/21/2020

23 AFFIDAVIT of Service for Summons and Complaint served on Randall Squier,
Superintendent, Coxsackie-Athens School District on August 11, 2020, filed by Childrens
Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe,
John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered: 08/21/2020)

08/21/2020

24 AFFIDAVIT of Service for Summons and Complaint served on Freya Mercer, Principal,
Coxsackie-Athens High School on August 11, 2020, filed by Childrens Health Defense,
Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr,
John Foe, Sr. (Sussman, Michael) (Entered: 08/21/2020)

08/21/2020

25 AFFIDAVIT of Service for Summons and Complaint served on Coxsackie-Athens
School District on August 11, 2020, filed by Childrens Health Defense, Jane Boe, Sr,
Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr.
(Sussman, Michael) (Entered: 08/21/2020)

08/21/2020

***Answer deadline set for Coxsackie-Athens School District, Freya Mercer and Randall
Squier to 9/1/2020. (jmb) (Entered: 08/21/2020)

08/21/2020

26 TEXT ORDER approving 22 Stipulation, filed by Three Village Central School District,
Chris Pettograsso, Michael Paolino, Kaweeda G. Adams, Lorri Whiteman, Albany City
School District, Lansing Central School District, Christine Rebera, South Huntington
School District, Corinne Keane, David P. Bennardo, Cheryl Pedisich, Answer due date
updated for Kaweeda G. Adams answer due 9/21/2020; Albany City School District
answer due 9/21/2020; David P. Bennardo answer due 9/21/2020; Corinne Keane answer
due 9/21/2020; Lansing Central School District answer due 9/21/2020; Michael Paolino
answer due 9/21/2020; Cheryl Pedisich answer due 9/21/2020; Chris Pettograsso answer
due 9/21/2020; Christine Rebera answer due 9/21/2020; South Huntington School
District answer due 9/21/2020; Three Village Central School District answer due
9/21/2020; Lorri Whiteman answer due 9/21/2020. Authorized by Magistrate Judge
Christian F. Hummel on 8/21/2020. (tab) (Entered: 08/21/2020)

08/24/2020

27 NOTICE of Appearance by Michael G. McCartin on behalf of New York State
Department of Health, Elizabeth Rausch-Phung, Howard Zucker (McCartin, Michael)
(Entered: 08/24/2020)

08/24/2020

28 MOTION to Dismiss for Failure to State a Claim Motion Hearing set for 10/1/2020 10:00
AM in Syracuse before Judge Brenda K. Sannes Response to Motion due by 9/14/2020
Reply to Response to Motion due by 9/21/2020. filed by New York State Department of
Health, Elizabeth Rausch-Phung, Howard Zucker. (Attachments: # 1 Memorandum of
Law, # 2 Declaration of Michael G. McCartin, # 3 Exhibit(s) 1 (Bill No. S2994A), # 4
Exhibit(s) 2 (N.Y. Reg.), # 5 Exhibit(s) 3 (N.Y. Reg.), # 6 Exhibit(s) 4 (Emerg. Regs.), # 7
Exhibit(s) 5 (CDC ACIP), # 8 Exhibit(s) 6 (Final Regs.), # 9 Exhibit(s) 7 (ISDA
Recom.), # 10 Exhibit(s) 8 (AAP Recom.), # 11 Exhibit(s) 9 (AAFP Recom.)) (McCartin,
Michael) (Entered: 08/24/2020)

08/24/2020

29 AFFIDAVIT of Service for Summons and Complaint served on South Huntington School
District on August 11, 2020, filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe,
Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman,
Michael) (Entered: 08/24/2020)

08/24/2020

30 AFFIDAVIT of Service for Summons and Complaint served on Dr. David Bennardo on
August 11, 2020, filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane
Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman, Michael)
(Entered: 08/24/2020)

08/24/2020

31 AFFIDAVIT of Service for Summons and Complaint served on Three Village Central
School District on August 11, 2020, filed by Childrens Health Defense, Jane Boe, Sr,
Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr.
(Sussman, Michael) (Entered: 08/24/2020)

08/24/2020

32 AFFIDAVIT of Service for Summons and Complaint served on Cheyrl Pedisich on
August 11, 2020, filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane

Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman, Michael)
(Entered: 08/24/2020)
08/24/2020

33 AFFIDAVIT of Service for Summons and Complaint served on Corinne Keane on
August 13, 2020, filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane
Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman, Michael)
(Entered: 08/24/2020)

08/24/2020

34 AFFIDAVIT of Service for Summons and Complaint served on Dr. Thomas Putnam on
August 6, 2020, filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe,
Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman, Michael)
(Entered: 08/24/2020)

08/24/2020

35 CERTIFICATE OF SERVICE by New York State Department of Health, Elizabeth
Rausch-Phung, Howard Zucker re 28 MOTION to Dismiss for Failure to State a Claim
(McCartin, Michael) (Entered: 08/24/2020)

08/25/2020

36 NOTICE of Appearance by Andrew W. Koster on behalf of New York State Department
of Health, Elizabeth Rausch-Phung, Howard Zucker (Koster, Andrew) (Entered:
08/25/2020)

08/25/2020

37 STIPULATION Extending Time to Answer by Coxsackie-Athens School District, Sean
Gnat, Andrew Hills, Freya Mercer, Penfield Central School District, Chris Pettograsso,
Thomas Putnam, Christine Rebera, L. Oliver Robinson, Shenendehowa Central School
District, Randall Squier, Lorri Whiteman. (Ryan, James) (Entered: 08/25/2020)

08/25/2020

38 NOTICE of Appearance by Gregg T. Johnson on behalf of Kaweeda G. Adams, Albany
City School District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City
School District, Corinne Keane, Michael Paolino, Cheryl Pedisich, South Huntington
School District, Three Village Central School District (Johnson, Gregg) (Entered:
08/25/2020)

08/25/2020

39 Letter Motion from Gregg T. Johnson, Esq. for Kaweeda G. Adams, Albany City School
District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District,
Corinne Keane, Michael Paolino, Cheryl Pedisich, South Huntington School District,
Three Village Central School District requesting acceptance of Amended Notice of
Appearance submitted to Judge Hon. Brenda K. Sannes, USDJ . (Johnson, Gregg)
(Entered: 08/25/2020)

08/25/2020

40 NOTICE of Appearance by James G. Ryan on behalf of Coxsackie-Athens School
District, Sean Gnat, Andrew Hills, Lansing Central School District, Freya Mercer,
Penfield Central School District, Chris Pettograsso, Thomas Putnam, Christine Rebera, L.
Oliver Robinson, Shenendehowa Central School District, Randall Squier, Lorri
Whiteman (Ryan, James) (Entered: 08/25/2020)

08/25/2020

41 MOTION for Temporary Restraining Order , MOTION for Preliminary Injunction by
Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe,
Jane Loe, John Coe, Sr, John Foe, Sr. (Attachments: # 1 Memorandum of Law MOL In
Support, # 2 Proposed Order/Judgment Proposed Order, # 3 Declaration Gibson
Declaration in Support, # 4 Exhibit(s) Gibson Exh 1- 2020-2021 NYS Immunizations
Requirements, # 5 Exhibit(s) Emergency Regulation, # 6 Exhibit(s) Vaccine Package
Inserts, # 7 Exhibit(s) Vaccine 2017, # 8 Exhibit(s) Dr. Obukhanych open letter to
legislators California, # 9 Exhibit(s) NYS School Boards Association, # 10 Exhibit(s)
School Reopening FAQs, # 11 Exhibit(s) NYS P12 School Reopening Guidelines, # 12
Declaration Doe Dec, # 13 Declaration Boe Dec, # 14 Declaration Coe Dec, # 15
Declaration Foe Dec, # 16 Declaration Joe Dec, # 17 Declaration Loe Dec, # 18
Declaration Pavelsky Dec, # 19 Declaration Rodriguez Dec, # 20 Declaration AM 2 Dec,

# 21 Declaration EC Dec, # 22 Declaration JS Dec, # 23 Declaration NC Dec, # 24
Declaration BB Dec, # 25 Declaration AM3 Dec, # 26 Declaration KW Dec, # 27
Declaration CM Dec, # 28 Declaration NF Dec, # 29 Declaration CB Dec, # 30
Declaration AM Dec, # 31 Declaration RB Dec, # 32 Declaration MD Dec, # 33
Declaration BP Dec, # 34 Declaration RF Dec, # 35 Declaration MN Dec, # 36
Declaration SP Dec, # 37 Declaration JH Dec, # 38 Declaration HD Dec, # 39 Affidavit
Certificate of Service, # 40 Affidavit Certificate of Service)(Sussman, Michael) (Entered:
08/25/2020)
08/25/2020

42 NOTICE of Appearance by Adam I. Kleinberg on behalf of Kaweeda G. Adams, Albany
City School District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City
School District, Corinne Keane, Michael Paolino, Cheryl Pedisich, South Huntington
School District, Three Village Central School District (Kleinberg, Adam) (Entered:
08/25/2020)

08/26/2020

43 Letter Motion from Gregg T. Johnson, Esq. for Kaweeda G. Adams, Albany City School
District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District,
Corinne Keane, Michael Paolino, Cheryl Pedisich, South Huntington School District,
Three Village Central School District requesting Conference to set deadlines submitted to
Judge Hon. Brenda K. Sannes, USDJ . (Johnson, Gregg) (Entered: 08/26/2020)

08/26/2020

44 TEXT ORDER granting 39 Letter Request to remove the appearance for Lansing CSD
and its administrators. SO ORDERED by Judge Brenda K. Sannes on 8/26/2020. (rjb, )
(Entered: 08/26/2020)

08/26/2020

45 TEXT ORDER: Telephone Conference set for 8/26/2020 at 02:00 PM before Judge
Brenda K. Sannes.Separate call in instructions for the conference will be issued. SO
ORDERED by Judge Brenda K. Sannes on 8/26/2020. (rjb, ) (Entered: 08/26/2020)

08/26/2020

TEXT NOTICE of Teleconference: Telephone Conference set for 8/26/2020 at 02:00 PM
before Judge Brenda K. Sannes. The parties are directed to dial in at 877-336-1280,
Access code 8447002, Security code 8590.(rjb, ) (Entered: 08/26/2020)

08/26/2020

TEXT Minute Entry for proceedings held before Judge Brenda K. Sannes: Telephone
Conference held on 8/26/2020. Appearances: Sujata Gibson, Esq. and Mary Holland,
Esq. for Plaintiffs; Michael McCartin, AAG, Andrew Koster, AAG, Gregg Johnson, Esq.,
Adam Kleinberg, Esq., James Ryan, Esq. and Roxanne Tshjin, Esq. for Defendants. Judge
Sannes hears from counsel on Plaintiffs' 41 motion and denies the request for a temporary
restraining order. An order to show cause with an expedited briefing schedule is granted
regarding the motion for preliminary injunction. Defendants' opposition to the 41 motion
is due by 9/4/2020 and Plaintiffs' reply is due by 9/9/2020. (Court Reporter Eileen
McDonough; 2:00PM-2:27PM) (rjb, ) (Entered: 08/26/2020)

08/27/2020

46 ORDER TO SHOW CAUSE: Plaintiffs' motion for a Temporary Restraining Order is
DENIED; Plaintiffs' request for expedited briefing on their motion for apreliminary
injunction is GRANTED. Defendants shall file their opposition to Plaintiffs' motion by
September 4, 2020, and Plaintiffs shall file their reply by September 9, 2020. It does not
appear Plaintiffs have served the Summons and Complaint or the Motion for Temporary
Restraining Order and Preliminary Injunction on Defendant Brother David Migliorino,
they are directed to file proof of service of the Complaint, Motion, and this Order on
Defendant Brother David Migliorino by August 31, 2020. Signed by Judge Brenda K.
Sannes on 8/27/2020. (rjb, ) (Entered: 08/27/2020)

08/27/2020

47 TEXT ORDER Approving 37 Stipulation, filed by Shenendehowa Central School
District, Chris Pettograsso, Freya Mercer, Sean Gnat, Andrew Hills, Lorri Whiteman,
Coxsackie-Athens School District, Christine Rebera, Thomas Putnam, Randall Squier,
Penfield Central School District, L. Oliver Robinson, Answer due date updated for

Coxsackie-Athens School District answer due 9/24/2020; Sean Gnat answer due
9/24/2020; Andrew Hills answer due 9/24/2020; Freya Mercer answer due 9/24/2020;
Penfield Central School District answer due 9/24/2020; Chris Pettograsso answer due
9/24/2020; Thomas Putnam answer due 9/24/2020; Christine Rebera answer due
9/24/2020; L. Oliver Robinson answer due 9/24/2020; Shenendehowa Central School
District answer due 9/24/2020; Randall Squier answer due 9/24/2020; Lorri Whiteman
answer due 9/24/2020. Authorized by Magistrate Judge Christian F. Hummel on
8/27/2020. (tab) (Entered: 08/27/2020)
08/28/2020

48 STIPULATION Extending Time to Answer by Kaweeda G. Adams, Albany City School
District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District,
Corinne Keane, Michael Paolino, Cheryl Pedisich, South Huntington School District,
Three Village Central School District submitted to Judge Hon. Christian J. Hummel,
USMJ. (Johnson, Gregg) (Entered: 08/28/2020)

08/28/2020

49 AFFIDAVIT of Service for Summons and Complaint, Order to Show Cause, Court Order
served on Br. Migliorino by service through Patrick F. Adams, PC on August 28, 2020,
filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr,
Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Sussman, Michael) (Entered:
08/28/2020)

08/31/2020

50 TEXT ORDER approving 48 Stipulation, filed by Three Village Central School District,
Michael Paolino, Kaweeda G. Adams, Luvelle Brown, Albany City School District,
Corinne Keane, South Huntington School District, Susan Eschbach, Ithaca City School
District, David P. Bennardo, Cheryl Pedisich, Answer due date updated for Luvelle
Brown answer due 9/21/2020; Susan Eschbach answer due 9/21/2020; Ithaca City School
District answer due 9/21/2020. Authorized by Magistrate Judge Christian F. Hummel on
8/31/2020. (tab) (Entered: 08/31/2020)

08/31/2020

51 NOTICE of Appearance by Loraine Clare Jelinek on behalf of Kaweeda G. Adams,
Albany City School District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca
City School District, Corinne Keane, Michael Paolino, Cheryl Pedisich, South
Huntington School District, Three Village Central School District (Jelinek, Loraine)
(Entered: 08/31/2020)

09/02/2020

52 Letter Motion from Adam I. Kleinberg for Kaweeda G. Adams, Albany City School
District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District,
Corinne Keane, Michael Paolino, Cheryl Pedisich, South Huntington School District,
Three Village Central School District requesting Permission to File One 40-Page
Combined Memorandum of Law submitted to Judge Honorable Brenda K. Sannes .
(Kleinberg, Adam) (Entered: 09/02/2020)

09/02/2020

53 TEXT ORDER granting 52 Letter Request to file a combined 40 page memorandum of
law. SO ORDERED by Judge Brenda K. Sannes on 9/2/2020. (rjb, ) (Entered:
09/02/2020)

09/03/2020

54 MOTION to Dismiss for Failure to State a Claim filed by Kaweeda G. Adams, Albany
City School District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City
School District, Corinne Keane, Michael Paolino, Cheryl Pedisich, South Huntington
School District, Three Village Central School District. (Attachments: # 1 Declaration, # 2
Exhibit(s) A, # 3 Exhibit(s) B, # 4 Exhibit(s) C, # 5 Exhibit(s) D, # 6 Exhibit(s) E, # 7
Exhibit(s) F, # 8 Exhibit(s) G, # 9 Exhibit(s) H, # 10 Exhibit(s) I, # 11 Exhibit(s) J, # 12
Exhibit(s) K, # 13 Exhibit(s) L, # 14 Memorandum of Law) (Kleinberg, Adam) (Entered:
09/03/2020)

09/04/2020

55 STIPULATION re 46 Order,, extending Br. Migliroino's opposition to September 14,
2020, Plaintiff's response to September 19, 2020 by Childrens Health Defense, Jane Boe,

Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr
submitted to Judge Brenda K. Sannes. (Sussman, Michael) (Entered: 09/04/2020)
09/04/2020

56 AFFIDAVIT in Opposition re 41 MOTION for Temporary Restraining Order MOTION
for Preliminary Injunction filed by Coxsackie-Athens School District, Sean Gnat,
Andrew Hills, Lansing Central School District, Freya Mercer, Penfield Central School
District, Chris Pettograsso, Thomas Putnam, Christine Rebera, L. Oliver Robinson,
Shenendehowa Central School District, Randall Squier, Lorri Whiteman. (Attachments: #
1 Exhibit(s) A, # 2 Exhibit(s) B, # 3 Exhibit(s) C, # 4 Exhibit(s) D, # 5 Exhibit(s) E, # 6
Exhibit(s) F)(Ryan, James) (Entered: 09/04/2020)

09/04/2020

57 AFFIDAVIT in Opposition re 41 MOTION for Temporary Restraining Order MOTION
for Preliminary Injunction filed by Coxsackie-Athens School District, Sean Gnat,
Andrew Hills, Lansing Central School District, Freya Mercer, Penfield Central School
District, Chris Pettograsso, Thomas Putnam, Christine Rebera, L. Oliver Robinson,
Shenendehowa Central School District, Randall Squier, Lorri Whiteman. (Attachments: #
1 Exhibit(s) A, # 2 Exhibit(s) B, # 3 Exhibit(s) C, # 4 Exhibit(s) D)(Ryan, James)
(Entered: 09/04/2020)

09/04/2020

58 AFFIDAVIT in Opposition re 41 MOTION for Temporary Restraining Order MOTION
for Preliminary Injunction filed by Coxsackie-Athens School District, Sean Gnat,
Andrew Hills, Lansing Central School District, Freya Mercer, Penfield Central School
District, Chris Pettograsso, Thomas Putnam, Christine Rebera, L. Oliver Robinson,
Shenendehowa Central School District, Randall Squier, Lorri Whiteman. (Attachments: #
1 Exhibit(s) A)(Ryan, James) (Entered: 09/04/2020)

09/04/2020

59 AFFIDAVIT in Opposition re 41 MOTION for Temporary Restraining Order MOTION
for Preliminary Injunction filed by Coxsackie-Athens School District, Sean Gnat,
Andrew Hills, Lansing Central School District, Freya Mercer, Penfield Central School
District, Chris Pettograsso, Thomas Putnam, Christine Rebera, L. Oliver Robinson,
Shenendehowa Central School District, Randall Squier, Lorri Whiteman. (Ryan, James)
(Entered: 09/04/2020)

09/04/2020

60 MEMORANDUM OF LAW IN OPPOSITION filed by Coxsackie-Athens School
District, Sean Gnat, Andrew Hills, Lansing Central School District, Freya Mercer,
Penfield Central School District, Chris Pettograsso, Thomas Putnam, Christine Rebera, L.
Oliver Robinson, Shenendehowa Central School District, Randall Squier, Lorri
Whiteman. (Ryan, James) (Entered: 09/04/2020)

09/04/2020

61 AFFIDAVIT in Opposition re 41 MOTION for Temporary Restraining Order MOTION
for Preliminary Injunction filed by New York State Department of Health, Elizabeth
Rausch-Phung, Howard Zucker. (Attachments: # 1 Exhibit(s) A (8/16/19 Emergency
Regs), # 2 Exhibit(s) B (Regs), # 3 Exhibit(s) C (DOH 5077), # 4 Exhibit(s) D
(Contraindications), # 5 Exhibit(s) E (CDC Website), # 6 Exhibit(s) F (Schedule), # 7
Exhibit(s) G (Screening Checklist), # 8 Exhibit(s) H (IDSC), # 9 Exhibit(s) I (Press
Release), # 10 Exhibit(s) J (Non-med exemption), # 11 Exhibit(s) K (CDC Website), # 12
Exhibit(s) L (Imm. Action Coalition), # 13 Exhibit(s) M (Infact Imm. FAQs, # 14
Exhibit(s) N ( CDC Data), # 15 Exhibit(s) O (Measles Stats), # 16 Exhibit(s) P (Measles
Info), # 17 Exhibit(s) Q (Press Release), # 18 Exhibit(s) R (COVID CDC Data), # 19
Exhibit(s) S (COVID Stats), # 20 Exhibit(s) T (COVID Stats), # 21 Exhibit(s) U (Exec.
Order), # 22 Exhibit(s) V (NYSED Guidance), # 23 Exhibit(s) W (NYSED Guidance), #
24 Memorandum of Law)(McCartin, Michael) (Entered: 09/04/2020)

09/04/2020

62 RESPONSE in Opposition re 41 MOTION for Temporary Restraining Order MOTION
for Preliminary Injunction filed by Kaweeda G. Adams, Albany City School District,
David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District, Corinne
Keane, Michael Paolino, Cheryl Pedisich, South Huntington School District, Three

Village Central School District. (Attachments: # 1 Exhibit(s) A, # 2 Exhibit(s) B)
(Johnson, Gregg) (Attachment 1 replaced on 12/1/2020) (jmb, ). (Entered: 09/04/2020)
09/04/2020

63 RESPONSE in Opposition re 41 MOTION for Temporary Restraining Order MOTION
for Preliminary Injunction filed by Kaweeda G. Adams, Albany City School District,
David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District, Corinne
Keane, Michael Paolino, Cheryl Pedisich, South Huntington School District, Three
Village Central School District. (Attachments: # 1 Exhibit(s) EX A, # 2 Exhibit(s) EX B,
# 3 Exhibit(s) EX C, # 4 Exhibit(s) EX D, # 5 Exhibit(s) EX E, # 6 Exhibit(s) EX F, # 7
Exhibit(s) EX G, # 8 Exhibit(s) EX H, # 9 Exhibit(s) EX I, # 10 Exhibit(s) EX J, # 11
Exhibit(s) EX K, # 12 Exhibit(s) EX L, # 13 Exhibit(s) EX M, # 14 Exhibit(s) EX N, #
15 Exhibit(s) EX O, # 16 Exhibit(s) EX P, # 17 Exhibit(s) EX Q, # 18 Exhibit(s) EX R, #
19 Exhibit(s) EX S, # 20 Exhibit(s) EX T, # 21 Exhibit(s) EX U, # 22 Exhibit(s) EX V, #
23 Exhibit(s) EX W, # 24 Exhibit(s) EX X, # 25 Exhibit(s) EX Y, # 26 Affidavit Dr.
Sussman)(Johnson, Gregg) (Attachment 5 replaced on 12/1/2020) (jmb, ). (Attachment 6
replaced on 12/1/2020) (jmb, ). (Attachment 8 replaced on 12/1/2020) (jmb, ). (Entered:
09/04/2020)

09/04/2020

64 RESPONSE in Opposition re 41 MOTION for Temporary Restraining Order MOTION
for Preliminary Injunction filed by Kaweeda G. Adams, Albany City School District,
David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District, Corinne
Keane, Michael Paolino, Cheryl Pedisich, South Huntington School District, Three
Village Central School District. (Attachments: # 1 Exhibit(s) EX A, # 2 Exhibit(s) EX B,
# 3 Exhibit(s) EX C, # 4 Exhibit(s) EX D, # 5 Exhibit(s) EX E, # 6 Exhibit(s) EX F, # 7
Exhibit(s) EX G, # 8 Exhibit(s) EX H, # 9 Exhibit(s) EX I, # 10 Exhibit(s) EX J, # 11
Affidavit AFF A Poprilo)(Johnson, Gregg) (Entered: 09/04/2020)

09/04/2020

65 RESPONSE in Opposition re 41 MOTION for Temporary Restraining Order MOTION
for Preliminary Injunction filed by Kaweeda G. Adams, Albany City School District,
David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District, Corinne
Keane, Michael Paolino, Cheryl Pedisich, South Huntington School District, Three
Village Central School District. (Attachments: # 1 Exhibit(s) EX A, # 2 Exhibit(s) EX B,
# 3 Exhibit(s) EX C, # 4 Exhibit(s) EX D)(Johnson, Gregg) (Entered: 09/04/2020)

09/04/2020

66 MEMORANDUM OF LAW re 41 Motion for TRO,,,,,,, Motion for Preliminary
Injunction,,,,,, filed by Kaweeda G. Adams, Albany City School District, David P.
Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District, Corinne Keane,
Michael Paolino, Cheryl Pedisich, South Huntington School District, Three Village
Central School District. (Johnson, Gregg) (Entered: 09/04/2020)

09/08/2020

67 ORDER extending time for Defendant David Migliorino to respond to the 41 motion
until 9/14/2020; Plaintiffs' reply due 9/19/2020. Signed by Judge Brenda K. Sannes on
9/8/2020. (rjb, ) (Entered: 09/08/2020)

09/09/2020

68 REPLY to Response to Motion re 41 MOTION for Temporary Restraining Order
MOTION for Preliminary Injunction filed by Jane Doe. (Gibson, Sujata) (Entered:
09/09/2020)

09/11/2020

69 STIPULATION re 41 MOTION for Temporary Restraining Order MOTION for
Preliminary Injunction , 67 Order, 55 Stipulation, extending Br. Migliorino's time to file
opposition to October 5, 2020 by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr,
Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr submitted to
Judge Brenda K. Sannes. (Sussman, Michael) (Entered: 09/11/2020)

09/11/2020

70 ORDER extending time for Defendant David Migliorino to respond to the 41 motion
until 9/28/2020; Plaintiffs' reply due 10/5/2020. Signed by Judge Brenda K. Sannes on
9/11/2020. (rjb, ) (Entered: 09/11/2020)

09/11/2020

71 TEXT ORDER: Telephonic Oral Argument on Plaintiffs' 41 Motion is hereby scheduled
for 10/9/2020 at 10:00 AM. Separate call in instructions will be provided. SO ORDERED
by Judge Brenda K. Sannes on 9/11/2020. (rjb, ) (Entered: 09/11/2020)

09/11/2020

TEXT NOTICE of Teleconference: Telephonic Oral Argument set for 10/9/2020 at 10:00
AM before Judge Brenda K. Sannes. The parties are directed to dial in at 877-336-1280,
Access code 8447002, Security code 8590. (rjb, ) (Entered: 09/11/2020)

09/15/2020

72 AMENDED DOCUMENT - MEMORANDUM OF LAW by Kaweeda G. Adams,
Albany City School District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca
City School District, Corinne Keane, Michael Paolino, Cheryl Pedisich, South
Huntington School District, Three Village Central School District. Amendment to 66
Memorandum of Law, Only change - cover page amended to add attorney. (Johnson,
Gregg) Modified on 9/16/2020 to add memo wording. (jmb) (Entered: 09/15/2020)

09/21/2020

73 LETTER BRIEF by New York State Department of Health, Elizabeth Rausch-Phung,
Howard Zucker. (Koster, Andrew) (Entered: 09/21/2020)

09/21/2020

74 MEMORANDUM OF LAW re 28 Motion to Dismiss for Failure to State a Claim,, In
Opposition, filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe,
Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Gibson, Sujata) (Entered:
09/21/2020)

09/22/2020

75 RESPONSE in Opposition re 28 MOTION to Dismiss for Failure to State a Claim Letter
Accompanying Memo of Law Dkt 74 filed by Childrens Health Defense, Jane Boe, Sr,
Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr.
(Gibson, Sujata) (Entered: 09/22/2020)

09/22/2020

76 Letter Motion from Michael G. McCartin for New York State Department of Health,
Elizabeth Rausch-Phung, Howard Zucker requesting to re-set the Return Date for Dkt.
No. 28 to 10/15/20 and the Reply date to 10/6/20 submitted to Judge Sannes . (McCartin,
Michael) (Entered: 09/22/2020)

09/23/2020

TEXT NOTICE: The 54 motion to dismiss will be heard by the Court on submission of
the papers. Once the papers have been fully reviewed, counsel will be notified if the
Court deems oral argument necessary. (rjb, ) (Entered: 09/23/2020)

09/24/2020

77 TEXT ORDER granting 76 Letter Request - reply due 10/6/2020. SO ORDERED by
Judge Brenda K. Sannes on 9/24/2020. (rjb, ) (Entered: 09/24/2020)

09/24/2020

78 MOTION to Dismiss Motion Hearing set for 11/5/2020 10:00 AM in Syracuse before
Judge Brenda K. Sannes Response to Motion due by 10/19/2020 Reply to Response to
Motion due by 10/26/2020. filed by Coxsackie-Athens School District, Sean Gnat,
Andrew Hills, Lansing Central School District, Freya Mercer, Penfield Central School
District, Chris Pettograsso, Thomas Putnam, Christine Rebera, L. Oliver Robinson,
Shenendehowa Central School District, Randall Squier, Lorri Whiteman. (Attachments: #
1 Affirmation, # 2 Exhibit(s) 1, # 3 Exhibit(s) 2, # 4 Memorandum of Law, # 5
Declaration) (Ryan, James) (Entered: 09/24/2020)

09/25/2020

79 NOTICE of Appearance by Chelsea Weisbord on behalf of Kaweeda G. Adams, Albany
City School District, David P. Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City
School District, Corinne Keane, Michael Paolino, Cheryl Pedisich, South Huntington
School District, Three Village Central School District (Weisbord, Chelsea) (Entered:
09/25/2020)

09/28/2020

80 NOTICE of Appearance by Joseph Kim on behalf of David Migliorino (Kim, Joseph)
(Entered: 09/28/2020)

09/28/2020

81 RESPONSE in Opposition re 41 MOTION for Temporary Restraining Order MOTION

for Preliminary Injunction filed by David Migliorino. (Kim, Joseph) (Entered:
09/28/2020)
09/28/2020

82 MEMORANDUM OF LAW re 41 Motion for TRO,,,,,,, Motion for Preliminary
Injunction,,,,,, in Opposition filed by David Migliorino. (Kim, Joseph) (Entered:
09/28/2020)

09/28/2020

83 RESPONSE in Opposition re 54 MOTION to Dismiss for Failure to State a Claim
Memorandum of Law filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane
Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Gibson, Sujata)
(Entered: 09/28/2020)

10/02/2020

84 NOTICE of Appearance by Meishin Riccardulli on behalf of David Migliorino
(Riccardulli, Meishin) (Entered: 10/02/2020)

10/02/2020

85 MEMORANDUM OF LAW re 54 Motion to Dismiss for Failure to State a Claim,, Reply
in Further Support filed by Kaweeda G. Adams, Albany City School District, David P.
Bennardo, Luvelle Brown, Susan Eschbach, Ithaca City School District, Corinne Keane,
Michael Paolino, Cheryl Pedisich, South Huntington School District, Three Village
Central School District. (Kleinberg, Adam) (Entered: 10/02/2020)

10/05/2020

86 NOTICE of Appearance by Philip Semprevivo on behalf of David Migliorino
(Semprevivo, Philip) (Entered: 10/05/2020)

10/05/2020

87 REPLY to Response to Motion re 28 MOTION to Dismiss for Failure to State a Claim
filed by New York State Department of Health, Elizabeth Rausch-Phung, Howard Zucker.
(McCartin, Michael) (Entered: 10/05/2020)

10/05/2020

88 NOTICE of Appearance by Elaine Nancy Chou on behalf of David Migliorino (Chou,
Elaine) (Entered: 10/05/2020)

10/05/2020

89 REPLY to Response to Motion re 41 MOTION for Temporary Restraining Order
MOTION for Preliminary Injunction reply to Migliorino opposition filed by Childrens
Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe,
John Coe, Sr, John Foe, Sr. (Gibson, Sujata) (Entered: 10/05/2020)

10/07/2020

90 TEXT ORDER granting 2 Motion to Proceed under Pseudonym; granting 2 Motion for
Protective Order: Plaintiffs commenced this action on July 23, 2020 with the filing of a
complaint. Dkt. No. 1. Also on July 23, plaintiffs filed a Motion to Proceed under a
Pseudonym and for a Protective Order. Dkt. No. 2. Defendants have not opposed the
motion. Following review of plaintiffs arguments in support of proceeding under
pseudonyms and for a protective order, the Court finds that such measures are warranted
at this time. The plaintiffs' request to proceed under pseudonyms and for a protective
order is GRANTED. The Court grants leave to defendants to raise objections to
proceeding under pseudonyms and to the protective order in the future should there be a
change in circumstances which warrant such objections. The parties will be subject to the
attached protective order. SO ORDERED. Authorized by Magistrate Judge Christian F.
Hummel on 10/7/20. (Entered: 10/07/2020)

10/09/2020

TEXT Minute Entry for proceedings held before Judge Brenda K. Sannes: Telephone
Conference held on 10/9/2020. Appearances: Michael Sussman, Esq. and Sujata Gibson,
Esq. for Plaintiffs; Michael McCartin, AAG, Andrew Koster, AAG, Gregg Johnson, Esq.,
Adam Kleinberg, Esq., Chelsea Weisbord, Esq., James Ryan, Esq., Roxanne Tashjian,
Esq., Meishin Riccardulli, Esq. and Elaine Chou, Esq. for Defendants. Motion hearing
was adjourned and will be rescheduled as the Court was unable to proceed due to the
amount of participants/background noise on the call. (Court Reporter Jodi Hibbard;
10:08AM-10:18AM) (rjb, ) (Entered: 10/09/2020)

10/15/2020

TEXT NOTICE of Hearing on Plaintiff's 41 Motion for Preliminary Injunction: Motion
Hearing scheduled for 10/15/2020 at 04:30 PM before Judge Brenda K. Sannes. Any
members of the public who would like to hear the oral argument may dial in at 888-3634734, Access Code 8285666, Security Code 1015. Separate call in instructions will be
issued for counsel and any parties who wish to be on the call.(rjb, ) (Entered: 10/15/2020)

10/15/2020

TEXT NOTICE of Teleconference: Telephonic Oral Argument set for 10/15/2020 at
04:30 AM before Judge Brenda K. Sannes. Counsel and any parties are directed to dial in
at 888-278-0296, Access code 3646986, Security code 1015. (rjb, ) (Entered: 10/15/2020)

10/15/2020

TEXT Minute Entry for proceedings held before Judge Brenda K. Sannes: Telephone
Conference held on 10/15/2020. Appearances: Michael Sussman, Esq. and Sujata Gibson,
Esq. for Plaintiffs; Michael McCartin, AAG, Andrew Koster, AAG, Gregg Johnson, Esq.,
Loraine Jelinek, Esq., Adam Kleinberg, Esq., Chelsea Weisbord, Esq., James Ryan, Esq.,
Roxanne Tashjian, Esq., Meishin Riccardulli, Esq. and Elaine Chou, Esq. for Defendants.
Judge Sannes hears from Attorneys Gibson, McCartin, Johnson, Ryan and Chou on
Plaintiffs' 41 Motion for Preliminary Injunction. A written decision will be issued.
Plaintiffs' counsel is granted leave to file a letter request detailing what they are seeking
to amend in the complaint by 10/22/2020. Plaintiffs granted an extension of time until
10/26/2020 to respond to the 78 Motion to Dismiss, reply will be due by 11/2/2020.
Defendant Migliorino intends to file a Motion to Dismiss as well. (Court Reporter Jodi
Hibbard; 4:30PM-5:55PM) (rjb, ) (Entered: 10/15/2020)

10/16/2020

91 MOTION to Dismiss for Failure to State a Claim Motion Hearing set for 11/19/2020
10:00 AM in Syracuse before Judge Brenda K. Sannes Response to Motion due by
11/2/2020 Reply to Response to Motion due by 11/9/2020. filed by David Migliorino.
(Attachments: # 1 Memorandum of Law in Support of Migliorino Motion to Dismiss, # 2
Declaration of Br. David Anthony Migliorino, OSF) (Chou, Elaine) (Entered:
10/16/2020)

10/22/2020

92 ORDER denying Plaintiffs' 41 Motion for Preliminary Injunction. Signed by Judge
Brenda K. Sannes on 10/22/2020. (rjb, ) (Entered: 10/22/2020)

10/22/2020

93 First MOTION to Amend/Correct Complaint - Letter Motion filed by Childrens Health
Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John
Coe, Sr, John Foe, Sr. (Attachments: # 1 Proposed Amended Pleading With Track
Changes, # 2 Proposed Amended Pleading Without Track Changes) Motions referred to
Christian F. Hummel. (Gibson, Sujata) (Entered: 10/22/2020)

10/23/2020

94 TEXT ORDER: The Court has reviewed Plaintiffs' letter motion seeking to file an
Amended Complaint 93 . Defendants are directed to file a letter response not to exceed
five (5) pages by November 9, 2020. Plaintiff may file a reply letter brief not to exceed
five (5) pages by November 23, 2020. The Court will hold a telephone conference on
December 7, 2020 at 10 a.m. to consider, inter alia, whether, in light of the pending
motions to dismiss and Plaintiffs' letter motion, there are issues that can be resolved at
this stage of the proceedings. SO ORDERED by Judge Brenda K. Sannes on 10/23/2020.
(rjb, ) (Entered: 10/23/2020)

10/23/2020

TEXT NOTICE of Teleconference: Telephone Conference set for 12/7/2020 at 10:00 AM
before Judge Brenda K. Sannes. The parties are directed to dial in at 888-363-4734,
Access code 8285666, Security code 1207. (rjb, ) (Entered: 10/23/2020)

10/26/2020

95 MOTION for Leave to File Combined 45 page Memorandum of Law filed by Jane Coe,
Sr, Jane Doe, Jane Goe, Sr. Motions referred to Christian F. Hummel. (Gibson, Sujata)
(Entered: 10/26/2020)

10/26/2020

96 TEXT ORDER granting 95 Motion for Leave to File Combined 45 page Memorandum of

Law. SO ORDERED by Judge Brenda K. Sannes on 10/26/2020. (rjb, ) (Entered:
10/26/2020)
10/26/2020

97 Letter Motion from Michael G. McCartin for New York State Department of Health,
Elizabeth Rausch-Phung, Howard Zucker requesting that the Court take the 11/16/20
Rule 16 Conference off calendar submitted to Judge Hummel . (McCartin, Michael)
(Entered: 10/26/2020)

10/26/2020

98 RESPONSE in Support re 97 Letter Motion from Michael G. McCartin for New York
State Department of Health, Elizabeth Rausch-Phung, Howard Zucker requesting that the
Court take the 11/16/20 Rule 16 Conference off calendar submitted to Judge Hummel
filed by Coxsackie-Athens School District, Sean Gnat, Andrew Hills, Lansing Central
School District, Freya Mercer, Penfield Central School District, Chris Pettograsso,
Thomas Putnam, Christine Rebera, L. Oliver Robinson, Shenendehowa Central School
District, Randall Squier, Lorri Whiteman. (Ryan, James) (Entered: 10/26/2020)

10/26/2020

99 NOTICE of Voluntary Dismissal Koe family claims by Childrens Health Defense
(Attachments: # 1 Supplement Letter, # 2 Proposed Amended Pleading)(Gibson, Sujata)
(Entered: 10/26/2020)

10/26/2020

100 RESPONSE in Opposition re 78 MOTION to Dismiss Memorandum of Law in
Opposition filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane
Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Gibson, Sujata) (Entered:
10/26/2020)

10/27/2020

101 TEXT ORDER granting 97 Letter Request: The Rule 16 Initial Conference scheduled for
11/16/2020 at 9:00 AM and the deadline to submit a proposed Civil Case Management
Plan and exchange Mandatory Disclosures are ADJOURNED without date pending a
decision on the dispositive motions. Authorized by Magistrate Judge Christian F.
Hummel on 10/27/2020. (tab) (Entered: 10/27/2020)

10/29/2020

102 STIPULATION re 91 MOTION to Dismiss for Failure to State a Claim Stipulation re
Briefing Schedule by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe,
Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr submitted to Judge Sannes.
(Gibson, Sujata) (Entered: 10/29/2020)

10/29/2020

103 TEXT ORDER approving 102 Stipulation to extend deadlines for the 91 Motion to
Dismiss for Failure to State a Claim : Response to Motion due by 11/10/2020; Reply to
Response to Motion due by 11/17/2020. SO ORDERED by Judge Brenda K. Sannes on
10/29/2020. (rjb, ) (Entered: 10/29/2020)

11/02/2020

104 TEXT ORDER: The Court has reviewed the Notice 99 by Plaintiff Jane Koe, on behalf of
herself and her minor children, of "their voluntary withdrawal as a named representative
of this putative class action" and Plaintiffs' voluntary dismissal without prejudice under
Fed. R. Civ. P. 41(a)(1)(A)(i) of "[a]ll claims against the Shenendehowa School District
defendants and any claims specific to [Plaintiff Koe] against the state level officials."
(Dkt. No. 99 , at 1). Accordingly, the Clerk is directed to terminate Defendants
Shenendehowa Central School District, Dr. L. Oliver Robinson, Sean Gnat, and Andrew
Hills. The revised Proposed Amended Complaint Plaintiffs submitted reflecting these
changes, (Dkt. No. 99-2), shall replace the Proposed Amended Pleading attached to
Plaintiffs' Motion to Amend/Correct Complaint, (Dkt. Nos. 93-1, 93-2). SO ORDERED
by Judge Brenda K. Sannes on 11/2/2020. (rjb, ) (Entered: 11/02/2020)

11/02/2020

105 Letter Motion from James G. Ryan for Coxsackie-Athens School District, Sean Gnat,
Andrew Hills, Lansing Central School District, Freya Mercer, Penfield Central School
District, Chris Pettograsso, Thomas Putnam, Christine Rebera, L. Oliver Robinson,
Shenendehowa Central School District, Randall Squier, Lorri Whiteman requesting

Permission to file one 15 page reply to Plaintiffs' response to Defendants' Motion to
Dismiss submitted to Judge Honorabel Brenda K. Sannes . (Ryan, James) (Entered:
11/02/2020)
11/02/2020

106 TEXT ORDER granting 105 Letter Request to file a 15 page reply. SO ORDERED by
Judge Brenda K. Sannes on 11/2/2020. (rjb, ) (Entered: 11/02/2020)

11/02/2020

107 RESPONSE in Support re 78 MOTION to Dismiss filed by Coxsackie-Athens School
District, Sean Gnat, Andrew Hills, Lansing Central School District, Freya Mercer,
Penfield Central School District, Chris Pettograsso, Thomas Putnam, Christine Rebera, L.
Oliver Robinson, Shenendehowa Central School District, Randall Squier, Lorri
Whiteman. (Ryan, James) (Entered: 11/02/2020)

11/06/2020

108 RESPONSE in Opposition re 93 First MOTION to Amend/Correct Complaint - Letter
Motion filed by Kaweeda G. Adams, Albany City School District, David P. Bennardo,
Luvelle Brown, Susan Eschbach, Ithaca City School District, Corinne Keane, Michael
Paolino, Cheryl Pedisich, South Huntington School District, Three Village Central
School District. (Johnson, Gregg) (Entered: 11/06/2020)

11/09/2020

109 RESPONSE in Opposition re 93 First MOTION to Amend/Correct Complaint - Letter
Motion filed by New York State Department of Health, Elizabeth Rausch-Phung, Howard
Zucker. (McCartin, Michael) (Entered: 11/09/2020)

11/09/2020

110 RESPONSE in Opposition re 93 First MOTION to Amend/Correct Complaint - Letter
Motion filed by David Migliorino. (Riccardulli, Meishin) (Entered: 11/09/2020)

11/09/2020

111 RESPONSE in Opposition re 93 First MOTION to Amend/Correct Complaint - Letter
Motion filed by Coxsackie-Athens School District, Lansing Central School District,
Freya Mercer, Penfield Central School District, Chris Pettograsso, Thomas Putnam,
Christine Rebera, Randall Squier, Lorri Whiteman. (Ryan, James) (Entered: 11/09/2020)

11/10/2020

112 RESPONSE in Opposition re 91 MOTION to Dismiss for Failure to State a Claim
Plaintiffs Memorandum of Law Opposing filed by Childrens Health Defense, Jane Boe,
Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr.
(Gibson, Sujata) (Entered: 11/10/2020)

11/13/2020

113 NOTICE OF APPEAL as to 92 Order on Motion for TRO, Order on Motion for
Preliminary Injunction by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane
Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. Filing fee $ 505,
receipt number ANYNDC-5316654. (Sussman, Michael) (Entered: 11/13/2020)

11/17/2020

114 ELECTRONIC NOTICE AND CERTIFICATION sent to US Court of Appeals regarding
the # 113 Notice of Interlocutory Appeal. (jmb) (Entered: 11/17/2020)

11/17/2020

115 MEMORANDUM OF LAW re 91 Motion to Dismiss for Failure to State a Claim, Reply
Memorandum Of Law In Further Support Of Defendant Br. David Anthony Migliorinos
Motion To Dismiss filed by David Migliorino. (Riccardulli, Meishin) (Entered:
11/17/2020)

11/17/2020

116 Emergency MOTION for Preliminary Injunction pending appeal and TRO pending
decision on motion filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane
Doe, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Attachments: # 1 Memorandum of
Law, # 2 Declaration, # 3 Supplement Notice of Appeal and Decision and Order, # 4
Declaration Certificate of Service) (Gibson, Sujata) (Entered: 11/17/2020)

11/18/2020

117 LETTER BRIEF requesting that the Court determine that it lacks jurisdiction to address
Plaintiffs' Second Motion for a TRO and PI by New York State Department of Health,
Elizabeth Rausch-Phung, Howard Zucker. (McCartin, Michael) (Entered: 11/18/2020)

11/18/2020

118 LETTER BRIEF re jursidction on second motion for TRO and PI by Kaweeda G.
Adams, Albany City School District, David P. Bennardo, Luvelle Brown, Susan
Eschbach, Ithaca City School District, Corinne Keane, Michael Paolino, Cheryl Pedisich,
South Huntington School District, Three Village Central School District. (Kleinberg,
Adam) (Entered: 11/18/2020)

11/18/2020

119 LETTER BRIEF joining in co-defendants' arguments re: lack of jurisdiction by David
Migliorino. (Semprevivo, Philip) (Entered: 11/18/2020)

11/18/2020

120 TEXT ORDER: The Court has reviewed Plaintiffs' motion for emergency injunctive
relief 116 and the Defendants' letter responses 117 , 118 . The Defendants argue that
Plaintiffs' notice of appeal 113 divested this Court of jurisdiction to grant Plaintiffs'
motion. Plaintiffs are directed to submit a letter brief of no more than ten pages by
November 25, 2020 addressing the issue of whether this Court has jurisdiction to grant
the preliminary injunctive relief sought. See, e.g., New York v. United States Department
of Homeland Security, 974 F.3d 210, 215-16 (2d Cir. 2020) (noting that the Rule that
authorizes a district court to grant injunctive relief pending appeal, Fed. R. Civ. P. 62(d),
should be "narrowly interpreted to allow district courts to grant only such relief as may be
necessary to preserve the status quo"). SO ORDERED by Judge Brenda K. Sannes on
11/18/2020. (rjb, ) (Entered: 11/18/2020)

11/18/2020

121 Letter in response to Jurisdictional Question re OSC filed 11/17/20 by Childrens Health
Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John
Coe, Sr, John Foe, Sr.(Gibson, Sujata) Modified on 11/18/2020 (rjb, ). (Entered:
11/18/2020)

11/18/2020

CLERK'S CORRECTION OF DOCKET ENTRY. Clerk edited text for Dkt. No. 121 to
reflect that is is a letter, not another emergency motion as filed. (rjb, ) (Entered:
11/18/2020)

11/18/2020

122 RESPONSE in Opposition re 116 Emergency MOTION for Preliminary Injunction
pending appeal and TRO pending decision on motion filed by Coxsackie-Athens School
District, Lansing Central School District, Freya Mercer, Penfield Central School District,
Chris Pettograsso, Thomas Putnam, Christine Rebera, Randall Squier, Lorri Whiteman.
(Ryan, James) (Entered: 11/18/2020)

11/18/2020

123 RESPONSE in Support re 116 Emergency MOTION for Preliminary Injunction pending
appeal and TRO pending decision on motion Letter in response to Jurisdictional
Question filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane
Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Gibson, Sujata) (Entered: 11/18/2020)

11/19/2020

124 TEXT ORDER: The Court has reviewed the parties' submissions 117 , 118 , 119 , 121 ,
122 , 123 on the issue of whether this Court has jurisdiction to grant the preliminary
injunctive relief sought by Plaintiffs 116 . Under governing Second Circuit law, It does
not appear that this Court has jurisdiction to grant the preliminary relief sought. "[O]nce a
notice of appeal has been filed, a district court may take actions only "in aid of the
appeal... and may not 'adjudicate substantial rights directly involved in the appeal.'"
International Ass'n of Machinists and Aerospace Workers, AFL-CIO v. Eastern Air Lines,
Inc., 847 F.2d 1014, 1017 (2d Cir. 1988) (citations omitted). The rule that applies to
injunctions pending appeal, Fed. R. Civ. P. 62(d) "has been narrowly interpreted to allow
district courts to grant only such relief as may be necessary to preserve the status quo
pending an appeal where the consent of the court of appeals has not been obtained." Id. at
1018. When the relief sought does "more than maintain the status quo pending th[e]
appeal, a request for leave of [the Second Circuit Court of Appeals] to make the motion
in the district court [i]s necessary." Id. (The caselaw Plaintiffs cited regarding proceeding
first in the district court under Fed. R. App. P. 8 involved applications for a stay pending
appeal.) Plaintiffs argue, without support, that the injunctive relief sought does not alter

the status quo. [121, at 2]. The record, however, reflects that the Plaintiff children have
been excluded from school since the 2019-2020 school year, and their pending motion
seeks an order compelling the defendants to provide "access to online or other remote
educational opportunities." [116, at 1]. See Doe v. Zucker, No. 20-cv-840, 2020 WL
6196148, at *3 (N.D.N.Y. October 22, 2020). To allow the parties to address the
applicable standard, the Court will permit letter briefs, no longer than 10 pages, by
November 30, 2020, on the question of whether this Court has jurisdiction to grant the
relief requested. SO ORDERED by Judge Brenda K. Sannes on 11/19/2020. (rjb, )
(Entered: 11/19/2020)
11/19/2020

125 RESPONSE to Motion re 116 Emergency MOTION for Preliminary Injunction pending
appeal and TRO pending decision on motion Letter waiving further briefing on
Jurisdiction filed by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe,
Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr. (Gibson, Sujata) (Entered:
11/19/2020)

11/20/2020

126 Letter Motion from Sujata Gibson for Childrens Health Defense, Jane Boe, Sr, Jane Coe,
Sr, Jane Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr requesting
Extension to file response re Amendment of Complaint submitted to Judge Sannes .
(Gibson, Sujata) (Entered: 11/20/2020)

11/20/2020

127 TEXT ORDER granting 126 Letter Request - replies to the 93 motion to amend due by
11/25/2020. SO ORDERED by Judge Brenda K. Sannes on 11/20/2020. (rjb, ) (Entered:
11/20/2020)

11/20/2020

128 TEXT ORDER: The Court has reviewed Plaintiffs' letter response 125 , waiving any
further briefing on the issue of whether this Court has jurisdiction to grant their second
motion for injunctive relief 116 , and stating that they intend to make a motion in the
Court of Appeals under Fed. R. App. P. 8. The Court finds that it does not have
jurisdiction to grant Plaintiffs' second motion for injunctive relief. In this action Plaintiffs
are challenging the constitutionality of New York's allegedly burdensome medical
exemptions to New York's mandatory school immunization requirements. The Court
denied Plaintiffs' first motion for injunctive relief, which sought to restrain the
implementation and enforcement of the medical exemption regulations, and Plaintiffs
have appealed from that order. Doe v. Zucker, No. 20-cv-840, 2020 WL 6196148, at *3-5
(N.D.N.Y. October 22, 2020) (noting that Plaintiffs sought to stay regulations codified in
10 N.Y.C.R.R. § 66-1; "an injunction prohibiting Defendants from 'excluding children
from school due to a lack of immunization if that child has presented a certification from
a licensed physician advising against such immunization'; and an order directing
Defendants 'to provide notice to schools, districts, and families that Plaintiffs and
similarly situated children may attend school'"). The rule that applies to injunctions
pending appeal, Fed. R. Civ. P. 62(d) "has been narrowly interpreted to allow district
courts to grant only such relief as may be necessary to preserve the status quo pending an
appeal where the consent of the court of appeals has not been obtained." International
Ass'n of Machinists and Aerospace Workers, AFL-CIO v. Eastern Air Lines, Inc., 847
F.2d 1014, 1018 (2d Cir. 1988). Plaintiffs' second motion for injunctive relief seeks to
compel the defendants to provide "access to online or other remote educational
opportunities." [116, at 1]. This request does not seek to preserve the status quo; the
record reflects that the regulations at issue were implemented as emergency regulations in
August 2019 and made permanent in December 2019, see Doe, 2020 WL 6196148, at *2,
and that the Plaintiff children have been excluded from school since the 2019-2020
school year. Doe v. Zucker, 2020 WL 6196148, at *3. Granting Plaintiffs' second motion
for injunctive relief would thus change the status quo. Plaintiffs' second request for
injunctive relief raises the same "likelihood of success on the merits" argument that this
Court ruled on in its order, which is currently on appeal, denying Plaintiffs' motion to

enjoin enforcement of the state regulations. Accordingly, the Court finds that it is without
jurisdiction to decide Plaintiffs' second motion for injunctive relief. 116 . The Clerk is
directed to terminate the motion 116 ; Plaintiffs may renew the motion upon filing a letter
indicating they have received consent from the Second Circuit. SO ORDERED by Judge
Brenda K. Sannes on 11/20/2020. (rjb, ) (Entered: 11/20/2020)
11/25/2020

129 TEXT ORDER: The Telephone Conference currently set for 12/7/2020 is hearby
rescheduled for 1/6/2021 at 10:00 AM before Judge Brenda K. Sannes. Separate call in
instructions will be provided. SO ORDERED by Judge Brenda K. Sannes on 11/25/2020.
(rjb, ) (Entered: 11/25/2020)

11/25/2020

TEXT NOTICE of Teleconference: Telephone Conference set for 1/6/2021 at 10:00 AM
before Judge Brenda K. Sannes. The parties are directed to dial in at 888-363-4734,
Access code 8285666, Security code 0106.(rjb, ) (Entered: 11/25/2020)

11/25/2020

130 REPLY to Response to Motion re 93 First MOTION to Amend/Correct Complaint Letter Motion in response to defendants opposition to amended complaint filed by
Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe,
Jane Loe, John Coe, Sr, John Foe, Sr. (Gibson, Sujata) (Entered: 11/25/2020)

12/01/2020

CLERK'S CORRECTION OF DOCKET ENTRY: At the request of Attorney Gregg
Johnson's office the clerk has replaced the following pdf images: regarding the # 62
Response in Opposition to Motion, Attachment 1 was replaced; and regarding the # 63
Response in Opposition to Motion, Attachments 5, 6 and 8 were replaced, all 4
attachments were replaced with the same amount of pages but with more complete
redactions. (jmb) (Entered: 12/01/2020)

12/04/2020

131 NOTICE of Appearance by Roxanne Lorig Tashjian on behalf of Coxsackie-Athens
School District, Lansing Central School District, Freya Mercer, Penfield Central School
District, Chris Pettograsso, Thomas Putnam, Christine Rebera, Randall Squier, Lorri
Whiteman (Tashjian, Roxanne) (Entered: 12/04/2020)

12/08/2020

132 TEXT ORDER: The Court has reviewed Plaintiffs' motion to amend the complaint 93
and the related briefing [108-111, 130]. Plaintiffs are directed to file a letter brief by
January 4, 2021 in response to the Defendants' argument (see Dkt. Nos. 108, at 4, 111, at
2-4), that amending the complaint to name individual defendants would be futile because
the individual defendants would be entitled to qualified immunity. SO ORDERED by
Judge Brenda K. Sannes on 12/8/2020. (rjb, ) (Entered: 12/08/2020)

12/14/2020

133 TEXT ORDER: At the upcoming telephone conference on January 6, 2021, counsel
should be prepared for oral argument on the pending motions to dismiss 28 , 54 , 78 , 91
and the pending motion to amend the complaint 93 . SO ORDERED by Judge Brenda K.
Sannes on 12/14/2020. (rjb, ) (Entered: 12/14/2020)

12/14/2020

TEXT NOTICE of Hearing on the pending motions to dismiss 28 , 54 , 78 , 91 and the
pending motion to amend the complaint 93 . Any members of the public who would like
to hear the oral argument may dial in at 888-363-4734, Access Code 8285666, Security
Code 0106. Updated call in instructions will be issued for counsel and any parties who
wish to be on the call. (rjb, ) (Entered: 12/14/2020)

12/14/2020

TEXT NOTICE of Teleconference: Telephone Conference set for 1/6/2021 at 10:00 AM
before Judge Brenda K. Sannes. Counsel and any parties are directed to dial in at 877336-1274, Access code 7605766, Security code 0120. (rjb, ) (Entered: 12/14/2020)

01/04/2021

134 MEMORANDUM OF LAW re 132 Order, Letter Brief re Qualified Immunity filed by
Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane Doe, Jane Goe, Sr, Jane Joe,
Jane Loe, John Coe, Sr, John Foe, Sr. (Gibson, Sujata) (Entered: 01/04/2021)

01/06/2021

TEXT Minute Entry for proceedings held before Judge Brenda K. Sannes: Telephonic
Motion Hearing held on 1/6/2021. Appearances: Sujata Gibson, Esq. and Mary Holland,
Esq. for Plaintiffs; Michael McCartin, AAG, Andrew Koster, AAG, Gregg Johnson, Esq.,
Loraine Jelinek, Esq., Adam Kleinberg, Esq., Chelsea Weisbord, Esq., James Ryan, Esq.,
Roxanne Tashjian, Esq. and Meishin Riccardulli, Esq. for Defendants. Judge Sannes
hears from counsel on Defendants' pending motions to dismiss and Plaintiffs' pending
motion to amend. The Court reserves, a written decision will be issued. (Court Reporter
Jodi Hibbard; 10:00AM-10:47AM) (rjb, ) (Entered: 01/06/2021)

01/06/2021

135 ORDER of USCA {Certified Copy Issued on 1/6/2021} as to the # 113 Notice of Appeal.
Appellants move for an emergency injunction pending appeal. Upon due consideration, it
is hereby ORDERED that the motion is DENIED because Appellants have not met the
requisite standard. (pjh, ) (Entered: 01/06/2021)

01/07/2021

136 TRANSCRIPT REQUEST Telephonic Arguments re motion to dismiss by Childrens
Health Defense for proceedings held on 1/6/2021 before Judge Sannes.. (Gibson, Sujata)
(Entered: 01/07/2021)

01/15/2021

137 TRANSCRIPT REQUEST by Childrens Health Defense, Jane Boe, Sr, Jane Coe, Sr, Jane
Doe, Jane Goe, Sr, Jane Joe, Jane Loe, John Coe, Sr, John Foe, Sr for proceedings held on
10/15/2020 before Judge Sannes.. (Sussman, Michael) (Entered: 01/15/2021)

APPENDIX C

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 1 of 20

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
______________________________________________________________
JANE DOE on behalf of herself and her minor child; JANE BOE, Sr.
on behalf of herself and her minor child; JOHN COE, Sr. and JANE
COE, Sr. on behalf of themselves and their minor children; JOHN
FOE, Sr. on behalf of himself and his minor child; JANE GOE, Sr. on
behalf of herself and her minor child; JANE LOE on behalf of herself
and her medically fragile child; JANE JOE on behalf of herself and her
medically fragile child; CHILDRENS HEALTH DEFENSE, and all
others similarly situated,
Plaintiffs,
v.
HOWARD ZUCKER, in his official capacity as Commissioner of
Health for the State of New York; ELIZABETH RAUSCH-PHUNG,
M.D., in her official capacity as Director of the Bureau of
Immunizations at the New York State Department of Health; the NEW
YORK STATE DEPARTMENT OF HEALTH; THREE VILLAGE
CENTRAL SCHOOL DISTRICT; CHERYL PEDISICH, acting in her
official capacity as Superintendent, Three Village Central School
District; CORINNE KEANE, acting in her official capacity as Principal
Paul J. Gelinas Jr. High School, Three Village Central School District;
LANSING CENTRAL SCHOOL DISTRICT; CHRIS
PETTOGRASSO, acting in her official capacity as Superintendent,
Lansing Central School District; CHRISTINE REBERA, acting in her
official capacity as Principal, Lansing Middle School, Lansing Central
School District; LORRI WHITEMAN, acting in her official capacity as
Principal, Lansing Elementary School, Lansing Central School District;
PENFIELD CENTRAL SCHOOL DISTRICT; DR. THOMAS
PUTNAM, acting in his official capacity as Superintendent, Penfield
Central School District; SOUTH HUNTINGTON SCHOOL
DISTRICT; DR. DAVID P. BENNARDO, acting in his official
capacity as Superintendent, South Huntington School District; BR.
DAVID MIGLIORINO, acting in his official capacity as Principal, St.
Anthony’s High School, South Huntington School District; ITHACA
CITY SCHOOL DISTRICT; DR. LUVELLE BROWN, acting in his
official capacity as Superintendent, Ithaca City School District;
SUSAN ESCHBACH, acting in her official capacity as Principal,
Beverly J. Martin Elementary School, Ithaca City School District;
SHENENDEHOWA CENTRAL SCHOOL DISTRICT; DR L.
OLIVER ROBINSON, acting in his official capacity as Superintendent,
Shenedehowa Central School District; SEAN GNAT, acting in his
official capacity as Principal, Koda Middle School, Shenendehowa

1:20-cv-840 (BKS/CFH)

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 2 of 20

Central School District; ANDREW HILLS, acting in his official
capacity as Principal, Arongen Elementary School, Shenendehowa
Central School District; COXSACKIE-ATHENS SCHOOL
DISTRICT; RANDALL SQUIER, Superintendent, acting in his official
capacity as Superintendent, Coxsackie-Athens School District; FREYA
MERCER, acting in her official capacity as Principal, Coxsackie
Athens High School, Coxsackie-Athens School District; ALBANY
CITY SCHOOL DISTRICT; KAWEEDA G. ADAMS, acting in her
official capacity as Superintendent, Albany City School District;
MICHAEL PAOLINO, acting in his official capacity as Principal,
William S. Hackett Middle School, Albany City School District; and all
others similarly situated,
Defendants.
______________________________________________________________
Appearances:
For Plaintiffs:
Sujata S. Gibson
The Gibson Law Firm, PLLC
407 N. Cayuga Street, Suite 201
Ithaca, NY 14850
Michael Sussman
Sussman & Associates
1 Railroad Ave, Suite 3, P.O. Box 1005
Goshen, NY 10924
For Defendants New York State Department of Health, Zucker, and Rausch-Phung:
Letitia James
Attorney General of the State of New York
Michael G. McCartin
Assistant Attorney General
Andrew W. Koster
Assistant Attorney General
The Capitol
Albany, New York 12224
For Defendants Albany City School District, Adams, Paolino; Three Village Central School
District, Pedisich, Keane; South Huntington Central School District, Bernnardo; and Ithaca City
School District, Brown and Eschbach:
Gregg T. Johnson
Loraine C. Jelinek
Johnson & Laws, LLC
646 Plank Road, Suite 205
Clifton Park, NY 12065
2

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 3 of 20

Adam I. Kleinberg
Sokoloff Stern LLP
179 Westbury Ave.
Carle Place, NY 11514
For Defendants Coxsackie-Athens School District, Squire, Mercer; Shenendehowa Central
School District, Robinson, Gnat, Hills; Penfield Central School District, Putnam; Lansing
Central School District, Pettograsso, Rebera, and Whiteman:
James G. Ryan
Cullen and Dykman LLP
100 Quentin Roosevelt Boulevard
Garden City, NY 11530
For Defendant Br. David Anthony Migliorino:
Joseph Kim
Elaine Nancy Chou
Biedermann Hoenig Semprevivo a Professional Corporation
One Grand Central Place
60 East 42nd Street, 36th Floor
New York, NY 10165
Hon. Brenda K. Sannes, United States District Judge:
MEMORANDUM-DECISION AND ORDER
I.

INTRODUCTION
On July 23, 2020, Plaintiffs, on behalf of their minor children, filed this proposed class

action under 42 U.S.C. § 1983 challenging the constitutionality of New York’s allegedly
burdensome medical exemptions to mandatory school immunization requirements. (Dkt. No. 1).
Plaintiffs allege that Defendants, including the New York State Department of Health (“DOH”),
New York Commissioner of Health Howard Zucker, DOH Director of the Bureau of
Immunizations Elizabeth Rausch-Phung, M.D., eight school districts and their administrators,
and Principal of St. Anthony’s High School Br. David Anthony Migliorino, have violated their
Fourteenth Amendment substantive due process rights, liberty interest in parenting and informed
consent, and right to free public education, as well as § 504 of the Rehabilitation Act of 1973, 29
U.S.C. § 794(a). (Id.). On August 25, 2020, Plaintiffs filed a motion for a temporary restraining
3

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 4 of 20

order and preliminary injunction under Federal Rule of Civil Procedure 65, seeking an order
restraining the implementation and enforcement of the applicable regulations.1 (Dkt. No. 41).
Defendants oppose Plaintiffs’ motion. (Dkt. Nos. 61–66, 81–82). The Court held oral argument
on October 15, 2020. Having carefully considered the parties’ submissions and oral argument,
the Court denies Plaintiffs’ motion. The following constitutes the Court’s findings of fact and
conclusions of law in accordance with Rule 52(a)(2).
II.

FINDINGS OF FACT2
A.

New York School Vaccination Laws

New York Public Health Law § 2164 (the “school vaccination law”) requires children
aged two months to eighteen years to be immunized from certain diseases before they can attend
“any public, private or parochial . . . kindergarten, elementary, intermediate or secondary
school.” N.Y. Pub. Health Law § 2164(1)(a). The school vaccination law requires children to be
immunized against poliomyelitis, mumps, measles, diphtheria, rubella, varicella, hepatitis B,
pertussis, tetanus, and where applicable, Haemophilus influenzae type b (Hib), meningococcal
disease, and pneumococcal disease. N.Y. Pub. Health Law § 2164(7). A child may not attend
school in excess of fourteen days without documentation showing that the child was immunized
or in the process of complying with the immunization series. N.Y. Pub. Health Law § 2164(7);
10 N.Y.C.R.R. § 66-1.3(a), (b).

1

Following a telephone conference on August 26, 2020, the Court issued an Order to Show Cause denying Plaintiffs’
motion for a temporary restraining order but directing expedited briefing on their motion for a preliminary injunction.
(Dkt. No. 46).
2

The facts are taken from the affidavits and attached exhibits submitted in support of, and opposition to, this motion.
See J.S.R. ex rel. J.S.G. v. Sessions, 330 F. Supp. 3d 731, 738 (D. Conn. 2018) (“In deciding a motion for preliminary
injunction, a court may consider the entire record including affidavits and other hearsay evidence.”); Fisher v. Goord,
981 F. Supp. 140, 173 n.38 (W.D.N.Y. 1997) (noting that a “court has discretion on a preliminary injunction motion
to consider affidavits as well as live testimony, given the necessity of a prompt decision”). The “findings are
provisional in the sense that they are not binding on a motion for summary judgment or at trial and are subject to
change as the litigation progresses.” trueEX, LLC v. MarkitSERV Ltd., 266 F. Supp. 3d 705, 721 (S.D.N.Y. 2017);
accord Fair Hous. in Huntington Comm. Inc. v. Town of Huntington, 316 F.3d 357, 364 (2d Cir. 2003).

4

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 5 of 20

The school vaccination law initially contained two exemptions to the vaccination
requirements: a medical exemption requiring a physician’s certification that the physician had
determined that the vaccination may be detrimental to the child’s health, N.Y. Pub. Health Law §
2164(8), and a non-medical exemption that required a statement by the parent or guardian
indicating that they objected to vaccination on religious grounds, N.Y. Pub. Health Law §
2164(9), repealed by L.2019, c. 35, § 1, eff. June 13, 2019. In 2019, the New York Legislature
repealed the religious exemption after finding that “[o]utbreaks in New York have been the
primary driver” of the United States’ “worst outbreak of measles since 1994,” with 810 of the
880 cases confirmed nationwide in 2019. (Dkt. No. 28-3, at 6 (Sponsor Memo, S2994A)). The
Legislature further found that:
According to the Centers for Disease Control, sustaining a high
vaccination rate among school children is vital to the prevention of
disease outbreaks, including the reestablishment of diseases that
have been largely eradicated in the United States, such as measles.
According to State data from 2013-2014, there are at least 285
schools in New York with an immunization rate below 85%,
including 170 schools below 70%, far below the CDC’s goal of at
least a 95% vaccination rate to maintain herd immunity. This bill
would repeal exemptions currently found in the law for children
whose parents have non-medical objections to immunizations.
2019 New York Assembly Bill No. 2371, New York Two Hundred Forty-Second Legislative
Session (May 22, 2019).
On August 16, 2019, following the repeal of the religious exemption, the New York
Commissioner of Health issued “emergency regulations,” amending the regulations governing
the school vaccination law “to conform to recent amendments to Section[] 2164” and to “make
the regulations consistent with national immunization recommendations and guidelines.” (Dkt.
No. 61, ¶ 6; Dkt. No. 61-1, at 1 (Summary of Express Terms of Emergency Regulations Aug. 16,

5

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 6 of 20

2019 (“Summary”))).3 The Summary noted that when California removed non-medical
exemptions to school immunization requirements in 2015 “without taking steps to strengthen the
rules governing medical exemptions,” the use of medical exemptions to school immunization
requirements more than tripled. (Dkt. No. 61-1, at 16). The Summary further noted that “[b]y
providing clear, evidence-based guidance to physicians, th[e] emergency regulation will help
prevent medical exemptions being issued for non-medical reasons.” (Id. at 16–17).
These emergency regulations were renewed, effective November 14, 2019, and after a
public comment period, permanently adopted as of December 31, 2019. (Dkt. No. 61, ¶ 7).
Specifically, the Commissioner added a new subdivision defining “may be detrimental to the
child’s health,” as used in § 2164 of the school vaccination law, to mean “that a physician has
determined that a medical contraindication or precaution to a specific immunization consistent
with ACIP [the CDC Advisory Committee on Immunization Practices] guidance or other
nationally recognized evidence-based standard of care.” 10 N.Y.C.R.R. § 66-1.1(l); (Dkt. No.
61-1, at 2). The amendments also required “the use of exemption forms approved by the New
York State Department of Health” and no longer allowed “a written statement from a physician.”
(Dkt. No. 61-1, at 2); 10 N.Y.C.R.R. § 66-1.3(c). Subdivision (c) of 10 N.Y.C.R.R. § 66-1.3, was
otherwise unchanged, however, and continued (i) to require that the “physician certifying that
immunization may be detrimental to the child’s health, contain[] sufficient information to
identify a medical contraindication to a specific immunization and specify the length of time the
immunization is medically contraindicated,” (ii) to require that the medical exemption “be

3

The school vaccination law authorizes the Commissioner of Health to “adopt and amend rules and regulations to
effectuate the provisions and purposes of [§ 2164].” N.Y. Pub. Health Law § 2164(10). The Commissioner is also
required, under the Public Health Law, to “establish and operate such adult and child immunization programs as are
necessary to prevent or minimize the spread of disease and to protect the public health,” and is authorized to
“promulgate such regulations” governing vaccinations. N.Y. Pub. Health Law § 206(1)(l).

6

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 7 of 20

reissued annually,” and (iii) to provide that “[t]he principal or person in charge of the school may
require additional information supporting the exemption.” Compare 10 N.Y.C.R.R. § 66-1.3(c),
with 2014 N.Y. Reg. Text 336024 (NS) (Notices of Adoption 10 N.Y.C.R.R. § 66-1.3).
B.

Plaintiffs

Plaintiffs include at least seven families4 with children who applied to the Defendant
school districts for “medical exemptions” to vaccinations for the 2019–2020 school year. (Dkt.
No. 41-12, ¶ 8; Dkt. No. 41-13, ¶ 9; Dkt. No. 41-14, ¶ 9; Dkt. No. 41-15, ¶ 8; Dkt. No. 62-1, at
34; Dkt. No. 41-17, ¶ 10; Dkt. No. 1, ¶ 187). Plaintiffs sought exemptions “from one or more
mandatory immunization requirement for school attendance in New York State based on the
advice of their treating physicians that such immunization poses unacceptable risks to their
children’s health.” (Dkt. No. 11, ¶ 41). The medical exemptions were denied and the Plaintiff
children have been excluded from school since the 2019–2020 school year—in some cases, since
September 2019. (Dkt. No. 41-17, ¶ 13 (Loe last day of school in September 2019); Dkt. No. 4112, ¶ 23 (Doe last day of school in October 2019); Dkt. No. 41-13, ¶ 8 (Boe last day of school in
December 2019); Dkt. No. 57, ¶ 8 (Coe last day of school in January 2020); Dkt. No. 41-15, ¶ 12
(Foe last day of school in September 2019); Dkt. No. 58, at 3 (Goe graduated in 2020); Dkt. No.
41-16, ¶ 10 (Joe last day of school in November 2019)).
III.

STANDARD OF REVIEW
Rule 65 of the Federal Rules of Civil Procedure governs preliminary injunctions. A party

seeking a preliminary injunction must establish that: (1) it is likely to suffer irreparable harm in
the absence of preliminary relief; (2) either (a) it is likely to succeed on the merits, or (b) there

4
The Complaint names seven families in the caption, but discusses an eighth family, the Koe family, in the body of
the Complaint. (Dkt. No. 1, at 37).

7

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 8 of 20

are sufficiently serious questions going to the merits of its claims to make them fair ground for
litigation; (3) the balance of hardships tips decidedly in its favor; and (4) a preliminary injunction
is in the public interest. Oneida Nation of N.Y. v. Cuomo, 645 F.3d 154, 164 (2d Cir. 2011);
accord N. Am. Soccer League, LLC v. U.S. Soccer Fed’n, Inc., 883 F.3d 32, 37 (2d Cir. 2018).
However, “[w]hen, as here, the moving party seeks a preliminary injunction that will affect
government action taken in the public interest pursuant to a statutory or regulatory scheme, the
injunction should be granted only if the moving party meets the more rigorous likelihood of
success standard.” Donohue v. Mangano, 886 F. Supp. 2d 126, 149 (N.D.N.Y. 2012) (quoting
Metro. Taxicab Bd. of Trade v. City of New York, 615 F.3d 152, 156 (2d Cir. 2010)); see also
Ass’n of Jewish Camp Operators v. Cuomo, No. 20-cv-687, 2020 WL 3766496, at *6, 2020 U.S.
Dist. LEXIS 117765, at *12 (N.D.N.Y. July 6, 2020).5
IV.

ANALYSIS
A.

Irreparable Harm

A showing of irreparable harm is “the single most important prerequisite for the issuance
of a preliminary injunction.” Faiveley Transp. Malmo AB v. Wabtec Corp., 559 F.3d 110, 118
(2d Cir. 2009) (quoting Rodriguez v. DeBuono, 175 F.3d 227, 234 (2d Cir. 1999)). “Irreparable
harm is ‘injury that is neither remote nor speculative, but actual and imminent and that cannot be
remedied by an award of monetary damages.’” New York ex rel. Schneiderman v. Actavis PLC,

5
The parties dispute whether the injunction sought is a prohibitory injunction, which preserves the status quo, or a
mandatory injunction, which changes the status quo and is subject to a heightened standard. See N. Am. Soccer League,
LLC, 883 F.3d at 37. The “status quo . . . is, ‘the last actual, peaceable uncontested status which preceded the pending
controversy.’” Id. (quoting Mastrio v. Sebelius, 768 F.3d 116, 120 (2d Cir. 2014)). Although Plaintiffs assert that they
are seeking to preserve the status quo—“adherence to the plain language of N.Y. Public Health Law 2164(8), without
the additional burdens the state defendants’ new regulations [contained in NYCRR § 66-1] imposed” in 2019, some
of the regulatory provisions Plaintiffs seek to enjoin have been in effect since 2014 and Plaintiffs also seek an order
directing the Defendants to provide notice that similarly situated children may attend school. (Dkt. No. 41-1, at 15,
31). In any event, since Plaintiffs fail to meet the likelihood of success standard, the Court need not decide whether a
heightened standard applies.

8

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 9 of 20

787 F.3d 638, 660 (2d Cir. 2015) (quoting Forest City Daly Hous., Inc. v. Town of North
Hempstead, 175 F.3d 144, 153 (2d Cir. 1999)). “The relevant harm is the harm that (a) occurs to
the parties’ legal interests and (b) cannot be remedied after a final adjudication, whether by
damages or a permanent injunction.” Salinger v. Colting, 607 F.3d 68, 81 (2d Cir. 2010) (internal
footnote omitted).
“[C]ourts considering this issue routinely assume that a child prevented from attending
school would suffer irreparable harm” and, accordingly, find that the child’s application “turns
on [the] likelihood of success on the merits.” Check ex rel. MC v. New York City Dep’t of Educ.,
No. 13-cv-791, 2013 WL 2181045, at *9, 2013 U.S. Dist. LEXIS 71223, at *16 (E.D.N.Y. Mar.
22, 2013) (citing Lewis v. Sobol, 710 F. Supp. 506, 507 (S.D.N.Y. 1989) (noting that “it was
clear that [plaintiff’s daughter] would suffer irreparable harm if barred from attending school”),
report & recommendation adopted, 2013 WL 2181045, 2013 U.S. Dist. LEXIS 71124 (E.D.N.Y.
May 20, 2013); Caviezel v. Great Neck Pub. Sch., 701 F. Supp. 2d 414, 426 (E.D.N.Y. 2010)
(“[The Court] is satisfied that there would be irreparable harm to this child entering school after
[the start of the school year].”), aff’d 500 F. App’x 16 (2d Cir. 2012). Thus, the exclusion of
Plaintiffs’ minor children from school supports a strong showing of irreparable harm.6

6

Defendants argue that even assuming Plaintiffs can establish irreparable harm, their delay in seeking an injunction
undermines any assertion of irreparable harm. (Dkt. No. 61-24). “Preliminary injunctions are generally granted under
the theory that there is an urgent need for speedy action to protect the plaintiffs’ rights. Delay in seeking enforcement
of those rights, however, tends to indicate at least a reduced need for such drastic, speedy action.” Citibank N.A. v.
Citytrust, 756 F.2d 273, 276 (2d Cir. 1985). The Second Circuit has explained that a party’s “failure to act sooner
‘undercuts the sense of urgency that ordinarily accompanies a motion for preliminary relief and suggests that there is,
in fact, no irreparable injury.’” Id. at 277 (quoting Le Sportsac, Inc. v. Dockside Rsch., Inc., 478 F. Supp. 602, 609
(S.D.N.Y. 1979)). Here, the regulation providing the impetus for this action—10 N.Y.C.R.R. 66-1-1.1(l)—has been
in effect since August 2019, (Dkt. No. 61-1), and the minor Plaintiffs had been excluded from school for at least six
months, and many for longer, before filing this action. (See, e.g., Dkt. No. 1 (Complaint filed July 23, 2020); Dkt. No.
41-13, ¶ 8 (Boe excluded since December 2019); Dkt. No. 41-12, ¶ 23 (Doe excluded since October 2019)). Plaintiffs
argue that the delay in this case, which involves multiple plaintiffs and a proposed class action complaint, should not
undercut a finding of irreparable injury. Because Plaintiffs fail to establish likelihood of success, the Court need not
consider whether a delay in seeking relief would undermine Plaintiffs’ irreparable harm contention.

9

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 10 of 20

B.

Likelihood of Success

Plaintiffs argue that the new regulations are “overbroad” and “unduly burden
fundamental rights and the ability of medically fragile children to obtain a medical exemption.”7
(Dkt. No. 41-1, at 18). In their briefing on this motion Plaintiffs have not advanced any “as
applied” arguments regarding the circumstances of the Defendant school district’s respective
denials of their requests for a medical exemption. Plaintiffs advance a facial challenge to the
regulations. (Dkt. No. 41-1, at 31). They seek a stay of the “new regulations,” codified in 10
N.Y.C.R.R. § 66-1, an injunction prohibiting Defendants from “excluding children from school
due to a lack of immunization if that child has presented a certification from a licensed physician
advising against such immunization,” and an order directing Defendants “to provide notice to
schools, districts, and families that Plaintiffs and similarly situated children may attend school.”
(Dkt. No. 41-1, at 31).
“[T]o succeed on a facial challenge, the challenger must establish that no set of
circumstances exists under which the [regulation] would be valid.” Jacoby & Meyers, LLP v.
Presiding Justices of the First, Second, Third & Fourth Dep’ts, Appellate Div. of the Supreme
Court of New York, 852 F.3d 178, 184 (2d Cir. 2017) (quoting N.Y.S. Rifle & Pistol Ass’n, Inc. v.
Cuomo, 804 F.3d 242, 265 (2d Cir. 2015)). “As a result, a facial challenge to a legislative
enactment is the most difficult challenge to mount successfully.” Id. (quoting N.Y.S. Rifle &
Pistol Ass’n, 849 F.3d at 265). Here, Plaintiffs claim that the regulations violate their Fourteenth

7

At oral argument, Plaintiffs argued that the medical exemption regulations posed an “unconstitutional condition” on
the benefit of a public or private education. “[T]he unconstitutional conditions doctrine . . . vindicates the
Constitution’s enumerated rights by preventing the government from coercing people into giving them up.” Koontz v.
St. Johns River Water Mgmt. Dist., 570 U.S. 595, 604 (2013). As Plaintiffs raised this argument at oral argument and
have not provided any authority for considering this doctrine in the context of this case, the Court does not consider
it.

10

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 11 of 20

Amendment substantive due process rights, liberty interest in parenting, liberty interest in
informed consent, and right to a free public education.8 (Dkt. No. 1; Dkt. No. 41-1).
Plaintiffs are unlikely to succeed on their claim that the challenged regulations violate the
Fourteenth Amendment. In Jacobson v. Massachusetts, the Supreme Court explained that “the
liberty secured by the Constitution of the United States to every person within its jurisdiction
does not import an absolute right in each person to be, at all times and in all circumstances,
wholly freed from restraint.” 197 U.S. 11, 26 (1905). “There are manifold restraints to which
every person is necessarily subject for the common good.” Id. “The possession and enjoyment of
all rights are subject to such reasonable conditions as may be deemed by the governing authority
of the country essential to the safety, health, peace, good order, and morals of the community.”
Id. (quoting Crowley v. Christensen, 137 U.S. 86, 89 (1890)).
It is well-settled, as Plaintiffs acknowledge, (Dkt. No. 41-1, at 18), that New York’s
mandatory school vaccination law does not violate substantive due process. See Phillips v. City
of New York, 775 F.3d 538, 542 (2d Cir. 2015) (rejecting the plaintiffs’ argument that “New
York’s mandatory vaccination requirement” for school children violates substantive due process,
explaining that “[t]his argument is foreclosed by the Supreme Court’s decision in Jacobson v.
Commonwealth of Massachusetts”). In this case, Plaintiffs do not challenge the school
vaccination law itself. Plaintiffs challenge the regulations defining “may be detrimental to a

8

To be clear about the grounds on which Plaintiffs seek injunctive relief, the Court notes the following: first, although
Plaintiffs’ Complaint alleges a violation of the right to free public education, they also challenge the application of the
regulations to private schools, (Dkt. No. 1, at 39–44, 69–70). See N.Y. Pub. Health Law § 2164(1)(a) (requiring
enumerated vaccinations before a child can attend “any public, private or parochial . . . kindergarten, elementary,
intermediate or secondary school”).
Second, Plaintiffs’ motion for preliminary injunctive relief is based upon their constitutional challenges, not the
Rehabilitation Act claims alleged in the Complaint.
Third, while Plaintiffs argue in terms of “informed consent” in the Complaint, (Dkt. No. 1, at 69), in their motion
papers they articulate this as the parental right “to make critical health decisions” (Dkt. No. 89, at 22), and to “exercise
the right of informed consent on behalf of their minor children.” (Dkt. No. 41-1, at 20).

11

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 12 of 20

child’s health” and giving school districts the authority to reject, or require additional
documentation supporting, a doctor’s medical exemption statement (“the medical exemption
regulations”) as violative of their Fourteenth Amendment rights. (Dkt. No. 41-1, at 16).
It is equally well-settled, however, that a state may establish regulations implementing
mandatory vaccine laws and vesting local officials with enforcement authority. Jacobson, 197
U.S. at 25 (observing that “[i]t is equally true that the state may invest local bodies called into
existence for purposes of local administration with authority in some appropriate way to
safeguard the public health and the public safety”); see also Zucht v. King, 260 U.S. 174, 176
(1922) (explaining that Jacobson and other cases, have “settled that a state may, consistently
with the federal Constitution, delegate to a municipality authority to determine under what
conditions health regulations shall become operative” and that “the municipality may vest in its
officials broad discretion in matters affecting the application and enforcement of a health law”
(citing Laurel Hill Cemetery v. San Francisco, 216 U.S. 358 (1910); Lieberman v. Van de Carr,
199 U.S. 552 (1902)).
In Jacobson, the Supreme Court instructed that a court must not invalidate such a law or
regulation unless it lacks a “real or substantial relation [to public health]” or is “beyond all
question, a plain, palpable invasion of rights[.]” 197 U.S. at 31. The Supreme Court further
observed that there may be incidences where “the police power of a state, whether exercised
directly by the legislature, or by a local body acting under its authority, may be exerted in such
circumstances, or by regulations so arbitrary and oppressive in particular cases, as to justify the
interference of the courts to prevent wrong and oppression.” Id. at 38. The Court noted that the
judiciary could interfere, for example, in an “extreme case” of an individual who was not “a fit
subject of vaccination” or for whom “vaccination by reason of his then condition, would

12

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 13 of 20

seriously impair him health, or probably cause his death,” “to protect the health and life of the
individual concerned.” Id. at 38–39.
The parties dispute how Jacobson applies here. Plaintiffs argue that strict scrutiny is
warranted because the medical exemption regulations burden their fundamental rights, including
their right to substantive due process, their liberty interest in parenting, their right to refuse
unwanted medical procedures, and their right to a public education. (Dkt. No. 41-1, at 16).9
Defendants respond that “the correct test to apply is undeniably” the “test of Jacobson and
Zucht,” which Defendants characterize as a rational basis test. (Dkt. No. 61-24, at 14). The Court
notes that the Jacobson framework has been “nearly uniformly relied on” to analyze
constitutional challenges to “emergency public health measures put in place to curb the spread of
coronavirus.” Page v. Cuomo, No. 20-cv-732, 2020 WL 4589329, at *8, 2020 U.S. Dist. LEXIS
183769, at *19 (N.D.N.Y. Aug. 11, 2020), and that Plaintiffs have not cited any support for the
application of strict scrutiny to school immunization regulations. See Phillips, 775 F.3d at 542
n.5 (noting that “no court appears ever to have held” that “Jacobson requires that strict scrutiny
be applied to immunization mandates”).
In any event, whether the Court applies the Jacobson framework or the traditional
constitutional analysis for state action alleged to burden constitutional rights, Plaintiffs have not
shown a likelihood of success. State action that infringes upon a fundamental right is ordinarily
analyzed under the test of strict scrutiny. See, e.g., Leebaert v. Harrington, 332 F.3d 134, 140
(2d Cir. 2003) (observing that “[w]here the right infringed is fundamental, strict scrutiny is
applied to the challenged governmental regulation” ). Under that test, the challenged action

9
Plaintiffs have also argued that the regulations burden their fundamental constitutional right to a medical exemption,
but have not cited any support for such a right. See infra note 11.

13

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 14 of 20

“must be narrowly tailored to promote a compelling Government interest,” and “must use the
least restrictive means to achieve its ends.” Evergreen Ass’n, Inc. v. City of New York, 740 F.3d
233, 246 (2d Cir. 2014) (citation omitted). Under Jacobson, the Court considers whether the
regulations lack a “real or substantial relation” to the public health and public safety, whether the
regulations are “beyond all question, a plain palpable invasion of rights secured by fundamental
law” and whether the regulations are so arbitrary and oppressive as to warrant judicial
interference. 197 U.S. at 31–39.
The right and liberty interest in parenting and the right to refuse unwanted medical
procedures are fundamental rights. Troxel v. Granville, 530 U.S. 57, 66 (2000) (“[I]t cannot now
be doubted that the Due Process Clause of the Fourteenth Amendment protects the fundamental
right of parents to make decisions concerning the care, custody, and control of their children.”);
Cruzan v. Dir., Missouri Dep’t of Health, 497 U.S. 261, 278 (1990) (finding a “constitutionally
protected liberty interest in refusing unwanted medical treatment”). Plaintiffs, however, are
unlikely to succeed in showing that the medical exemption regulations directly infringe on either
of these fundamental rights, as they do not force parents to consent to vaccination of their
children. Rather, the regulations condition children’s right to attend school on vaccination. Thus,
the right that is being burdened is the right to attend school at a public or private institution
instead of being homeschooled. And, the Second Circuit has made clear, “[t]he right to public
education is not fundamental.” Bryant v. N.Y.S. Educ. Dep’t, 692 F.3d 202, 217 (2d Cir. 2012).10
Thus, education regulations that have an incidental effect of burdening parental rights or
right to refuse medical care, have been upheld following rational basis review. See Immediato,

10

For this reason, Plaintiffs’ claim that the regulations violate their Fourteenth Amendment right to a free public
education, (Dkt. No. 1, at 69–70), is unlikely to succeed. See Phillips, 775 F.3d at 542 n. 5 (noting that “[b]ecause
‘there is no substantive due process right to a public education’ plaintiffs’ substantive due process claim fails even
under” a strict scrutiny test (citing Bryant, 692 F.3d at 217)) (citation omitted).

14

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 15 of 20

73 F.3d at 462 (“[W]hile parents have definite rights over their children’s education, ‘they have
no constitutional right to provide their children with . . . education unfettered by reasonable
government regulation.” (emphasis in original) (quoting Runyon v. McCrary, 427 U.S. 160, 178
(1976))); see, e.g., Phillips, 775 F.3d at 543 (applying rational basis review to the plaintiffs’
argument that exclusion from school based on lack of vaccination burdened fundamental right of
free exercise of religion and explaining that “a law that is neutral and of general applicability
need not be justified by a compelling governmental interest even if the law has the incidental
effect of burdening a particular religious practice” (quoting Church of the Lukumi Babalu Aye,
Inc. v. City of Hialeah, 508 U.S. 520, 531 (1993)). Accordingly, even if the minor Plaintiffs were
unable to receive an education at a public or private institution because they cannot receive
vaccinations, the school vaccination law and its implementing regulations “would still comport
with due process if [they were] reasonably related to a legitimate government objective.” Bryant,
692 F.3d at 218.11 Thus, to succeed, Plaintiffs must show that the medical exemption regulations
lack a “real or substantial relation” to the public health and public safety or are arbitrary and
oppressive. Jacobson, 197 U.S. at 38.

11

Citing, inter alia, Planned Parenthood of Southeastern Pennsylvania v. Casey, 505 U.S. 833, 895 (1992), and
Stenberg v. Carhart, 530 U.S. 914, 937 (2000), Plaintiffs argue that “[m]edical exemption cases in the abortion context
are illustrative of how courts should scrutinize medical exemptions even more strictly than other important
fundamental rights” and that under Casey and Stenberg, the regulation’s narrow definition of what is “detrimental” to
a child’s health and reliance on ACIP guidance, 10 N.Y.C.R.R. § 66-1.1(l), instead of the “clinical judgment” of the
child’s treating physician, is unconstitutional. (Dkt. No. 89, at 15–16 (citing Stenberg, 530 U.S. at 937 (“Doctors often
differ in their estimation of comparative health risks and appropriate treatment. And Casey’s words ‘appropriate
medical judgment’ must embody the judicial need to tolerate responsible differences of medical opinion.”)). Plaintiffs,
however, fail to cite any caselaw applying the standards utilized in Casey and Stenberg, inter alia, concerning the right
recognized in Roe v. Wade, 410 U.S. 113 (1973), to cases where, as here, the right being burdened is not a fundamental
right. Further, unlike the medical exemption cases involving abortion, where the life or health of the mother is at stake,
if the medical exemption at issue here is denied the parent may forgo vaccination and elect to homeschool their child.
Plaintiffs argue this medical exemption caselaw has been applied outside of the abortion context, citing to Whalen v.
Roe, 429 U.S. 589 (1977). Specifically, Plaintiffs cite to the Supreme Court’s observation that the record-keeping law
at issue in Whalen did not condition a patient’s access to drugs “on the consent of any state official or other third
party.” 429 U.S. at 603. This passage does not support the Plaintiffs’ claim here, which is founded on an inability to
pursue an education, not state interference in medical care.

15

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 16 of 20

Plaintiffs argue that the new definition of “detrimental to the child’s health” arbitrarily
limits medical exemptions to children with medical contraindications or precautions that “fit[]
within the narrow confines” of ACIP guidance, and removes discretion from treating physicians
to determine whether or not their patient requires a medical exemption. (Dkt. No. 41-1, at 10
(citing 10 N.Y.C.R.R. § 66-1.1(l))). The regulations, however, are broader than Plaintiffs’
characterization; they allow exemptions for “medical contraindication or precaution to a specific
vaccination consistent with ACIP guidance or other nationally recognized evidence-based
standard of care.” 10 N.Y.C.R.R. § 66-1.1(l ) (emphasis added). In an affidavit, Elizabeth
Rausch-Phung, MD, MPH, the Director of the Bureau of Immunization for the New York State
Department of Health, explains that the definition was added to “conform the regulations with
current guidance from the U.S. Centers for Disease Control,” which “maintains immunization
schedules and guidelines for when immunization may be detrimental to a child’s health due to a
contraindication or a precaution to a specific immunization—a nationally recognized evidencebased standard of care.” (Dkt. No. 61, ¶ 12; Dkt. No. 61-4 (CDC contraindications and
precautions)). According to Dr. Rausch-Phung, “[t]he ACIP includes medical and public health
experts, including vaccine experts, scientists, doctors and public health professionals, who meet
3 times every year to discuss vaccine recommendations.” (Dkt. No. 61, ¶ 12). Further, during the
public comment period for the regulations, the “NYS American Academy of Pediatrics, the NYS
Academy of Family Physicians . . . the American Nurses’ Association, [and] the Medical Society
of the State of New York,” among others, “expressed support of the regulations.” (Dkt. No. 28-5,
at 31). Thus, the Court concludes that Plaintiffs are unlikely to succeed in showing that the
regulation’s definition of “detrimental to the child’s health” and reference to ACIP guidance or
“other nationally recognized evidence-based standard of care” as appropriate resources for a

16

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 17 of 20

determination of whether a medical exemption is warranted, lacks a “real or substantial relation”
to the public health and public safety or is arbitrary and oppressive.
Next, Plaintiffs argue that the regulations improperly give school principals the authority
to overrule the judgment of treating physicians and do not require the principals to consult
medical professionals. (Dkt. No. 41-1, at 11 (citing 10 N.Y.C.R.R. § 66-1.3(c) (“The principal or
person in charge of the school may require additional information supporting the
exemption.”)).12 Dr. Rausch-Phung acknowledged that while a principal or person in charge of
the school has the responsibility for making the determination at the outset, “schools have the
option of requesting that the Bureau of Immunization Medical Director consult on these
requests.” (Dkt. No. 61, ¶ 18). The State’s Medical Exemption Review Procedures advise that
“[i]n making a determination on a medical exemption request, the school should seek the
appropriate medical consultation (e.g., the school’s medical director).” (Dkt. No. 54-13, at 2). As
states may vest officials with broad discretion in matters of application of health laws, Plaintiffs
are unlikely to succeed in showing that it is irrational or arbitrary to assign review, at the first
level, to the principal of the school the child seeks to attend. See Zucht, 260 U.S. at 176
(explaining that “the municipality may vest in its officials broad discretion in matters affecting
the application and enforcement of a health law” (citing Lieberman, 199 U.S. 552)).
Plaintiffs further assert that the required medical exemption forms are burdensome. (Dkt.
No. 41-1, at 12 (citing 10 N.Y.C.R.R. § 66-1.3(c) (requiring submission of “[a] signed,
completed medical exemption form approved by the NYSDOH or NYC Department of
Education from a physician licensed to practice medicine in New York State certifying that

12

This provision has been in effect since 2014. Compare 10 N.Y.C.R.R. § 66-1.3(c), with 2014 N.Y. Reg. Text 336024
(NS) (Notices of Adoption 10 N.Y.C.R.R. § 66-1.3).

17

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 18 of 20

immunization may be detrimental to the child’s health, containing sufficient information to
identify a medical contraindication to a specific immunization and specifying the length of time
the immunization is medically contraindicated”)). The form Plaintiffs refer to, however, is a
“simple, one-page form,” that requires “the patient’s name, date of birth, address, school, . . . a
description of the patient’s contraindications/precautions to a specific vaccination, . . . the date
the medical exemption ends,” and a physician’s signature, medical license number, address, and
telephone number.” (Dkt. No. 61, ¶ 9; see, e.g., Dkt. No. 63-7, at 7). The information requested
in the form clearly relates to the grounds on which a medical exemption may be granted, and is
clearly intended to assist a school district determining whether a student should be granted such
an exemption. Thus, Plaintiffs are unlikely to be able to show that the required form lacks a
rational basis or is arbitrary.
Finally, Plaintiffs argue that the requirement that the medical exemption be “reissued”
annually is also burdensome, (Dkt. No. 41-1, at 13 (citing 10 N.Y.C.R.R. § 66-1.3 (c))). Dr.
Rausch-Phung explains that the regulatory amendments “did not change the pre-existing
requirement that the medical exemption must be reissued annually.” (Dkt. No. 61, ¶ 14). Indeed,
this provision has been in effect since 2014. Compare 10 N.Y.C.R.R. § 66-1.3(c), with 2014
N.Y. Reg. Text 336024 (NS) (Notices of Adoption 10 N.Y.C.R.R. § 66-1.3). Dr. Rausch-Phung
further explains that permanent exemptions were never “an option” because, “as indicated by the
CDC, ‘the majority of contraindications are temporary,’” and “may change over a child’s
lifetime” and “vaccines can often be administered when the contraindication no longer exists.”
(Dkt. No. 61, ¶ 14). Based on this explanation, Plaintiffs are unlikely to succeed in showing that
the annual medical-exemption requirement is irrational or arbitrary.

18

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 19 of 20

Thus, the Court concludes that the public health concerns in maintaining high
immunization rates for vaccine-preventable diseases and in avoiding outbreaks of communicable
diseases provide ample basis for the newly enacted regulations.13 And the regulations are not
“beyond all question a plain, palpable invasion of rights secured by the fundamental law,” or, on
their face, arbitrary and oppressive. Jacobson, 197 U.S. at 31. The Court does not here consider
whether Plaintiffs may be able to show that the regulations are “so arbitrary and oppressive” in a
particular case, so as to justify judicial interference, Jacobson, 197 U.S. at 38; it concludes only
that Plaintiffs failed to establish a likelihood of success on their facial challenge to the
regulations.14
C.

Balance of the Hardships

“[T]he balance of hardships inquiry asks which of the two parties would suffer most
grievously if the preliminary injunction motion were wrongly decided.” Goldman, Sachs & Co.
v. Golden Empire Schs. Fin. Auth., 922 F. Supp. 2d 435, 444 (S.D.N.Y. 2013) (alteration in
original) (quoting Tradescape.com v. Shivaram, 77 F. Supp. 2d 408, 411 (S.D.N.Y. 1999)). Even
assuming that Plaintiffs, being unable to send their children to school, have shown that the

13

To the extent Plaintiffs take issue with the specific vaccines required for school admission, (see, e.g., Dkt. No. 411 (arguing that “tetanus is not a contagious disease, meaning that vaccines offer only personal protection”), “that is a
determination for the legislature, not the individual objectors.” Phillips, 775 F.3d at 542.

14

Plaintiffs request an evidentiary hearing “to clarify the underlying facts of this case,” (Dkt. No. 68, at 7), including
to resolve particular factual disputes with respect to each named Plaintiff’s case, and to establish facts that show that,
in practice, the defendants apply the regulations more narrowly than they are written. (Id. at 8). However, Plaintiffs
seek to enjoin the regulations in toto. (Dkt. No. 41-1, at 7). Neither their briefing nor their requested relief contemplates
any “as-applied” challenge to the regulations. Thus, as discussed supra, the Court’s review is limited to the
constitutionality of the law and regulations, as written. As Plaintiffs have “not shown that an evidentiary hearing would
resolve any material factual issues,” Amaker v. Fischer, 453 F. App’x 59, 64 (2d Cir. 2011), the Court, in its discretion,
concludes that it may “dispose of the motion on the papers before it.” Maryland Cas. Co. v. Realty Advisory Bd. on
Labor Rels., 107 F.3d 979, 984 (2d Cir. 1997) (quoting Consol. Gold Fields PLC v. Minorco, S.A., 871 F.2d 252, 256
(2d Cir. 1989)); see Charette v. Town of Oyster Bay, 159 F.3d 749, 755 (2d Cir. 1998) (“An evidentiary hearing is not
required when the relevant facts either are not in dispute or have been clearly demonstrated at prior stages of the case,
or when the disputed facts are amenable to complete resolution on a paper record.”) (internal citations omitted).

19

Case 1:20-cv-00840-BKS-CFH Document 92 Filed 10/22/20 Page 20 of 20

balance of the hardships tips in Plaintiffs’ favor, without a showing of a likelihood of success on
the merits, this factor, alone, is insufficient to warrant injunctive relief.15
V.

CONCLUSION
For these reasons, it is hereby
ORDERED that Plaintiffs’ motion for a preliminary injunction (Dkt. No. 41) is

DENIED.
IT IS SO ORDERED.
Dated: October 22, 2020
Syracuse, New York

15

Since a preliminary injunction shall not issue in this case, the Court need not consider whether the issuance of an
injunction would harm the public interest. U.S. S.E.C. v. Citigroup Glob. Mkts. Inc., 673 F.3d 158, 163 n.1 (2d Cir.
2012) (“[W]hen a court orders injunctive relief, it should ensure that injunction does not cause harm to the public
interest.”).

20

APPENDIX D

Case 1:20-cv-00840-BKS-CFH Document 41-12 Filed 08/25/20 Page 1 of 5

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3
4

s

Civil Action No.: 1:20- CV - 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

8

HOWARD ZUCKER, et al.

9

DECLARATION OF JANE DOE IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10

11

I am the parent of a medically fragile child, John Doe, who was denied a medical

12

1.

13

exemption last year despite submitting certifications from two licensed physicians that he is at

14

serious risk of harm.

IS

2.

I am one of the named Plaintiffs in this suit and write this declaration in support of our

16

17

motion for temporary relief.
My son's diagnoses include: mitochondrial disorder, hypoglycemia, genetic mutations,

18

3.

19

environmentally induced porphyria, metabolic and hormonal imbalances, eczema, food and

20

environmental allergies, candida infection, amino acid disorder, heavy metal toxicity, and several

21

autoimmune disorders-including Pediatric Autoimmune Neurological Disorder Associated with

22
23

Streptococcus ("PANDAS"), Irritable Bowel Syndrome ("IBS"), thyroid disease, and Gluten-

24

Sensitive Enteropathy.

25

4. .

26

DECLARATION OF JANE DOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION - 1

27
28

His conditions are chronic, incurable and at times debilitating.

Case 1:20-cv-00840-BKS-CFH Document 41-12 Filed 08/25/20 Page 2 of 5

1

2

5.

When my child was four, we began seeing a specialist in Massachusetts known to help

3
4

children with PANDAS. Through years ofhard work and vigilant routines, he has begun to

s

stabilize and regain some measure of health and normalcy.

6

6.

7

critical to prevent regression of one or more of John's autoimmune diseases and in managing his

Avoiding triggers, including certain foods, chemicals, and immunizations, has been

8

disorders.
9
10

7.

Following the advice of multiple treating physicians, John has not received any

11

immunizations.

12

8.

13

On August 23, 2019, we submitted a medical exemption from our pediatrician, Dr. Peter

Forman ("Dr. Forman"), a licensed New York physician who has been John's primary care

14

physician for more than ten years. Dr. Forman included a supplemental letter from Dr.
IS
16

Papanicolaou ("Dr. Papanicolaou"), John's treating physician at the Massachusetts clinic he has

17

attended for eleven years.

18

9.

19

Both treating physicians have seen John regress into debilitating flare ups of his

underlying medical conditions when faced with immune triggers. Both doctors concurred that it

20

was unsafe for our son to receive any immunization given his multiple chronic and serious
21
22

conditions and the risk that immunization could trigger a regression.
On September 16,2019, the school denied the medical exemption based on the opinion of

23

10.

24

Dr. Stephen G. Hassett ("Dr. Hassett"), an emergency medicine physician who acts as a paid

25
26
27

28

DECLARATION OF JANE DOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION- 2

Case 1:20-cv-00840-BKS-CFH Document 41-12 Filed 08/25/20 Page 3 of 5

2

consultant to the Coxsackie-Athens Central School District and upon information and belief, who
3
4

has no expertise in my son's conditions or even treating children.
Dr. Hassett recommended denying the exemption based on his opinion that the letters did

5

11.

6

not specify how the exemption request qualified under the ACIP contraindications or precautions.

7

12.

Before overriding John's treating physicians' recommendations, Dr. Hassett never

8

examined John, called either of his treating physicians, or reviewed any of his records other than
9
10

the exemption form and accompanying letters. When I asked if he would please speak to John's

11

treating providers, he said he would not call them.

12

13.

13

After the denial, Dr. Forman called Dr. Hassett anyway to explain why my son needs a

medical exemption. During this phone conversation, I am told Dr. Hassett indicated that he had

14

no discretion to hear any supplemental information or support for the exemption and was
15

16

obligated to follow the strict guidelines set forth by ACIP.
On Saturday, October 5, 2019, we submitted a second medical exemption letter in which

17

14.

18

Dr. Forman detailed for each vaccine how John's conditions qualified under the ACIP guidance

19

as a precaution or contraindication.

20

15.

Within twenty-four hours of receiving it, Dr. Hassett denied this second submission.

16.

When I called regarding the second denial, Dr. Hassett conceded that the exemption letter

21
22
23

submitted the second time followed the ACIP guidelines verbatim.

24

17.

25

26
27

28

Nonetheless, he said he would not "debate" with me or provide me with any explanation

about his denial and ended the call.
DECLARATION OF JANE DOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION - 3

Case 1:20-cv-00840-BKS-CFH Document 41-12 Filed 08/25/20 Page 4 of 5

1
2

18.

To remain in school without a medical exemption, 10 NYCRR § 66-1.1(±)(1) required

3
4

John to be vaccinated according to the ACIP Schedule for ages 18 years or younger.

s

19.

6

ten separate diseases within twelve months.

7

8

ACIP's "catch-up guidance" requires John to receive twenty-four doses of vaccines for

20.

John would have to receive nineteen of the twenty-four doses within a four-week timeline.

21.

No safety studies exist evidencing that injecting twenty-four doses of vaccine into the

9

10

body of a fifteen-year-old child (much less a medically fragile child) within twelve months is safe.

11

22.

12

John.

13

23.

We were not willing to risk our son's health and life this way so the school district expelled

John has been excluded from participation in classes, in person or online since October 7,

14

2019. Before his exclusion from school, John was a member of the varsity tennis team and was
15

16

looking forward to trying out for the varsity volleyball team. He was an active member of several

17

social clubs and was on track to earn a Regents diploma.

18

24.

19

allowed to take any further Regents exams or earn a traditional diploma, leave aside a Regent's

Now, in addition to being excluded from school, services and activities, John is not

20

diploma.
21
22

25.

The loss of school and related services and socialization has devastated John and harmed

23

him irreparably.

24

26.

25

Commissioner of Education on or about November 5, 2019. A member of the State Senate sent

26

DECLARATION OF JANE DOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION- 4

27
28

It has also been devastating for us. We had to hire an attorney to flle an appeal with the

Case 1:20-cv-00840-BKS-CFH Document 41-12 Filed 08/25/20 Page 5 of 5

2

correspondence to the Commissioner of Education supporting the appeal on or about December

3
4

20, 2019. This letter indicated that the New York State legislature did not intend for school

5

districts to have unilateral power to overrule treating physicians.

6

27.

7

communications and educations branch of CDC and ACIP. On March 24, 2020, he sent me an

During this process, I was in communication with the Andrew Kroger, M.D. from the

8

emailing confirming that CDC's position is that ACIP is not meant to define the allowable
9
10

medical exemptions.
As of the date we filed this lawsuit, I still hadn't received a response from the

11

28.

12

commissioner of education, and John remained unable to receive an education at any private or

13
14

public school or to participate in testing or activities.

29.

Three days after filing the complaint, a cursory denial from the Commissioner of

15

16

Education was issued which failed to even consider anything outside of a narrow interpretation

17

ofACIP.

18

RESPECTFULLY SUBMITTED this 20th day of August 2020

19

20
21

Jane Doe

22
23
24
25

26
27

28

DECLARATION OF JANE DOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION- 5

APPENDIX E

Case 1:20-cv-00840-BKS-CFH Document 41-13 Filed 08/25/20 Page 1 of 6

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

2
3

Civil Action No.: 1:20 - CV- 0840 (BKS/CFH)

JANE BOE, et al.

4

5
6
7

Plaintiffs,
vs.

HOWARD ZUCKER, et al.

DECLARATION OF JANE BOE IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

8

Defendants.
9
10

11
12

13

JANE BOE, pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:
1. I am the parent of a medically fragile child who has sought a medical exemption in the

14

15
16

Three Village Central School District in New York since August, 2019.
2. I write this affidavit in support of the Plaintiffs' motion for a preliminary injunction and

17
18

as a potential class member in this suit.

19

3. My child suffers from and is in current active treatment for autoimmune encephalitis,
20
21

22

Postural Orthostatic Tachycardia Syndrome ("POTS"), dysautonomia, and chronic/severe
Lyme disease and Bartonella..

23

24
25

4. These health issues cause a myriad of physical and neuropsychiatric symptoms including
26
27

but not limited to neuro-inflammation, obsessive compulsive disorder, separation anxiety,

28

depression, insomnia, neuro-visual processing disorder, brain fog, excessive fatigue, gasDECLARATION OF JANE BOE IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY INJUNCTION -1

Case 1:20-cv-00840-BKS-CFH Document 41-13 Filed 08/25/20 Page 2 of 6

tro intestinal issues, muscle tenderness, decrease in processing speed, and impaired
2

working memory. These symptoms must be managed carefully with all efforts made to

3
4

5

avoid exacerbations due to assaults to her immune systems.
5. Our family has been traumatized and severely impacted by this medical condition as all

6
7

of my children have suffered from it. My son, now age 20, was debilitated by neuro-psy-

8

chiatric symptoms and processing issues. Following his diagnosis he received several

9

years of intensive treatment to modulate his immune system and is now in remission.
10
11

Upon medical advise he DID NOT receive the meningococcal vaccination or booster in

12

secondary school as required by NYS. Unfortunately treatment was not as successful fo

13
14
15
16

my oldest son. He died tragically in 2018 at the age of 20 after experiencing severe
symptoms related to autoimmune encephalitis triggered by the meningococcal vaccine
(given against medical advice before freshman year of college), the flu vaccine and other

17
18
19

immune assaults.
6. Our medical providers concluded that my daughter should avoid vaccination or any im-

20

21

mune assaults due to her medical condition, her history, which included prior adverse re-

22

actions to vaccines, and our family history, particularly my oldest son's reaction to the

23

24

25

vaccine and subsequent demise,
7. In accordance with medical advice, my daughter did not receive the meningococcal vac-

26
27

cine as require by the NYS vaccine schedule ..

28

DECLARATION OF JANE BOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION -2

Case 1:20-cv-00840-BKS-CFH Document 41-13 Filed 08/25/20 Page 3 of 6

8. In December, 2019, my 15 year old daughter was excluded from high school because she
2

was denied a medical exemption for the meningococcal vaccine, which is the only vac-

3
4
5

cine on the NYS schedule that she is missing. She is otherwise fully vaccinated.
9. At the start of the 2019 school year, we submitted a medical exemption ("ME") written

6
7

by my daughter's pediatrician, a licensed physician who has treated her since infancy.

8

Her pediatrician, in consultation with our out of state specialist who treats my daughter's

9

complex medical condition, determined that the meningococcal vaccine would be detri10

11

mental to her health and the risks outweighed the benefits of said vaccine. The ME was

12

completed by her pediatrician on the require NYS form.

13

14
15

10. The form was submitted prior to the beginning of the school year. Upon receipt, he district physician who, after a brief discussion with the pediatrician, denied the ME. He in-

16

17
18
19

dicated that although he wouldn't give my daughter the vaccine either, the ME wording
was insufficient and he had to deny it. In response to this denial, her pediatrician submitted a more detailed ME with pertinent language related to the emergency regulations

20
21

that were issued by the DOH in August, 2019. The district physician quickly denied the

22

ME, but suggested it be sent to the Department of Health for their guidance before a for-

23

mal denial was issued by the district. The ME was submitted to the DOH and "pended"
24
25

26

for several weeks. Just prior to the Thanksgiving break, we were notified that the ME
was denied and my daughter would be excluded from school on December 21, 2019.

27
28
DECLARATION OF JANE BOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION -3

Case 1:20-cv-00840-BKS-CFH Document 41-13 Filed 08/25/20 Page 4 of 6

11. Upon exclusion we submitted another ME from a third physician with the hopes that the
2

ME would be accepted during the holiday break and she could return to school in Jan-

3
4

5
6

uary, 2020. This ME was immediately "denied" by the district physician and sent to the
DOH by the district. A formal decision would not be made until the DOH's opinion was
received. So the ME was left to "pend" for an unspecified amount of time.

7
8

12. I tried everything to expedite the DOH review of the ME so that my daughter could re-

9

tum to school. No one at the DOH would help facilitate a review. No one asked for ad10
11

ditional information or to speak with her treating physicians. There was no indication of

12

a timely review. We couldn't have her attend school while the ME "pended" because the

13
14
15
16

uncertainty was taking a toll on her mental health. We also couldn't risk her going back
to school in January, only to be excluded a few days or weeks later. She just couldn't
handle that type of humiliation.

17
18
19

13 .. My daughter had endured severe hardship and anxiety waiting an entire semester for a
determination to be made about her ME. She went to school every morning petrified that

20
21

the letter kicking her out of school would be hand delivered that afternoon. Her grades

22

started plummeting and she began withdrawing from activities and social functions. She

23

lived in a constant state of fear, grief, and disbelief. Things only got worse for her when
24
25

26

she found out over Thanksgiving break that she would be forced leave her beloved schoo
to homeschool for the remainder of the year.

27

28
DECLARATION OF JANE BOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION -4

Case 1:20-cv-00840-BKS-CFH Document 41-13 Filed 08/25/20 Page 5 of 6

14. On that last day of school in December, 2020, my daughter's heart was broken. She be2

gan homeschooling in January and it was isolating and depressing for her. Her grief,

3
4

5
6

now compounded by the loss of her academic and social life, exacerbated her symptoms
and left her alone and ostracized. The school's refusal to accept the ME in December wa
devastating. She felt rejected and betrayed by the school, wondering how they could

7
8

deny her a ME when her doctors believed she should be exempt. Since we were prohib-

9

ited from contacting or speaking with the district physician, we couldn't give her a good

10

reason as to why
11
12

15. This process has been an ordeal for our entire family. It has been coercive and exploitive.

13

14
15
16

We were forced to choose between our child's health and her right to a public education.
She was forced to homeschool, which has had a personal and financial toll on us. We
needed to supervise her all day, every day and needed to pay thousands of dollars for an

17
18

online high school program that would keep her academically on par.

19

16. My daughter belongs in her public high school. She belongs in an enriching academic
20
21

environment. She belongs in extra-curricular activities, socializing with her friends. She

22

belongs in a protected group of children who are medically exempt from getting a man-

23
24

25

dated vaccine that can cause major health consequences.
17. Wherefore, I respectfully ask this Court to grant the relief and let our children remain in

26
27

school pending the outcome of this case.

28
DECLARATION OF JANE BOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION -5

Case 1:20-cv-00840-BKS-CFH Document 41-13 Filed 08/25/20 Page 6 of 6

1

RESPECTFULLY SUBMITTED this 7th day of August, 2020

2
3

4
5
6

7
8
9

10

11
12

[Initials]
13

14
15
16
17

18
19
20

21

22
23
24
25
26
27
28

DECLARATION OF JANE BOE IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY INJUNCTION -6

APPENDIX F

Case 1:20-cv-00840-BKS-CFH Document 41-14 Filed 08/25/20 Page 1 of 5

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3

4
5

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

8

HOWARD ZUCKER, et al.

9

DECLARATION OF JOHN COE IN SUPPORT OF
PLAINTIFFS' MOTION FORA PRELIMINARY
INJUNCTION

Defendants.

10
11

I am one of the named Plaintiffs in this suit and write this declaration in support of our

12

1.

13

motion for temporary relief.

14

2.

15

When I was a child, I suffered a severe vaccine reaction but recovered. My mother was a

nurse and decided to keep vaccinating us ..

16

17

3.

My brother wasn't so lucky. He also suffered a severe reaction and died from the adverse

18

reaction at two months of age.

19

4.

20

compensated through the vaccine court after proving that his death was caused by the vaccines.

21

5.

My brother's death certificate shows that he died of a vaccine reaction. My parents were

Many other members of my family have also suffered serious reactions, including my

22

sister, my mother, and my cousin, who also died as an infant after administration of vaccines.
23

After my brother died and then my sister got a reaction, I had a medical exemption for the

24

6.

25

rest of my childhood.

26

DECLARATION OF JOHN COE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCT! ON - 1

27
28

Case 1:20-cv-00840-BKS-CFH Document 41-14 Filed 08/25/20 Page 2 of 5

2

7.

We've had genetic testing done and it shows our children carry gene mutations and other

3
4

genetic vulnerabilities that explain why there are so many serious vaccine reactions in our family.
My children also are medically fragile in other ways that show an increased likelihood of

5

8.

6

injury. Given our family history, the children's medical histories and genetic testing results and

7

on the advice of medical professionals, among other reasons, we have never vaccinated our

8

children.
9
10

9.

In August 2019, we submitted our medical exemption from a licensed physician to our

11

school district. Our children began attending school as always and we assumed it had been

12

accepted.

13

10. In addition to a family history of vaccine injury and death, there is a family history of

14

numerous autoimmune and other conditions consistent with the genetic profile ofthe children.
15
16

11. On January 21, 2020, without warning, we received an email attaching correspondence stating

17

that "the building principals" of our children's schools had rejected the medical exemptions

18

for both our children and that they would need to get fully up to date within a week or would

19

be removed from school.

20

12. The Superintendent noted that the school had received a recommendation from the NYSDOH
21

22

and by unspecified members of a "medical team" locally but asserted that the building

23

principals

each ultimately made the decision to reject the medical exemptions

24

"independently."

25
26
27

28

DECLARATION OF JOHN COE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION - 2

Case 1:20-cv-00840-BKS-CFH Document 41-14 Filed 08/25/20 Page 3 of 5

2

13. Attached to the letter from the school was a letter dated December 5, 2019 written by
3
4

5

Defendant Elizabeth Rausch-Phung, M.D., M.P.H., the Director of the Bureau of
Immunizations at the New York State Departme1,1t of Health.

6

14. Dr. Rausch-Phung stated that the adverse reactions of family members (including death) are

7

not contraindications for immunization under ACIP and concluded that "there is not sufficient

8

information included regarding the genetic testing performed to conclude that vaccines
9
10

required for school attendance would be contraindicated in a child with variations in the

11

reported SNPs. The specific source of the genetic tests, the results of these tests, and review

12

and recommendations of this child's genetic findings by a medical genetics specialist would

13

be needed to determine if these results preclude this student from being vaccinated."

14

15. Before rejecting the medical exemption, neither the school district nor Dr. Rausch-Phung
15

16
17
18
19

contacted us or our doctor seeking any further information or requested to consult with the
treating physician or geneticist.
16. On January 27, 2020, we submitted a letter from our attorney and the genetic counselor
explaining that the only pediatric genetic specialist in the region had a waiting list for new

20

patients of more than one year.
21

22

17. The attorney requested that the school district meet to discuss the denial or grant the family a

23

few months extension to try to expedite an appointment and satisfy Dr. Rausch-Phung's

24

requirement that they provide a corroborating opinion written by a genetic specialist. She also

25

26
27
28

expressed concern with the legality of the process, stating,
DECLARATION OF JOHN COE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCT! ON - 3

Case 1:20-cv-00840-BKS-CFH Document 41-14 Filed 08/25/20 Page 4 of 5

2
3

4
5
6

7
8

"I have serious concerns about the legality of this denial and process. Nothing in the
law suggests that the family must retain the services of a specialist to be considered
for an exemption. To the extent that the DOH isn't sure about a medical precaution,
they should defer to the treating physician and the family. Moreover, there are
constitutional issues here involving the fundamental rights of the family to refuse
medical treatment especially where the treating physician and providers concur that it
could be dangerous to the children's health. And particularly in a case like this, where
the family has already had to suffer the death of more than one child due to vaccine
reactions. To require such additional process is in my opinion unlawful and clear
overreach."
18. On January 29,2020, counsel for the school district emailed our attomeydenyingtherequests

9
10

for a meeting or an extension, and stating:

14

"finally, you cite your 'serious concerns' about the legality of the denial
process'" ... [relating to the NYSDOH recommendations]. .. However, this statement
from a recommendation from the Department of Health was neither relied upon nor
cited by the district in its decision to deny the medical exemption request." No
indication was given about an alternative reason for the denial other than that the
building principals had allegedly "made the decisions independently."

15

19. I have been told that even after the denial, when there was no appeal pending and months

11

12
13

16

before this lawsuit was filed, our doctor received intimidating correspondence from the state

17

demanding all of our health records "even if we did not agree" to them being disclosed and
18
19

20
21

22

appearing to insinuate that our doctor would be investigated for writing a medical exemption
for our children.
20. This has been one of the most difficult years of our lives. The impact on the children and on
my wife and myself, financially, emotionally, and in every other way, has been devastating.

23

21. We just want to send our children to school and to keep them healthy.
24
25

26

27
28

RESPECTFULLY SUBMITTED this 20th day of August 2020
DECLARATION OF JOHN COE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION - 4

Case 1:20-cv-00840-BKS-CFH Document 41-14 Filed 08/25/20 Page 5 of 5

2
3

4
5
6

JohnCoeSr.

7
8
9
10
11
12
13
14
15
16

17
18
19

20
21

22
23
24
25
26
27

28

DECLARATION OF JOHN COE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION - 5

APPENDIX G

Case 1:20-cv-00840-BKS-CFH Document 41-15 Filed 08/25/20 Page 1 of 5

Case 1:20-cv-00840-BKS-CFH Document 41-15 Filed 08/25/20 Page 2 of 5

Case 1:20-cv-00840-BKS-CFH Document 41-15 Filed 08/25/20 Page 3 of 5

Case 1:20-cv-00840-BKS-CFH Document 41-15 Filed 08/25/20 Page 4 of 5

Case 1:20-cv-00840-BKS-CFH Document 41-15 Filed 08/25/20 Page 5 of 5
' ........~ >

..

·,

'

f"ightto go to ~hoolthat . we started making plans to leave the state.
20•. Qefore taking this dramatic step, we applied tQ a private school in our area. They accepted

our medical exemption right aWay. However, the.tuition was too high for us to handl¢, but
this gave us hope. We -sent the application to a . Catholic school that was more afforda&le.
<.
.
'

'

'

'

,--

'

''•

The second sth.Ooltook a month to review the application and accepted it and Jo~n has .
been attending this private school since March 2020.
~·

21. Though we are relieved to have ~ school option for John, we can't really afford p~ivate

school tuition, even at the Catholic school, and our son is not getting the services he is

l

entitled to .and needs from the public school
22. Johnw_~ntsto .return to his public schoo.J, where he was so at home and beloved.

RESPECTf'VllYSUBMITIED this 2oth day of August 2020

~L#
·.·John Foe

APPENDIX H

Case 1:20-cv-00840-BKS-CFH Document 41-16 Filed 08/25/20 Page 1 of 3

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3

4

5

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

8
9

HOWARD ZUCKER, et al.

DECLARATION OF JANE JOE IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10
11

12
13

14
15

1. I am the mother of a medically fragile child and am plaintiff in this lawsuit. I make this
declaration in support ofthe emergency reliefr~quested.
2. My son, who is six years old, had a severe, life threatening anaphylactic reaction to his Rep
B shot given at birth.

16

3. My son has special needs. He suffers from severe autism, obsessive compulsive disorder, and
17
18

a range of neurological and other health issues.

19

4. We've worked really hard to try to help him function as best he can. We have to be very

20

careful about environmental and dietary triggers, of which there are many. Nonetheless, his

21

health is fragile, and we have a lot of setbacks.

22

23
24

5. On the advice of his treating physicians through the years, my son has had a medical
exemption to all further immunization since the anaphylactic reaction at birth.

25

26
27
28

DECLARATION OF JANE JOE IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY
INJUNCTION - 1

Case 1:20-cv-00840-BKS-CFH Document 41-16 Filed 08/25/20 Page 2 of 3

2

6. My son has had a medical exemption in our current school district since we moved here in

3
4

2018 written by our treating pediatrician.

5

7. There was never an issue ~until one day, without warning, in November 2019, I received a

6

letter stating that my son's medical exemption was being overruled as to all vaccines other

7

than the Hep B, and he would need to get caught up on all the other vaccines within a week

8

or be removed from school.
9
10

8. I met with the Superintendent of our school district to beg him to reconsider. I explained how

11

we'd always had a medical exemption to all further vaccines, that my son's health was very

12

fragile and multiple physicians agreed he should not receive any more vaccines.

13

9. The Superintendent, who is not a medical professional and has no medical training, said that

14

his hands were tied, and that he sympathized but as far as he understood, my son would have
15
16

17

to have a near death anaphylactic reaction to each individual vaccine before he could be
exempt from that vaccine.

18

10. My child was expelled from school in November 2019 and has been denied an education but

19

also all educational services since. Our district has typically provided educational services to

20

homeschool children outside of school but decided not to provide them to us.

21

22

11. Before he was removed from school, my son had an Individualized Education Plan which

23

entitled him to extensive needed services including speech therapy five days a week,

24

occupational therapy three times a week, music therapy and play therapy.

25

26

27

28

DECLARATION OF JANE JOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION- 2

Case 1:20-cv-00840-BKS-CFH Document 41-16 Filed 08/25/20 Page 3 of 3

1

2

12. I am a single mom without financial resources. When my son was removed from school, I had

3
4

to quit my job, go on social services and have been struggling and trying to somehow provide

5

my son an education and all of the services he needs by myself, without training or assistance.

6

13. The toll this has taken on my son's health, emotions, and progress and on myself has been

7
8

severe.
14. Wherefore, we respectfully ask that this Court grant our emergency relief.

9
10

RESPECTFULLY SUBMITTED this 20th day of August 2020

11

12
13

14
15
16

17
18

19
20
21

22
23
24
25

26
27

28

DECLARATION OF JANE JOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION· 3

APPENDIX I

Case 1:20-cv-00840-BKS-CFH Document 41-17 Filed 08/25/20 Page 1 of 9

1

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3

4

5

Civil Action No.: 1:20 - CV- 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

8
9

HOWARD ZUCKER, et al.

DECLARATION OF JANE LOE IN SUPPORT OF
PLAINTIFFS' MOTION FORA PRELIMINARY
INJUNCTION

Defendants.

10
11

12
13

14
15

1. I am the mother of a medically fragile child and a plaintiff in this lawsuit. I make this
declaration in support of the emergencyreliefrequested.
2. Untillastyear, my 15-year-old son was under the care ofthe same pediatric neurologist since
he· was seven years old. My son suffers from multiple diagnosed severe autoimmune

16

neurological conditions.
17
18

3. For the first seven years ofhislife, we vaccinated our son in strict adherence to the mandatory

19

schedule and included additional vaccines, such as· the influenza vaccine, whenever it was

20

recommended.

21

4. Our child experienced adverse reactions after many of these vaccines, though at the time we

22

did not put the pieces together to understand what was happening. However, each time, the
23
24

reactions became progressively worse and lasted longer.

25

26
27

28

DECLARATION OF JANE LOE IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY
INJUNCTION- 1

Case 1:20-cv-00840-BKS-CFH Document 41-17 Filed 08/25/20 Page 2 of 9

1

2

5. After his last vaccine, my son became so ill with a barrage of symptoms that progressively
3
4

increased to the point of debilitation. These included, but were not limited to, having only a

5

bite of a cracker and a sip of water a day, fears that evolved into apparent hallucinations,

6

awaking in the middle of the night horror-stricken and raging for hours inconsolably, and

1

numerous other debilitating severe symptoms. We were losing our son before our very eyes.

8

6. We found a highly credentialed and respected pediatric neurologist with vast experience in
9

10

helping children with John's symptoms. He evaluated John extensively, diagnosed him and

11

treated him. He was able to stabilize certain ofhis neurological and autoimmune condition

12

symptoms rather immediately, and as to other of his symptoms, more· slowly and

13

progressively, with medications, ongoing monitoring and testing, and avoidance of known

14

triggers, such as pathogen exposures, allergens, toxins, and vaccines, to the extent possible.
15
16

7. Under the care and management of this uniquely qualified pediatric neurologist, John fared

17

relatively well, compared to many with his diagnoses, as they are often homebound, unable

18

to attend· school and social/extracurricular activities. As often happens with children with

19

John's condition, he never did make it back to "baseline'' symptoms-wise and still suffers

20

setbacks, but has been mostly functional ·by outward appearances, despite struggles and
21

22

symptoms he strives to hide in public.

23

8. In August and September, 2012, when John first started seeing his pediatric neurologist, we

24

were advised that further vaccinating could cause him to decompensate significantly once

25
26

27

28

again. However,.at that time and for the next several years he was not due for any further
DECLARATION OF JANE LOE IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY
INJUNCTION - 2

Case 1:20-cv-00840-BKS-CFH Document 41-17 Filed 08/25/20 Page 3 of 9

1
2

school-mandated vaccinations, already being fully "up to date." However, we did avoid any
3

4

further annual flu shots from that point forward.

5

9. When John reached 6th grade (fall2015), the school nurse advised thatthe Tdap was required

6

to remain in school. We consulted with John's neurologist and were told he should not get

7

any further vaccines, and completed a medical exemption which was submitted and accepted

8

by the school nurse without issue. He also provided medical exemptions covering John for.
9
10
11 .

12

13

6th, ·1h, gth an:d. gth grades, all of which were accepted without issue.
10. In August 2019, our doctor signed another exemptionto cover John for the lOth grade, as the
school advised that a new exemption was needed each year. We submitted the signed
exemption in September 2019 along with his annual health form, as .always.

14

11. Shortly thereafter, the school nurse advised us that the school district's consulting physician
15
16

(a/k/a the school's chief doctor) had spoken to our neurologist's office, and was told that John

17

''was no longer a patient there." The school nurse•further advised•that the chief doctor·had

18

denied the medical exem.ption.because it had to be issued by ·a ·~eating., doctor and John .is

19
20

no longer treated there. Astounded; I explained that our son has been seeing this same

neurologist since he was seven years old, that he's the same one that has written exemptions

21

22

every year, and that he was still a patient, having been seen and treated the preceding

23

Marcb/April (2019). The school nurse and school doctor were unmoved and the exemption

24

remained rejected.

26
27

28

DECLARATION OF JANE LOB IN SUPPORT OF PLAINTIFFS' MOTION FO A PRELJMINARY
INJUNCTION- 3

Case 1:20-cv-00840-BKS-CFH Document 41-17 Filed 08/25/20 Page 4 of 9

1

2

12. Subsequently, we reached out to our pediatric neurologist's office repeatedly, but did not get
3

4

anywhere and were virtually cut off. In email communications in reply, the response was .odd

5

and indicative offearfulness about signing the medical exemption and words to the effect that

6

he could not be of further assistance for John. On September 26, 2019, the neurologist

7
8

followed up with a stiff letter that made no sense, given his claim weeks prior that John ''was
no longer a patient," stating he had just spoken with our school nurse who advised him that

9
10

John needed theTdap and meningococcal, and (astonishingly) advising that John ought have

11

these vaccines. This was in profound contradiction with years of prior medical advice. and

12

medical documentation written to our schools about the risks the vaccines pose to John

13

specifically.

14

13. John's last day of school was on or about September 17,2019. We did not send him in after
15
16

that point; Jest he sufler the humiliation of physical ejection before his peers. On or about

17

September 20, 2019 we received a certified letter that he was not allowed to· return to· the

18

school premises or activities for lack of vaccines for Tdap and meningitis. He is otherwise

19

fully vaccinated, including for measles.

20

14. For the remainder offall2019, our lives revolved around the uphill battle of trying to get John
21
22

back into· school and to find a new specialist. I have a full time, demanding job~ There are few

23

specialists with expertise sufficient to treat John's conditions and the·waiting lists are long for

24

allofthem. John's health and academics declined dramatically in all respects.

25
26
27

28

.DECLARATION OF JANE LOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION - 4

Case 1:20-cv-00840-BKS-CFH Document 41-17 Filed 08/25/20 Page 5 of 9

1

2

15. In November 2019, we got an appointment with a respected and well credentialed
3

4

innnunologist licensed to practice in New York, who is experienced with John's conditions.

5

16:. This doctor concurred that it would be unsafe for John to receive the Tdap or meningococcal

6

vaccines. Accordingly, on or about November 14, 2019, he provided two written medical

7

exemptions (the school adamantly insisted there had to be a separate form for each vaccine in·

8

question, which misstates the requirement of setting forth the bases as to each vaccine).
9

10

.17. Months of bureaucratic deiay ensued during which my son was excluded from schooL

H

18. First, the school advised that the district doctor declined the Medical Exemptions because it

12

was on the "wrong form." Our doctor's office had utilized .the current New York City DOH

13

forms, believing thatto be the most currently required New York form, and we had not been

14

able to suggest otherwise, as we were neither present while it was completed, nor aware of
15

16

more than one form version(NYC vs. State). Notably, the NYC form is more comprehensive

17

than the New York State form and includes all of the same information as the state form,.plus

18

a· release. at that bottom, which we did complete without having. been asked, despite that it

19

forces us to waive HIPAA rights.

20

19. Despite diligent efforts, I had trouble getting a response to my request for the immunologist
21

22

to sign a second set of forms. Eventually, the staff told me that the doctor had received a call

23

from someone from NewYork State, directing that he could not write any further New York

24

medical exemptions "unless he was the doctor who administered the vaccinations," and that

25
26

27
28

DECLARATION OF JANE LOE 1N SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION -·5

Case 1:20-cv-00840-BKS-CFH Document 41-17 Filed 08/25/20 Page 6 of 9

1
2

therefore, he would not be signing any more. Nothing in the law or regulations supports this
3

limitation on physicians.

4
5
6

7

20~

At our next medical appointment in early December 2019, the immunologist reiterated what
the staff had said about having been admonished by New York State not to sign any further
medical exemptions ''unless he was the doctor who administered the vaccines." We had come

8

prepared and showed him the text of the New York Public Health Law and verbiage from the
:9:

10

NYSDOH ·site reflecting

that ACIP guidelines were not the only criteria, and that be was

11

within his rights to sign a medical exemption if he saw fit. We then asked him if, upon seeing

12

these materials, he would agree to transfer the information from the NYC forms to the NYS

13

forms.

14
21. Finally, he agreed. to transfer whathe had written on the NYC forms to the NYS forms to
15
16

overcome the school's denial on a mere technicality and its request for submission on NYS

17

forms. Again, as directed, two separate NYS forms were completed "one for each vaccine.''

18

We promptly submitted these to the school. Further delays beyond our control ensued.

19

22. Finally, on January 7, 2020, we were advised by school staff that the school district doctor

20

denied the medical exemptions and we received written notice that John was officially
21

22

stricken from the rolls and that all departments had been notified.

23

23. My son was soundly kicked out of his school and. his life. His new high school friends had

24

already long forgotten about him by now. His rnonths in exile were extended in perpetuity

25

26
27
28

and despite having Slipped into despair months ago, he had now lost all hope of being granted
DECLARATION OF JANE LOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION- 6

Case 1:20-cv-00840-BKS-CFH Document 41-17 Filed 08/25/20 Page 7 of 9

1

2

re-entry to his education and life; The impact of his school expulsion upon my son and on
3
4

our family has been severe. My son is highly intelligent and well perceives that he has been
forsaken, and when he tries to talk about to us as his parents or one of his doctors, in short

6

order he begins to cry piteously. He is much worse for the wear after an entire year spent

7

alone in his room, day after day ... after day.
24. John's medical condition has made his life unbearable at times. A hallmark of his condition

9
10

is severe social. anxiety and severe school anxiety. John was just at .a point of recovering

11

enough health to make out the door each morning with minimal morning upset and was

12

beginning to develop confidence. He was doing well in school. He was getting recognition

13

for his music and was excited to be in.several school bands~, He was finally overcoming some

14

of his social anxiety and making friends.· He had conquered his first year of high school, and
15
16
17

had a bright start to his sophomore year, and we all knew this meant he was going to make it
through.

18

25. Instead, he was divested of all he had. fought for his entire life a mere two weeks into his

19

. sophomore year. His confidence, progress, prospects and hope have all been gratuitously and

20

heartlessly shattered. He has become very depressed and is not able to keep up with his home
21

22

studies. 'While he had powered through his school struggles without an IEP or 504, the very

23

structure of his Catholic school and the humans who dwell there, were oftherapeutic import

24

to his daily functioning. Likewise, his peers were also a source of structure and motivation,

25

as he felt compe11ed to stay on par with them (or try) and to comport himself as they did in

26
27
28

DECLARATION OF JANE LOE IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
JNruNCTTON ~ 7

Case 1:20-cv-00840-BKS-CFH Document 41-17 Filed 08/25/20 Page 8 of 9

l
2

this college preparatory Catholic school. Left to his own devices, with books and a computer
3

4

with a video teacher, he cannot overcotn.e his symptoms, muster the discipline or find the

5

purpose. Our attempts to provide therapeutic counsel or to intervene and uplift- all fall flat

6

or worse, throw fuel on his symptomatic flre. What he wants- we cannot give him. He wants

7

his li:fe back.

8

26. The devastating ejection from his college preparatory high school has altered the trajectory of

lO

John's life. His college prospects are slipping away. We work full time of flnancial necessity

II

and home ins'tnJ.ction •has been largely unsuccessful. He needs school with real humans to

12

teach and care about him, and friends to draw strength and spirit from and to laugh with.

13

Additionally, John was forced to miss the P .S .A.T. preparation and test that 1Qth graders take

14

IS
16

17
18
19

· at school. He is currently in an S.A.T. prep course with his grade peers at a local private
tutoring center and he is floundering far behind them, whereas previously, he had always done·
very well on standardized tests.
27. Johnfeels hopelessly lost and his depression and anxiety have become debilitating. The stress
of the situation exacerbate his medical condition and symptoms. I have been in touch with a

20

few psychologists who can provide counseling about his situation, feelings, and
21

22
23

24
25
26

27
28

homeschooling encouragement, but he refuses to engage. He insists, through tear-fllled eyes,
that he does not need a therapist ·- he needs his life back.
28. He is now entering month 12 of his tragic and· unjust exile. He continues to ·decompensate
educationally; emotionally and socially. He turns 16 in less than 2 months. This age, and a
DECLARATION OF JANE LOE IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY
. INJUNCTION- 8

Case 1:20-cv-00840-BKS-CFH Document 41-17 Filed 08/25/20 Page 9 of 9

1
2

year gone by ''on his own," bring imminent risk of becoming ungovernable, unable to conform

3
4

and submit to the rules and rituals of school, or to perceive himself as even belonging there.

5

Occasionally, after choking on a sob that won't let him speak, he still looks at me with

6

desperate, tearful eyes that seem to plead, "Mom, fix this," but hardly ever any more. The

7

window is closing for him. I pray, Your Honor, please save our son.

8
9
10

RESPECTFULLY Sl.JBMITTED this 21st day of August 2020

11

12

13

JaneLoe

14
15
16

17
18

19
20

21
22

23
24

25

26
27
28

DECLARATION OF JANE LOE TN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION· 9

APPENDIX J

Case 1:20-cv-00840-BKS-CFH Document 41-18 Filed 08/25/20 Page 1 of 4

·.::. < :.:::.

··.. ·:·::-..:.:,!.:">··:·::.:· .::,: .::>

·· .•.

···>·:':<'"."!:-· ·:

"-':·: ·'·.>. .

·::< ::<·;::· ·'':- .·:::·,'::'-:"~'.·:~· i'.'.''·:">::·:·:--~. ··:·.>'"··:":

'~~f~~~~EVS~
MJ:>, ::miSIJPPORTOF PLAINTIFFS' MOTION

Plaintiffs·'··
. ·......

~F~;R::~~,~~~~~~J~~t1;f:IQN1 •.•. • ,..

..

~.

..

.

'

.·

;.

.

. . r2 ·• ;~~P:57j~: ;~~Y~Iw'i~·~r'.· .·•.P. • ·~panttc>· . 2~·.·v~~·S·.·t.l·?4fide¢1~es··tll1~¢r.········•.P. . •.7In\ltypfperjuryas
.. . . . . "':., . ;,·.··· · ·

'-

. ·..'' ;:':=··::.::: ·:•;,;~:::·:y~:./; .:-=·:: ·.

-

.. . ,.., ,· / ,·. ~ ·:· .:::: \'i">: .-"'.\{/

..

;. <i:'•.;<

.";o:··~.

>/."/ ·. ·

.•..-m~(f~~~;.!f,~~~,.~;·~40'~'~~~.~~#':(;"ljl~1:
gra4Witeot'tf),e
NYU
$cbo9t qfM:edi¢jn~,
alQ901'·<·gradiJtlte9f:Ule.l\4o®tSin~
J;lospiW l
·::r .·.·......
····,···.;. ;:··.:."'.· .,.,
· · · · · · · ·'
):;.::.:· . .:,:_ . . ·.,
··=··-·:~.. ,t...

·:'>')>~

. -~.· .... ·.

<:)-/)>~...;:::.;'. :{:'f::···i

. ·.:.:j: :;:

;·.:.;.

·. QtttPafi~~tdep~~ll.t ati3eneytJe HQ!;pit~llii;.$~' WYU ~ch~oi~rM:¢di~ilte ·Department •.
.. ~·-. ·.:>. . ·;,:.- .... .· .··· ..
:-::

....

. :-~. ·...

·-·.". ·.

>·······:•"·••'2()()4 ;~~iou~
·. :.

2.

..

. ·.'·:

;:

. . ·.. ·· .

I write thi~ affidavit in. supp~rt 9f;tl;t~ :Jl~~futij:fs' l):18,U~l1 :f9r a p~~Jirninary
.::·>· ..<( . . . ."· . ·.'.
·.

..

·.· .. ··.

. . . ·.~:. :.-::.:: ··: ·.:: ···.' :·.;. .

. ..... '..' ' .. "":/:: . :'.':•;;.>":. ..... _.\.:'" ·r-<:":: . i··;::.·,;: .. :.>:•·'····.::

Case 1:20-cv-00840-BKS-CFH Document 41-18 Filed 08/25/20 Page 2 of 4

1

2

3

3.

In the·last.3.0 years ofmy clinical pediatric practice,I have reviewed the medical

records, and have heard the stories. of hundreds,ifn()tthousands, ofchildrenwho have

4

5

6

experienced legitimate vaccine injuries.

4.

Vaccine injuries.are real. They can.l,)e mild to severe. They can appear.differen.tly

7
8

in all children. And they are more widespread th!m publicly acknowledged.

9

10

n

5.

The CDGandACIP list ofcontraindications to vaccinations is but a m.ere fraction

of the known reasons children J.DaY be. at.a significan_trisktq sel,jou~l:lar:tll fromiy~cines~

12
13

14

15

6.

It .is II1Ymedicalopinion, ·based OD.ll1Y cJinicalex.perience,. and on my ex:teru;ive

readingofvacciiJ.epack:ag¢ inserts· andtheweU-~§tabli~b.ed medical and scientific
literature, tb.atthese . vu]nerable .children are in dir~ need·.ofNYState's.supportto protect

16
17

18

"them from any ad<.led.}lann. to th~ir• health .and to their live$, from furtb.er.vaccil1£ltion.

7.

This.protecti()n is best !;Upported by a

soU11~ legiti:mate,

and science,.based

19

20

medical exemptism, written by treating NYS,:nedicallylicensed physicians, who have

21

direct experience and relationsb.ips with their P¢iatric.Patients.Tbese· determinations .are

22
23

24

clinical in nature and cannot be artificially narrowed to a :few ofthe 1llanyrec()gnized
potential reasons for caution.

25

26
27
28

DECLARATION OF LAWRENCE PALEVSKY, M.D. IN SUPPORT OF PLAINTIFFS' MOTIONFORA
PRELIMINARY INJUNCTION- 2

Case 1:20-cv-00840-BKS-CFH Document 41-18 Filed 08/25/20 Page 3 of 4

Case 1:20-cv-00840-BKS-CFH Document 41-18 Filed 08/25/20 Page 4 of 4

1

2

13.

~erefOJ:e~lr~pec'tfully S11pJ>orttbe,].>~ttW~ lll~tio9-f<>rt·eY.ef

5

;i~<:~l~vJ~

6
7

', ,• ]1a1.11•1>~~sk)r,Iv.(.p.,,',,

8
9
lO

ll ',

12

.
26·

27'

·.

·.
.
.

.
'

.·.
...

.

'

.

·.

.·
',

'

DECLAR.ATIONOF LA."WR&NGEl>Al..EVSKY~
,
}>RELlMINARYIN"JtJNCTION"-4
, , , ,,,',M.D. p{SqpPORT()F:
,,,',.,,., ''',,',,', :PJ.-A!~F:S'MO'l'lQ}'lfO~A,.
,, ,, ',,,, ,',,,'
',

APPENDIX K

Case 1:20-cv-00840-BKS-CFH Document 41-20 Filed 08/25/20 Page 1 of 3

\

2
3
4
5

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK
Civil Action No.: 1:20- CV - 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

8
9

HOWARD ZUCKER, et al.

DECLARATION OF A.M. 2 IN SUPPORT OF
PLAINTIFFS' MOTION FORA PRELIMINARY
INJUNCTION

Defendants.

10

11
12

A.M. 2 pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:

13

2. I am the mother of a medically fragile child that attends public school in Manhattan.

14

3. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

15

and as a potential class member in this suit.

16
17

12. My daughter had a serious adverse reaction to vaccines which left her with a·

IS

permanent movement disorder, and other serious issues.

19

13. Last year, we submitted a medical exemption for our daughter written by a well-

20

respected physician licensed to practice medicine in New York.

21

. 14. As a follow up to our physician's exemption, we were completing testing in a

22
23

medically sound, professional and comprehensive manner pursuant to our doctors'

24

recommendations in support of a medical exemption and in our continued search to fully

25

understand the health of our daughter.

26

27

DECLARATION OF A.M. 2 IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION • I

28

============= -·--------------------···· - - - - - - - -_- - -___

- - - - - - - - - - - - - - - - - -------------

Case 1:20-cv-00840-BKS-CFH Document 41-20 Filed 08/25/20 Page 2 of 3

\

2

15. From the start of the exemption process, we were continuously harassed. Our doctors

3

made repeated requests outlining the actionable workup and timeline required for

4
5

extensive immunology and genetic testing.

6

16. Our doctors' determinations about the timeline required to submit this follow up

7

information were ignored and the tests they required were not compatible with the

8

timeline we were given by the school. (Maximum 1-3.5 weeks for a full report at any

9

given time.)

10
II

17. It was so invasive, completely nonsensical and extraordinary ... I have never

12

experienced anything like it.

13

18. Every month I was fighting for my medically fragile child to remain in school and her

14

doctors couldn't comprehend the inability of the NYC Department of Education/ Office of
15

School Health, to follow their directives-- ie science/ best practice required of the testing

16

17

protocols.

18

19. Also, her principal acted unconscionably with me-- argued that the time line was

19

inaccurate and fraudulent, ignored repeated requests for a meeting and humiliated my

20

daughter by pulling her out of class and telling her that 'she needed to get her shots.'
21

· · 20. In the end, my child was allowed to return to school after continued and repeated

22

.,.
-:J

efforts on behalf of myself and her doctors. (Her doctors include a top pediatric

24

neurologist at Cornell, the director of Pediatric Allergy and Immunology at NYU

25
26

27

DECLARATION OF A.M. 2IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION - 2

28

....

··-·-··

----- ------

Case 1:20-cv-00840-BKS-CFH Document 41-20 Filed 08/25/20 Page 3 of 3

2

Langone, and specialists from Columbia, Harvard, Children's National (DC}, Johns

3
4

Hopkins.)

5

21. We did receive back the comprehensive testing, and our doctors agree that my

6

daughter has serious contraindications and immune challenges and cannot be vaccinated

7

safely.

8

22. Nonetheless, the school will not give us a straight answer about whether our
9
10

exemption will be accepted this coming year.

11

23. We cannot go through another invasive and terrible and humiliating year like last year

12

again. We cannot walk on eggshells wondering if my daughter might suddenly be

13

removed from school or confronted with another inappropriate and humiliating lecture

14

from the school.
15

16

24. Wherefore, I respectfully ask this Court to grant the relief and let our children remain

17

in school pending the outcome of this case and to stay the regulations that allow school

18

districts to overrule treating physicians.

19

RESPECTFULLY SUBMITTED this~ -&.day of August 2020

20
21

22
/

23

A.M. 2

24

25
26
27

28

DECLARATION OF A.M. 2 IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION - 3

APPENDIX L

Case 1:20-cv-00840-BKS-CFH Document 41-21 Filed 08/25/20 Page 1 of 2

n

liji

II
j,

1H

2li

3

4

~~
UNITED STATES DISTRICI' COURT
~~--------~-F~O~R~THE~~N~O~R~THE~~RN~D~I~STRI~~CT~O~F-NE
__W~Y-O~RK=---------~

5 ibANEDOE,etaL
61i

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

7 I!

DECLARATION OF E.C. IN SUPPORT OF

IIPlaintiffs,

vs.

811 HOWARD ZUCKER, etal. PLAINTIFFS'MOTIONFORAPRELIMINARY

9H
INJUNCTION
O
Defendants.
1
11 !t2c_
i
12 lf E.C., pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:
13 !I 1. I am the parent of a medically fragile child who sought a medical exemption in the New j
II
York City (Kings County) school district inNew York for the 2019-2020 school year.
!
14 B
15lf 2. I write this declaration in support of the Plaintiffs' motion for a prelimiruuy injunction

II

li

and as a potential class member in this suit.

161il!
17 !•ti 3. My child suffers from Chronic Inflammatory Demyelinating Polyneuropathy.
I
18 L'I 4. My child never had a medical exemption before the 2019-2020 school year and had been
u fully vaccinated up until such time. My three other children are fully vaccinated and have)
191'
not had exemptions of any kind.
l
20 ,,
1
21 1i 5. However, my child's treating physicians felt that further vaccination would not be safe

I

221J1

for him given his severe condition.

23 II 6. At the start of the 2019 school year, we submitted two exemption applications, both
certified by NYS licensed specialists- my child's nemologist and immunologist.
H
2411
2511 7. The two exemptions that we submitted were both denied. I was then forced to hire a

26 jl
27il
28 '!~~

II,,
!I

!I;I
I,
II1-

!l

!I,,d

lawyer to help navigate the appeal process, which was a burdensome expense for a
nursery school teacher and a New York City fireman to bear.

f

8. In the new appeal, we bad the neurologist rewrite with exact quotes taken from the ACIP J

I

guidelines substantiating my son's medical condition and the need to defer vaccination. I
resubmitted the appeal to the school. Although they claim to have forwarded the
exemption to the Office of School Health, we never received a response. The principal
kindly allowed my son to remain in school.

l
j

!
~

9. It was an extremely stressful ordeal, and we lived in constant fear of him being pulled ou~
of class one day and not allowed back. I am full of worry about the upcoming school
l
year.

I

10. It is so frightening to imagine having to go through this ordeal every year. It is

f
1

extremely stressful not to be able to plan for the simple things, such as will we be able to
continue living in New York State, or will I be forced to move so that my son may remain
in school?

11. It is hard enough having a child with a serious medical condition. We do not need to be
further victimized and penalized by the education system.

12. I would like to add that my sons' doctors were furious at the denial ofhis exemptions.
..Any doctor that would knowingly vaccinate your son given his condition should hand in
their medical license," is what they said. Why should a parent have to choose between
risking their child's health, or removing them from the NYS education system? What
gives any school official the right to override the orders ofNYS licensed doctors and the

Case 1:20-cv-00840-BKS-CFH Document 41-21 Filed 08/25/20 Page 2 of 2
ACIP guidelines?

13. Wherefore, I respectfully ask this Court to grant the relief and let our children remain in
school pending the outcome of this ~

RESPEC1FUIJ...Y SUBMITIED

E.C.

f.

this;221ay of August 2020

C~

DECLARATION OF E. C. IN SUPPORT OF PLAINTIFFS'
MOTION FOR A PRELllvfiNARY INJUNCTION - 3

APPENDIX M

Case 1:20-cv-00840-BKS-CFH Document 41-22 Filed 08/25/20 Page 1 of 3

1

2
3

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

4

5

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

8
9

HOWARD ZUCKER, et al.

DECLARATION OF J.S. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10

11

12

J.S., pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:

13

2. I am the mother of a medically fragile child that attends public school inNew York.

14

3. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

15

and as a potential class member in this suit.

16

4. For the past year, I have not slept through the night.
17
18

5. When my son's medical exemption was submitted to his high school in September

19

2019, they said that there would be a decision within 10 days and that my son could stay

20

in school until a decision was made.

21

22

6. We never heard back from the high school about a decision and my son just kept

23

going to school. I did not want to ask the principal or anyone involved and call attention

24

to our case in case it had just gotten lost or misplaced by the health department.

25
26
27
28

DECLARATION OF J.S. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION1

Case 1:20-cv-00840-BKS-CFH Document 41-22 Filed 08/25/20 Page 2 of 3

1

2
7. So many other families with medically fragile children were getting sudden denials.
3

They were coming all throughout the year.

4

8. Every day we checked the mailbox and I worried if that would be the day ours would

5
6

arrive.

7

9. I did not want to homeschool my son and I would in no way vaccinate him against
8

medical advice, so I just held my breath and waited.

9
10

10. My son didn't really make friends at school all of last year and he missed a lot of

11

school because of stress.
12

11. He said he didn't want to make friends if he was just going to be kicked out anyway.

13
14

So every day until school closed down in March because of Covid, we both were just

15

waiting for the ax to fall.

16

12. We pray that this lawsuit will be successful and that schools will stop overruling or
17

second-guessing doctors. We cannot go through another year like we did last year.

18

Especially with Covid and all the uncertainty, we need something we can rely on. Even if

19
20

the schools end up doing distance learning again, that is okay so long as we know that my

21

child will have access to all the same curriculum and resources as his peers and we won't

22

suddenly have to figure out how to do it all ourselves out of nowhere.

23

24

25

26
27
28

DECLARATION OF J.S. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION-

2

Case 1:20-cv-00840-BKS-CFH Document 41-22 Filed 08/25/20 Page 3 of 3

13. \Vheretl:m!. l respr."Ctfull~· ask this Court to grant the relief and kt our children remuin
in school pending the outcome of Lhis case and to stay the regulations that allo\v s.chool
districts to overrule treating physicians.

5

RESPECTFULLY SUBMITTED this

i ~-{ dav of Auuust 2020

--r-

•

"'

7

J.S.

10
II

l2

14
15

16
17

18

21)

22
23

26
17

28

DECLARA fJON OF J.S.Il\ SUPPORT OF PL,\JNTIFFS' MOTlON FOR A I'Rt::UMINARY 11\JtJl\CTIOl\ •

3

APPENDIX N

Case 1:20-cv-00840-BKS-CFH Document 41-23 Filed 08/25/20 Page 1 of 4

1

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3
4

5

JANE DOE, et al.

Civil Action No.: 1:20 - CV - 0840 (BKS/CFH)

6

Plaintiffs,

7

vs.

8

HOWARD ZUCKER, et al.

9

DECLARATION OF N.C. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10
11

12
13

14
15

N.C., pursuant to 28 U.S. C. § 1746 declares under penalty of perjury as follows:
1.

I am the parent of two medically fragile children who both had medical

exemptions to vaccines since 2012, and 2014, respectively.
2.

I write this affidavit in support of the Plaintiffs' motion for a preliminary

16
17

18

injunction and as a potential class member in this suit.

3.

My children both suffer from autism and Mitochondrial disease Complex 1 & 4,

19

respectively. My son's mitochondrial disease was proven in 2011 after a biopsy was conducted

20

on his burst appendix. The procedure, testing and results were groundbreaking. The surgeon did

21

not know about Mitochondrial disease and was skeptical that there would be any findings. When

22
23

the biopsy results came back, he called me himself, apologizing and noting that the results were

24

clear. Now we know exactly what my son's mitochondria look like. They are misshapen, missing

25

cristae, are abnormal in color and there are not enough of them. Every doctor who has seen the

26
DECLARATION OF N.C. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 1

27
28

Case 1:20-cv-00840-BKS-CFH Document 41-23 Filed 08/25/20 Page 2 of 4

2

lab results agrees that my son's disease makes him unable to process or filter toxins and antigens,
3
4

including vaccines. His body must fight hard just to make enough energy to get through the day.

5

Now sixteen, he is still nonverbal, has food allergies, low muscle tone, apraxia, and

6

encephalopathy. My daughter, now thirteen, suffers from many of the same issues. She was

7

tested via buccal swab and also shown to have mitochondrial disease. Both children's genetic

8

tests further reveal vulnerability including MTHFR mutation.
9

4.

10

Doctors who normally refuse to even allow patients to remain in their practice

11

unless vaccinated have been writing my children exemptions since 2012 and multiple treating

12

physicians have stressed that it is not safe for my children to receive more vaccines over the

13

years.

14

5.

From 2012 to 2019, my children have always had medical exemptions accepted

15
16

by their schools. Please note that my son did not need his first medical exemption until20 14,

17

because he was up to date with vaccines until then. My daughters first medical exemption in

18

2012 was based on my son's biopsy results.

19

6.

At the start of the 2019 school year, as usual, we submitted medical exemptions

20

for our children from their pediatrician, a physician licensed to practice medicine in New York
21

22
23
24
25

and familiar with their health and conditions. As usual, both exemptions were promptly accepted
and my children were able to attend school.
7.

In September 2019, our long-time pediatrician moved out of state. She assured us

that another doctor in the practice would be able to write the exemption for 2020. After all, two

26
DECLARATION OF N.C. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 2

27

28

Case 1:20-cv-00840-BKS-CFH Document 41-23 Filed 08/25/20 Page 3 of 4

2

different physicians in that practice had already written medical exemptions for our children
3
4

5
6
7

throughout the years and there was no controversy among our treating physicians that our
children could not safely handle vaccines.

8.

However, shortly after our pediatrician moved out of state, we were told that our

new pediatrician would not only be unwilling to write a medical exemption, but that the practice

8

would not see us anymore because our children were not up to date on vaccines.
9

10
11
12
13

9.

We have been patients of this practice for sixteen years, since my oldest was a

newborn. This experience was devastating.
10.

We have spent the last year paying out of pocket to talk to various practitioners

'who have through the years either written our children medical exemptions or agreed that they

14

need them. In February 2020 I paid out of pocket to return to the doctor who had written a
15
16

detailed medical exemption for my children in 2015. He unapologetically said that does not write

17

medical exemptions anymore though he agrees that my children cannot be safely vaccinated. We

18

have also been paying out of pocket to see another licensed physician annually since 2007 who

19

has expertise in our children's conditions. She cannot write an exemption for us because she is

20

not licensed inNew York State. She told us that none of her New York licensed colleagues
21

22
23
24

25

would likely write an exemption for us. She said, "after the emergency mandates, which threaten
to take a physician's license away, no doctor will chance writing an exemption."
11.

This year has been the most stressful year of my life. Knowing that the clock is

ticking. Knowing that no doctor I have heard of in New York will write exemptions anymore.

26
DECLARATION OF N.C. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 3

27

28

Case 1:20-cv-00840-BKS-CFH Document 41-23 Filed 08/25/20 Page 4 of 4

2

The situation feels hopeless.
3
4

12.

My children have severe, significant special needs and medical conditions. They

5

need school and socialization. My son's individualized education plan cannot be tailored to home

6

based education.

7

13.

Children like mine, who have permanent conditions and have had approved

8

medical exemptions for years, now are told they don't qualify anymore under the new impossible
9
10

mandate. Doctors who have written them in the past are now afraid to stand up and protect their

11

own patients. This has been a horrific nightmare for so many medically fragile children and their

12

families.

13

14.

Wherefore, I respectfully ask this Court to grant the relief and let our children

14

remain in school this upcoming year pending the outcome of this case.
15
16

RESPECTFULLY SUBMITTED this _ _day of August 2020

17
18
19

N.C.

20
21

22
23
24

25

26
DECLARATION OF N.C. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 4
27
28

APPENDIX O

Case 1:20-cv-00840-BKS-CFH Document 41-24 Filed 08/25/20 Page 1 of 5

2
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3
4

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

5

Plaintiffs,
6
7

8

9

vs.

HOWARD ZUCKER, et al.

DECLARATION OF B.B. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10
ll

B.B. pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:

12

1. I am the parent of a medically fragile child who sought a medical exemption in
l3

14
15
16
17

Richmond County, Staten Island school district in New York.
2. I write this affidavit in support of the Plaintiffs' motion for a preliminary injunction and
as a potential class member in this suit.
3. My child has the MTHFR A1298C mutation, which predisposes to severe adverse

18

reactions due to an inability to properly methylate and detoxify vaccine components. My
19
20

child had a severe allergic reaction to a previous vaccination. The reaction consisted of a

21

febrile seizure, crossing of the eye towards the nose, "dancing" eye syndrome, severe

22

headaches, vomiting, high fever, sensitivity to light and irritability. Several doctors

23

informed us that continuing with vaccination is detrimental to my child's health and that

24

the risks outweigh the benefits.
25
26

~

DECLARATION OF B.B. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 1

27
28

Case 1:20-cv-00840-BKS-CFH Document 41-24 Filed 08/25/20 Page 2 of 5

~
2

4. At the start of the 2019 school year, we submitted a medical exemption written by three
3

4
5

6
7

physicians licensed to practice in New York who are all familiar with my child (a
pediatrician, ophthalmologist, and a neurologist).
5. My child's immunization exemption request was denied without an explanation. As of
today, I still do not know the criteria that were used to judge the medical exemption and

8

we were never given the chance to discuss or contest said criteria. The impersonal letter
9

10

only stated "Your request for medical immunization exemption your child has been

ll

denied. Your request was reviewed by a doctor at the NYC Department of Health and

12

Mental Hygiene's Office of School Health. The records provided by your child's health

13

care provider(s) do not meet standards needed to exempt your child from receiving

14

immunization (s) that are required to attend school."
15
16

6. When I called the Office of School Health (the number provided on the denial letter) and

17

asked to speak and/or meet with the doctor who recommended this decision, the Health

18

Services Coordinator, Jason Wright, stated that the physician does not speak to parents

19

directly and that is their policy.

20

7. At this point, I contacted the ophthalmologist to provide the additional medical records
21
22

explaining the severity of the previous adverse reaction. The ophthalmologist filled out

23

the form and then yet again I received the same exact letter in the mail stating that the

24

information submitted by the ophthalmologist has been denied.

25
26

~27
28

DECLARATION OF B.B. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 2 ~

Case 1:20-cv-00840-BKS-CFH Document 41-24 Filed 08/25/20 Page 3 of 5

yp

~
2

8. At this point, I called my child's pediatrician and was informed that a doctor at the NYC
3

4

Department of Health and Mental Hygiene contacted my child's pediatrician and was

5

very rude, stating that my child's medical exemption will be denied unless we provide

6

further documentation from a neurologist. Specifically, he stated that my child's reaction

7

must have been documented by a neurologist within 10 days ofthe immunization

8

reaction. Although we did go to a neurologist eventually after the adverse reaction, we
9
10
11

12
l3

had initially taken our child to the ophthalmologist since the febrile seizure resulted in
eye crossing, light sensitivity, and "dancing" eye syndrome.
9. Nevertheless, we went to the neurologist to fill out the form. The neurologist was in
agreement and also feels that the strong history of vaccine reaction should be monitored

14

with extreme caution. Yet again we received exactly the same letter and were again at
15
16
17
18
19

risk for getting kicked out of school.
10. I felt like I have exhausted all my options to keep my child safe. We had 3 different
physicians all stating that my child is not a candidate to receive further vaccinations and
my pediatrician does not feel at ease going against her/his recommendations. This

20

upcoming school year, yet again, I would be required to resubmit all paperwork to a
21
22
23
24
25

doctor that has never met my child and does not have complete access to their medical
history.
11. At this point, I do not even know if my pediatrician would be willing to again complete
the paperwork and be vulnerable to the scrutiny of the doctors at the NYC Department of

26
27

~

28

DECLARATION OF B.B. IN SUPPORT OF PLAINTlFFS' MOTION FOR A PRELIMINARY INJUNCTION- 3

~

Case 1:20-cv-00840-BKS-CFH Document 41-24 Filed 08/25/20 Page 4 of 5

2

Health and Mental Hygiene. Nevertheless, this third party's recommendation unjustly

3
4
5

overrules the professional judgment made by my child's team of doctors.
12. Additionally, after the notification of the decision, the principal or person in charge of a

6

school is responsible for making the final determination on the medical exemption

7

request. The final determination should not be decided by an individual who has never

8

met my child and does not have a medical license. This is not ethical!
9

10

13. It is imperative to note that since the DOH implemented an approved catch-up schedule, J

II

am frightened to even think how this aggressive schedule will impact my fragile child if I

12

was required to vaccinate against my will and against the recommendation of my child's

13

three treating physicians. This accelerated schedule, given with a short time, combining

14

multiple shots in one visit has never been tested and studied. I'm beyond devastated and
15
16

17

very nervous about going through this treacherous process this year protecting my child's
health and wellbeing.

18

14. The ACIP guidelines were never intended to replace a physician's clinical judgment,

19

where the clinician believes vaccination can cause serious injury to a child. Hence,

20

requiring a parent to act contrary to the judgment of their child's doctor, who takes into
21

22

23
24
25

consideration the child's medical history, is just not acceptable. ACIP guidelines do not
define medical exemptions and they are evolving documents that are not a one-fits-all!
15. Wherefore, I respectfully ask this Court to grant the relief and let our children remain in
school pending the outcome of this case.

26
DECLARATION OF B.B. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 4

27

28

Case 1:20-cv-00840-BKS-CFH Document 41-24 Filed 08/25/20 Page 5 of 5

2

RESPECTFULLY SUBMITTED this 71h day of August, 2020

3
4
5

6
7

8
9
10
11

12
13
14

15
16
17

18
19

20
21

22

23

24
25
26

27
28

DECLARATION OF B.B. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 5

APPENDIX P

Case 1:20-cv-00840-BKS-CFH Document 41-25 Filed 08/25/20 Page 1 of 4

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

JANE DOE, et al.

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

Plaintiffs,
vs.

HOWARD ZUCKER, et al.

DECLARATION OF A.M. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

A.M., pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:
I.

I am the parent of a six-year-old medically fragile child who has sought a medical

exemption in the Amsterdam school district in New York since October 20 19.
2.

I write this affidavit in support of the Plaintiffs' motion for a preliminary

injunction and as a potential class member in this suit.
3.

My son received some vaccinations as a baby. After a reaction to the hepatitis B

vaccine and due to religious reasons, I decided that, in the best interest of my child, I would stop
vaccinating. Due to the law that was passed in June 2019, my son was required to receive more
vaccines to enter school. In late August 2019, he received the polio vaccine with a note from his
doctor that in 30 days he would receive the varicella vaccine and in another 30 days, the MMR
vaccine. 10 days after he received the polio vaccine, I received a call from the school and the
school nurse told me that I needed to go against my doctor's recommendations because they
DECLARATION OF A.M. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- I

Case 1:20-cv-00840-BKS-CFH Document 41-25 Filed 08/25/20 Page 2 of 4

would not allow my son into school until he received the MMR and varicella vaccine. On
9/10/19 my son received both the MMR and varicella vaccine, he then suffered serious adverse
effects. It was the scariest thing that I have ever gone through as a parent, and I feared for his life
and safety.
4.

After witnessing my son's serious adverse reactions to his vaccines in 2019, my

son's life-long physician, who is a respected physician licensed to practice medicine in New
York, agreed with me that my child should not receive any more doses of the varicella, MMR or
hepatitis B vaccine. My doctor recommended increasing the interval between the polio vaccines
to decrease any possible side effects. I received a valid medical exemption in October 2019 and
a letter from the doctor stating that he recommends increasing the interval between the polio
vaccine doses. I then submitted both the exemption and letter to the principal and nurse of his
school.

5.

My son attends a small catholic school and the principal told me she had to send

my son's medical exemption to the superintendent of Amsterdam school district for review. It
then was sent to the NYS department of health for review.
6.

The director of the bureau wrote a letter stating that she reviewed my son's

medical exemption and that the medical exemption "does not support that vaccination would be
detrimental to the student's health". Without ever once having examined my child or seeing him
suffer after his immunizations in 2019, she recommended the medical exemption written by my
son's lifelong treating physician be denied.
DECLARATION OF A.M. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 2

Case 1:20-cv-00840-BKS-CFH Document 41-25 Filed 08/25/20 Page 3 of 4

7.

In addition, she did not agree to the recommendation of delaying the polio

vaccine.
8.

Shortly thereafter, I received an email from the principal of the school and my son

was kicked out of school the day before his Halloween party. My heart was tom, telling my son

that he could not attend his Halloween party at school because he became so ill after
immunizations. My child was devastated and confused.
9.

With two other children to take care of and a part time job, the thought of

bomeschooling was truly terrifying. But I had no other choice; I lessened my hours at work and
ordered a curriculum.
10.

Every day, we had to drop my son's sister off at school and pick her up. He had to

see all of his friends playing and having fun.
11.

My 9-year-old daughter then started experiencing extreme anxiety at school. She

could not bear to see her friends waving to their younger siblings, all of whom were friends with
her brother. She felt the stigma that had been placed on our family just because we were trying to
follow the advice of our treating physician and keep our son safe. She was sad that I could no
longer volunteer at school. How could I? My son was not allowed there. My go-lucky, happy,
vibrant daughter became anxious and isolated. She missed her brother dearly and neither of my
children could comprehend how any adult could treat children in such an awful way.

DECLARATION OF A.M. IN SUPPORT OF PLAINTIFFS• MOTION FORA PRELIMINARY INJUNCTION- 3

Case 1:20-cv-00840-BKS-CFH Document 41-25 Filed 08/25/20 Page 4 of 4

.

.

.

12.

My son, my daughter, and my whole family has suffered serious and lasting hann

because of my son's exclusion from school. In addition to the loss of education, the message that
has been sent to my child itself is harmful.
13.

My child deserves to be in school. It is not his fault that he cannot tolerate any

more vaccines safely after such a severe reaction. I cannot subject him to harm again. I cannot
ignore the advice of his lifelong physician in favor of a person who has never met him and
doesn't understand how serious his reaction was or what we went through. My child is one of
these children we are supposed to be protecting with the school vaccine program. Instead, he is
being harmed.
14.

Wherefore, I respectfully ask this Court to grant the relief and let our children

remain in school pending the outcome of this case.
RESPECTFULLY SUBMITTED this

4-thday of August, 2020
A.M.

DECLARATION OF A.M. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION· 4

APPENDIX Q

Case 1:20-cv-00840-BKS-CFH Document 41-26 Filed 08/25/20 Page 1 of 3

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3
4

Civil Action No.: 1:20 - CV - 0840 (BKS/CFH)

JANE DOE, et al.

5
6

Plaintiffs,

7

vs.

8

HOWARD ZUCKER, et al.

9

DECLARATION OF K.W. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10
II

12

A.M., pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:

1.

13

14

I am the parent of two medically fragile children whose physicians have

determined cannot be vaccinated due to the risk of harm.

15

2.

I write this affidavit in support of the Plaintiffs' motion for a preliminary

16

injunction and as a potential class member in this suit.
17

3.

18

In August 2019, we submitted medical exemptions for our children to a private

19

Catholic school in New York State. I was aware that there were schools that were arbitrarily

20

overruling medical exemptions in the district. I asked the school to provide confirmation about

21

whether the exemptions were accepted or not before I signed a contract or paid tuition.

22

4.

23
24

The school nurse reviewed the exemptions and the school principal promptly let

me know that the exemptions were accepted. In reliance, I signed the contract and paid tuition

25

and my children started school.

26

DECLARATION OF K. W. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION -

27

28

I

Case 1:20-cv-00840-BKS-CFH Document 41-26 Filed 08/25/20 Page 2 of 3

2

5.

In October 2019, without my permission or knowledge, the school forwarded my

3

4
5

6
7

children's medical exemption to the public school's district consulting physician.

6.

At the end of October, the head of our school told me that our children's medical

exemption was going to be overruled because the public school's doctor did not think it met the
legal criteria for the new health department regulations issued in August. They did not provide

8

any further detail about why. I was given a week to subject my children to vaccines that their
9
10
1l

12
13

physician felt could endanger them or to leave school without reimbursement for the tuition paid.

7.

My exemption was certified by a physician licensed to practice in New York and

familiar with my children who agreed that immunization would put them at risk.

8.

Tremendous stressful back and forth ensued. The Catholic school admitted that

14

they had accepted the exemption in August. The head of the school said that the reason that she
15
16

decided to revisit the issue was that she'd been given guidance that she could be fmed $2,000 a

17

day if the department of health disagreed that the children met the legal criteria set forth in the

18

new regulations, and she could not risk that.

19

9.

I consulted a second physician licensed to practice in New York who concurred

20

that it was not safe to immunize my children. On or about November 3, 2019, I asked the school
21

22

if they would allow my children more time to stay in school so that the second physician could

23

write a corroborating medical exemption for them. This request was declined. My children were

24

forced to leave school on November 4th.

25

26

27
28

DECLARATION OF K.W. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION2

Case 1:20-cv-00840-BKS-CFH Document 41-26 Filed 08/25/20 Page 3 of 3

2

10.

The experience was devastating for them. They could not understand why they

3
4

were not welcome at school. We were at a loss suddenly trying to juggle work and have young

5

children out of school all day needing an education.

6

11.

Ultimately, we bad to hire an attorney and go through enormous expense and

7

stress. After substantial legal negotiation, my children were re-admitted in January 2020 and

8

allowed to remain in school pending a review by the Department of Health of the second medical

9

10

exemption.

12.

11
12
13

year walking on

~ells, not knowing if at any moment we would hear back, and our cbildren

would be removed from school abruptly as they had been in November.

14

IS

The Department of Health did not respond. We spent the whole rest of the school

13.

This experience bas been emotionally, financially. and psychologically

devastating. My children and family already struggle with so many health issues. These new

16
17

policies and regulations are too much.

Wherefore, I respectfully ask this Court to grant the relief and let our children

14.

18

19

20

remain in school this upcoming year pending the outcome of this case.

RESPECTFULLY SUBMITIED this !]__day of August, 2020

21

22
23

K.W.

24
25
26

Dl!CLAJlAnoN OF K. W. IN suPfORT OF pLAINTIFfS' MOTION FORA PRELIMINARY INJUNcnON •

3
27

28

APPENDIX R

Case 1:20-cv-00840-BKS-CFH Document 41-27 Filed 08/25/20 Page 1 of 4

1
2
,.,

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

J

4
5

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

8

HOWARD ZUCKER, et al.

9

DECLARATION OF C.M. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10

11
12
13

14
15

C.M. pursuant to 28 U.S. C.§ 1746 declares under penalty of perjury as follows:
1. I am the mother of two medically fragile children who attend school in New York
State.
2. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

16

and as a potential class member in this suit.
17
18

19
20
21

3. My husband has a history of severe adverse reaction to immunization, as he became
epileptic as a child as a documented adverse vaccine injury.
4. The CDC guidelines state that our girls should be medically exempt from at least the
MMR vaccine due to the risk of seizures in the immediate family history.

22

5. My children had never been vaccinated as a result of the family history and due to our
23
24

sincere religious beliefs.

25
26
27

28

DECLARATION OF C.M. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION - 1

Case 1:20-cv-00840-BKS-CFH Document 41-27 Filed 08/25/20 Page 2 of 4

1
2

6. Last fall, after the religious exemption was repealed, we sought a medical exemption
3
4

5

at least from the MMR and DTaP vaccines, per the ACIP precautions.
7. We went to our pediatrician and to my husband's original diagnosing neurologist, a

6

renowned pediatric neurologist at Columbia Presbyterian who diagnosed my

7

husband's condition as having occurred in reaction to his childhood vaccines.

8

8. Our pediatrician acknowledged that the girls were at risk of harm from vaccines but
9
10

11
12
13

said he could not write an exemption because "they will take away my license and I
will lose my practice."
9. The neurologist stated that he could not because "many families had requested them
recently and he decided he would not write any."

14

10. Neither reason had anything to do with our children's well-being. I don't see why we
15
16

need to risk our children getting a documented reaction that would result in a

17

permanent, life-altering disability such as my husband suffers just to satisfy an

18

arbitrary quota.

19

11. The CDC guidelines say that herd immunity is achieved at a 95% vaccination rate. Our

20
girls were the only two children kicked out of their elementary school after the
21
22

religious exemption was repealed, meaning the school was well-above 95%

23

compliant.

24

25
26

27
28

DECLARATION OF CM. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION- 2

Case 1:20-cv-00840-BKS-CFH Document 41-27 Filed 08/25/20 Page 3 of 4

1
2

12. We honestly don't know what to do. We did discuss moving out of state; financially
3
4

5
6

that was a challenge as we had only just purchased our home in December 2018.
13. The ordeal has been physically, mentally and emotionally draining, for all of us.
14. Our younger daughter fell in to a depression, and she is our kind, happy, joyful child.

7

It was all so bad, she didn't want to get out of bed in the morning and "do home8
9
10

11

school".
15. The older daughter was graduating elementary school, and she missed so many fun
activities in what is a very special year at our school. For example, she is not in the

12
l3

class picture of her yearbook; in fact, she's hardly represented at all in the yearbook

14

after spending 5 years at the school. These are stolen memories, and so grossly

15

unfair to a child.

16

16. I do feel as if I've been mandated to play "Russian Roulette" with my children's
17
18
19

20

health.
17. What I can't understand is, when you start with a new doctor, they always do a
comprehensive intake starting with your family history, which then builds your health

21

picture and decision making. If your father had a heart condition, you'll be monitored
22

23

for the same as it's likely you've inherited that condition too. Why doesn't family

24

history guide vaccine decisions?

25

26
27

28

DECLARATION OF C.M. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION- 3

Case 1:20-cv-00840-BKS-CFH Document 41-27 Filed 08/25/20 Page 4 of 4

1
2

18. New York's regulations are putting families at risk by intimidating doctors out of
3
4

5
6

making their own clinical determinations.
19. I truly believe that these new regulations, including and especially all of the scrutiny
and push back against any doctor that writes an exemption, are a tragedy to

7

8
9
10

II

vulnerable families.

20. Wherefore, I respectfully ask this Court to grant the relief and let our children remain
in school pending the outcome of this case and to stay the regulations that allow school
districts to overrule treating physicians or the state to take clinical judgment away

12

from treating doctors.
13
14

RESPECTFULLY SUBMITIED this

_lli_day of August 2020

15
16

17

C.M.

18
19
20

21
22
23
24

25
26
27

28

DECLARATION OF C.M. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION- 4

APPENDIX S

Case 1:20-cv-00840-BKS-CFH Document 41-28 Filed 08/25/20 Page 1 of 3

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

2

3
4

Civil Action No.: 1:20 - CV- 0840 (BKS/CFH)

JANE DOE, et al.

5
6

Plaintiffs,

7
8

9

vs.

HOWARD ZUCKER, et al.

DECLARATION OF N.F. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10

11
12

N.F. pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:

.13
2. I am the mother of a medically fragile sixteen-year-old girl in the New Paltz School
14
15
16

District ofNew York.
3. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

17

18
19

20

and as a potential cla.Ss member in this suit.
12. Last fall, my daughter was starting a new medication that had potential serious side
effects. To prevent diagnostic confusion in the event that a vaccine side effect occurred

21

22

during that period, her pediatrician recommended that she get a three month exemption

23

from immunizations and then resume the catch up schedule one vaccine at a time after so

24

that we knew which medication was causing the problem if she encountered one.
25
26

27

13. The school denied the initial exemption application and my daughter was removed
from school.

28
DECLARATION OF N.F. IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY INJUNCTION1

Case 1:20-cv-00840-BKS-CFH Document 41-28 Filed 08/25/20 Page 2 of 3

2
3

14. More detrimentally, my child was taken out of her classroom and brought to the
principal. He had no right to speak to her the way he did, making her feel like she had

4

5
6
7

done something wrong. We were treated like we were criminals.
15. I had to speak with the superintendent and demand that if there is paperwork due from
the Dr's office or something that needs catching up on, that it is to be handled by the

8

9
10

adults in her life and to let her focus on school. She is a minor and should not be dragged
into following up on paperwork. I also asked the same of the nurse. "Please stop calling

ll

my daughter into your office! Call me!"
12

13
14

16. We then submitted a second exemption request that explained exactly how the
exemption fit within the ACIP guidelines. Our doctor's reason for the delay falls squarely

15
16
17
18

in the guidelines, so this wasn't hard. However, the follow up request was still denied.
17. We had to appeal to the Commissioner of Education. We could not afford to hire an
attomey. It was extremely stressful, took weeks to prepare, and we made a lot of mistakes

19

20
21

trying to do it without representation.
18. The appeal was finally successful but only after my daughter missed six weeks of

22

school after she was removed initially. After the appeal was successful, the school let her
23

24

resume studies but then again kicked her out shortly after when she attempted to follow

25

the doctor's advice and get the boosters one at a time.

26
27

28
DECLARATION OF N.F. IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY INJUNCTION2

Case 1:20-cv-00840-BKS-CFH Document 41-28 Filed 08/25/20 Page 3 of 3

2
3

19. Ultimately, after a lot of expense and stress, they let her back in school but then she
had to have the added stress of making up six weeks of work while attempting to keep up

4

5
6
7

with the current work.
20. The anxiety, stress and isolation caused some very negative behaviors that were
concerning. Also, my daughter's rheumatoid arthritis and Lyme disease symptoms were

8
9

10

significantly exacerbated by her overly sped up catch up immunization schedule.
21. Schools have no business attempting to overrule treating physicians over treatment

11

recommendations for medically fragile kids like my daughter.
12

13

22. Wherefore, I respectfully ask this Court to grant the relief and let our children remain

14

in school pending the outcome of this case and to stay the regulations that allow school

15
16

17

districts to overrule treating physicians.
RESPECTFULLY SUBMITTED this li_day of August 2020

18

19

20
21

N.F.

22
23

24
25

26
27

28
DECLARATION OF N.F. IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY INJUNCTION3

APPENDIX T

Case 1:20-cv-00840-BKS-CFH Document 41-29 Filed 08/25/20 Page 1 of 3

Case 1:20-cv-00840-BKS-CFH Document 41-29 Filed 08/25/20 Page 2 of 3

Case 1:20-cv-00840-BKS-CFH Document 41-29 Filed 08/25/20 Page 3 of 3

APPENDIX U

Case 1:20-cv-00840-BKS-CFH Document 41-30 Filed 08/25/20 Page 1 of 3
I'

1

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3
4

5

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et aL

6

Plaintiffs,

7

vs.

8

HOWARD ZUCKER, et al.

9

DECLARATION OF A.M. IN SuPPORT OF
PLAINTIFFS' MOTION FORA PRELIMINARY
INJUNCTION

Defendants.

10 1+-~~~---------.....J

11
12

A.M. pursuant to 28 U.S.C. § 1746 declares under penalty ofperjmy as follows:

13

1. I am the mother of a medically fragile boy who attend school in New York State.

14

2. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

15

and as a potential class member in this suit

16

3. My son has serious health issues and is immune compromised. In addition to other
17

health challenges, he has primary immune deficiency, cerebral palsy, elevated platelet

18
19

counts, speech motor apraxia, and an unstable progressive neurological disorder that

20

has yet to be understood fully.

21

4. Last fall, my son's pediatrician wrote a medical exemption which was accepted. This

22

year, however. he has refused to sign it for the coming school year 202Q-2021 despite

23

these ongoing conditions, and prior reactions to vaccination and medications. Upon

24

26

2.7
28

DECLARATION Of A.M. lN SlJPPORT OF PL.AINTIFFS' MOTION FORA PRELIMINARY INJUNCTION

-1

Case 1:20-cv-00840-BKS-CFH Document 41-30 Filed 08/25/20 Page 2 of 3

1

2

3
4

5
6

information and belief, he is acting out of fear of retaliation. There has been no
change in my son's health to justify such a reversal.

5. The nurse from his special education school has contacted my pediatrician about
renewing the exerJ'1)tion and has not received correspondence in reply.

7
6

9

10
11

6. I attempted to change pediatricians and he is now holding my son's medical records

for hostage at seventy~five cents per page even if they put them on a disc.
7. My son was already accepted at another pediatrician and I believe the pediatrician

will write him an exemption (my son's conditions fit squarely within the criteria). But

12
13
14

15

the new pediatrician will not see him without records.

a. I believe that these new regulations are stopping wlnerable children from getting the
medical exemptions that they deserve and need~ the immunization mandates were

16

supposed to be here to protect our most wlnerable kids. Now they are hurting them.
1'7

18

9. Wherefore, I respectfully ask this Court to grant the relief and let our cbildren remain

19

in school pending the outcome of this case and to stay the regulations that allow school

20

districts to overrule treating physicians or the state to take clinical judgment away

from treating docrors.
23

RESPECTFULLY SUBMITI'ED this __
.. day of August 2020

24

25
26

27
28

DECLARATION OF A.M. IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY INJUNCTION
-2

Case 1:20-cv-00840-BKS-CFH Document 41-30 Filed 08/25/20 Page 3 of 3

1

2

A.M.

3

4
5
6

7

8
9
10
11

12
13
14
15
16

17

18
19

20

21

23

24

25

26
27

28

DECLARATION OF A.M. IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY INJUNCTION
~3

APPENDIX V

Case 1:20-cv-00840-BKS-CFH Document 41-31 Filed 08/25/20 Page 1 of 4

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3

4
5

JANE DOE, et al.

Civil Action No.: 1:20 - CV - 0840 (BKS/CFH)

6

Plaintiffs,

7

vs.

8

HOWARD ZUCKER, et aL

DECLARATION OF R.B. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

9

Defendants.
10

»-------------------------~

11
12

R.B. pursuant to 28 U.S. C. § 1746 declares under penalty of petjury as follows:

1. I am the father oftwo medically fragile children. We reside in the Sayville School

13
14

District in New York.

15

2. I write this declaration in support of the Plaintifis' motion for apreliminary injunction

16

and as a potential class member in this suit.
17

3. My children have received most of the vaccines on the schedule. We stopped

18
19

vaccinating after one son developed such a severe reaction that he is now pennanently

20

and severely disabled for life, and is undergoing stem cell therapy to try to repair the

21

damage that has been done to him from his vaccine injury.

22

4. We ultimately obtained exemptions for both of our children and they were able to

23

attend school last year.

24

25

26
27

28

DECLARATION OF R.B. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION

-1

Case 1:20-cv-00840-BKS-CFH Document 41-31 Filed 08/25/20 Page 2 of 4

2

5. However, the process was extremely traumatic for our entire family. Given our family
3
4

medical history and the children's genetic vulnerabilities and vaccine adverse reactions,

5

it was clearto our physicians that our children should not re.ceive more vaccines (they

6

are missing between them boosters of the DTaP, inactivated polio and varicella

7

vaccines).

8

6. However, under the new regulations, it was not enough for our physicians to simply
9

10
11

12

13

make clinical determinations and have that respected.
7. Instead, our privacy was significantly invaded. Our family has experienced more stress
since last summer than anyone should ever be subjected to.
8. Our children were subjected to an euormous amount of medical testing to substantiate

14

the need fot the exemption.
15
16

9. The entire experience has negatively impacted our parenting experience in a profound

17

way. It is difficult to enjoy time with my children based on the constant stress that I

t8

am now under.

19

10. We have been walking on eggshells wondering if our children would suddenly be

20

kicked out of school if some bureaucrat who has never met them or examined them
21

22

23

decided that they disagreed with our doctors, or that we have not provided enough
information.

24

25
26

27

28

DECLARATION OF R.B. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-2

Case 1:20-cv-00840-BKS-CFH Document 41-31 Filed 08/25/20 Page 3 of 4

1

2

11. This situation has caused me great difficulty sleeping for the past year. Certain smells
3

from last summer trigger tremendous anxiety in the form of tightness in my chest and

4

shortness ofbreath.

5
6

12. I have developed a deep distrust of the government- particularly the government of the

7

State ofN ew York. I live in a constant state of fear that a time will come when I will

8

no longer be able to protect my boys from a tyrannical and overreaching state
9

government that is hell-bent on vaccinating my children against my will and against

10

11

the. strong advice of their physician, who is personally aware of their vulnerabilities,

12

thereby causing them even greater hann than has already been inflicted on my already

13

vaccine-injured son.

14

13. No parent should ever pave to choose between the health oftheir child and their
15

child's right to an education. The unconscionability of this situation is magnified with

16

17

our son who was injured, who is in even greater need of an education tailored to his

18

special needs, who will be denied that education unless we agree to more of the same

19

vaccines that caused his disability in the first place.

20

14. Law abiding citizens living in a free country should not live in fear of their
21

government

22

15. Wherefore, I respectfully ask this Court to grant the relief and let our children remain

23
24

in school pending the outcome ofthis case and to staythe regulations that allow school

25
26
27

28

DECLARATION OF R.B. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION

-3

Case 1:20-cv-00840-BKS-CFH Document 41-31 Filed 08/25/20 Page 4 of 4

1
2

districts to demand such invasive documentation and to prevent parents from being
3
4
5

allowed to follow the advice of their treating physicians.

RESPECTFULLY SUBMITIED this

\Sty of August 2020

6
7
8

9

R.B.

10

11
12

13

14
15
16
17
18
19
20

21
22

23

24

25
26
27

28

DECLARATION OF R.B. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-4

APPENDIX W

Case 1:20-cv-00840-BKS-CFH Document 41-32 Filed 08/25/20 Page 1 of 3

2
UNITED STATES DISTRICT COURT

3

4

FOR THE NORTHERN DISTRICT OF NEW YORK

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

5

Plaintiffs,
6
vs.

7

8

HOWARD ZUCKER, et al.

DECLARATION OF M.D. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

9
10

11

M.D .. , pursuant to 28 U.S. C. § 1746 declares under penalty of perjury as follows:

12

1. I am the parent of two medically fragile children. We reside in the Fayetteville Manlius
l3

School District in New York.

14

2. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

15
16

and as a potential class member in this suit.

17

3. My oldest son had increasingly severe reactions to immunization. As an infant, he

18

vomited, developed large painful swelled and hard lumps at the injection site and then
19

began to show seizure reactions after immunizations.

20

4. After he got the MMR vaccine, the symptoms increased. He had severe swelling and

21
22

brain injury and lost his ability to speak.

23

5. We chose not to vaccinate our younger daughter due to the reactions of her brother.

24

25

26

27
28

DECLARATION OF M.D. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION-

1

Case 1:20-cv-00840-BKS-CFH Document 41-32 Filed 08/25/20 Page 2 of 3

2

6. In 2008, 2009, 2010, 2011, 2012, and 2013 we submitted medical exemptions written by
3
4

5
6

7

our children's pediatrician, who is licensed to practice in New York.
7. Before the beginning of the 2014-2015 school year, our physician told us though she did
not think it was safe for my children to receive any more vaccines and she stood by her
multiple medical exemption letters she'd written, New York was adopting increasingly

8

narrow policies on medical exemptions and she did not want to write more medical
9
10
11

12
13

exemptions. She mentioned that the religious exemption was a much easier process.
8. We felt we had no other option but to write religious exemptions going forward as those
are the only other option to keep our children safe from the vaccines. Although I have
strong religious beliefs, I didn't think I would need to share them since they had been

14

medically exempt for years.
15

16

9. In 2018, when the religious exemption was repealed, we went to our doctor again to get a

17

medical exemption, but she said that she was unwilling to write any more medical

18

exemptions for anyone given New York's ••new law" despite her opinion that it is not

19

safe to immunize our children any more.

20

10. My children were removed from school and the only option we had was homeschooling
21

22

to save my children which put a huge financial hardship on my family. I had to go part

23

time and work from home to homeschool. The stress caused my marriage to end. I am

24

now going through a divorce.

25
26

27
28

DECLARATION OF M.D. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION2

Case 1:20-cv-00840-BKS-CFH Document 41-32 Filed 08/25/20 Page 3 of 3

2

11. Both of my children have suffered depression not wanting to be in this world. Not
3
4
5
6

7

understanding why they have been kicked out of school and all their sports and not able
to be with friends.
12. My doctor is scared to write an exemption given the new narrow regulations, even thou
she has written so many before and clearly maintains that my children cannot safely be

8

vaccinated.
9

10

13. I have to protect my children. They suffered severe and lasting harm from vaccines and it

11

has been acknowledged that they are some of those children for whom vaccines are not

12

safe.

13

14. My children have already lost so much. All they want is to be able to go to school, to get

14

services they need, to participate like the other kids. They pose no danger to anyone.
15
16
17

18
19

15. We need our doctor to be able to make this determination not on politics or arbitrary new
regulations, but based on her clinical judgment of what is safe for our kids.
16. Wherefore, I respectfully ask this Court to grant the relief and let our children remain in
school pending the outcome of this case.

20
21

RESPECTFULLY SUBMITTED this

JiLday of August 2020

22
23
24

25

26

27
28

DECLARATION OF M.D. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION3

APPENDIX X

Case 1:20-cv-00840-BKS-CFH Document 41-33 Filed 08/25/20 Page 1 of 4

1

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3
4

5

JANE DOE, et al.
Plaintiffs,

6

7
8

Civil Action No.: 1:20 - CV- 0840 (BKS/CFH)

VS.

HOWARD ZUCKER, et al.

9

DECLARATION OF B.P. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10

11
12

B.P. pursuant to 28 U.S. C. § 1746 declares under penalty of perjury as follows:

13

1. I am the mother of two medically fragile children who attend school in the

14

Mamaroneck School District in New York. My children both have immune dysfunction

15

and suffer from mitochondrial disease and autoimmune encephalitis. My son also had

16

severe allergic reactions to immunizations.
17
18

2. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

19

and as a potential class member in this suit.

20

3. My children have both had medical exemptions which were accepted in the

21

Mamaroneck School District for four years, and in our previous school district many years

22

before.
23

24
25

26

27
28

DECLARATION OF B.P. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-1

Case 1:20-cv-00840-BKS-CFH Document 41-33 Filed 08/25/20 Page 2 of 4

2

4. However, when the rules changed last year, we were subjected to enormous harmful
3
4

uncertainty, stress and expense that has negatively impacted our children and our family.

5

We are currently going through the same issues again.

6

5. Before the start of the fall semester of2019, like many years before, we submitted

7

medical exemptions from our pediatrician, a respected physician licensed to practice in

8

New York. This is the same pediatrician my children have seen for years prior to
9

10

submitting medical exemptions and the same one who has written medical exemptions

11

that were accepted for prior years.

12

6. The School District responded for the first time that they "needed more information"

13

which we suddenly had to procure within a matter of days. But the School District refused

14

to answer questions we had about what they were looking for, what the problems were or
15
16

to let us speak to the reviewing consulting physician who was guiding their decisions so

17

that we could get them the information they wanted. We were forced to obtain a

18

corroborating opinion from a neurologist or infectious disease specialist as well as another

19

certification from our pediatrician and opinion from our mitochondrial geneticist. My

20

children's exemptions do fit within the ACIP criteria.
21

22

7. It was a very expensive and traumatic experience. Many of these specialists have

23

waiting lists over a year long. We had to go through near impossible feats and anxiety to

24

get new "specialist" opinions for our kids within the short time frame as well as explain to

25

26
27

28

DECLARATION OF B.P. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INruNCTION
-2

Case 1:20-cv-00840-BKS-CFH Document 41-33 Filed 08/25/20 Page 3 of 4

1
2

new doctors our kids' entire medical histories and hope they understood and would be
3
4

able to respond in the short time they had to make a determination.

5

8. We have had so much stress as a family it has caused physical illness in us as parents

6

due to the enormous stress both mental and financial.

7

9. We cannot continue to go through this annually. The hoops we had to go through, and

8

the adverse impacts and burdens on our family of having to go through them, have had
9

10

lasting impacts. We are already struggling so much just to try to work on helping our

11

children's health improve and easing their symptoms.

12

10. We do not have the resources or the time to arrange for and gather additional opinions,

13

or to have our privacy invaded as strangers comb over our children's private medical

14

information and second guess their NYS licensed and Board certified pediatrician (a
15
16

Professor at a prestigious hospital in New York), as well as second guessing specialist

17

physicians.

18

1L This year, we submitted our exemptions earlier in the summer, hoping to get a swift

19

determination and put this behind us so that we could prepare for the challenges and

20

uncertainties that already exist due to Covid-19. The School District has not let us know
21
22

yet whether the medical exemptions are accepted, or if we again need additional second

23

opinions or other additional information, etc. This is too much. Our kids are already

24

working so hard to try to be well enough to make it through each day. They should not

25

26

27
28

DECLARATION OF B.P. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-3

Case 1:20-cv-00840-BKS-CFH Document 41-33 Filed 08/25/20 Page 4 of 4

1

2

have to wonder if they will have the right to go to school or if someone who has no
3
4

medical training or has never treated them will suddenly decide they need to leave school.

5

12. Wherefore, I respectfully ask this Court to grant the relief and let our children remain

6

in school pending the outcome of this case and to stay the regulations that allow School

7

Districts to overrule treating physicians.

8

RESPECTFULLY SUBMIT1ED this L5!J.ay of August 2020
9

t-6.1?

10
11

B.P.

12
13
14

15
16
17

18

19

20
21

22
23
24
25

26
27
28

DECLARATION OF B.P. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-4

APPENDIX Y

Case 1:20-cv-00840-BKS-CFH Document 41-34 Filed 08/25/20 Page 1 of 2

1

2
3

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

4

5

JANE DOE, et al.

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

6

Plaintiffs,

7

vs.

8
9
10

HOWARD ZUCKER, et al.

DECLARATION OF R.F. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.
1+-------------------------~

11
-

12
13

14

15

R.F., pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:

1. I am the parent of a medically fragile. child who sought a medical exemption in the South
Huntington school district in New York for the 2019-2020 school year.

2. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

16

17
18

and as a potential class member in this suit.

l. My child suffers from seizure disorder, encephalopathy, pediatric autoimmune

19

neuropsychiatric disorder associated with streptococcal infections (PANDAS), Autism

20

and the MTHFR genetic mutation.

21

4. At the start of the 2019 school year, we submitted a medical exemption -wntten by a

22

physician licensed to practice in New York who is familiar with my child.
23
24

5. It was overruled and my son was kicked out of school.

25
26
27
28

DECLARATION OF R.F. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 1

Case 1:20-cv-00840-BKS-CFH Document 41-34 Filed 08/25/20 Page 2 of 2

2

6.

I had to reduce my hours at work so I could stay home with him. The fmancial toll has

3

4
5
6

7

been horrible. But much worse even is the toll on my son.
7. My son is non-verbal. He can't even speak to express himself and he needs his services
that the school now refuses to provide. He's become so depressed at home. He has
disengaged from everyone, even us his family. He just sleeps all day. In addition, Kyle's

8

older brother moved into a group home affiliated with their school. Kyle was on the wait
9

10

11
12
13

list to go in. Since he is no longer in school, he technically cam;iot be on the wait list to
g..p into the home with his older brother. We had planned long and carefully for that.
\

8. My heart is broken, and my family is in crisis. We need help. We cannot go against
medical advice and subject our child to harm. He deserves and needs his federally

14

guaranteed services though and an education. Our son has suffered so much.
15

16

17

9. Wherefore, I respectfully ask this Court to grant the relief and let our children remain in
school pending the outcome of this case.

18

RESPECTFULLY SUBMITTED this 4-day of August 2020
19
20
21

22

R.F.

23
24

25

26
27

28

DECLARATION OF R.F. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION- 2

APPENDIX Z

Case 1:20-cv-00840-BKS-CFH Document 41-35 Filed 08/25/20 Page 1 of 3

2
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3
4

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

5

Plaintiffs,
6
7

8
9

vs.

HOWARD ZUCKER, et al.

DECLARATION OF M.N. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10
11

M.N. pursuant to 28 U.S.C. § 1746 declares under penalty of peijmy as follows:

12

1. I am the mother of a vaccine injured child with special needs residing in the Elwood
13
14
15
16
17

District in New York.

2. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction
and as a potential class member in this suit.

3. Our son was vaccinated for the first two years of his life.

18

4. He is too sick to be vaccinated now. Among other issues, he has been diagnosed with a
19

20
21

22
23

progressive/unstable neurological condition with seizure activity. This is one of the
precautions that even ACIP recognizes.
5. My son's treating doctor, a respected physician licensed to practice in New York,
wrote a medical exemption without hesitation.

24

25

26

27
28

DECLARATION OF M.N. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELlMTNARY
INJUNCTION - 1

Case 1:20-cv-00840-BKS-CFH Document 41-35 Filed 08/25/20 Page 2 of 3

2

6. Nonetheless, the School District denied the medical exemption and my son was
3

4

removed from school.

5

7. This has had a profound impact on my son and on our family.

6

8. My son was not able to experience the high degree of in-person special education

7

services that were on his IEP.

8

9. We ended up enrolling him in a homeschool co-op so that he would benefit from
9
10

socialization with other children as he became depressed. He missed out on

11

participating in cross country sports as well as shop class, school plays and orchestra

12

which he really looked forward to.

13

10. It ended up costing us close to $8,000 in addition to the $11,000+ property tax burden

14

we already have, which part of it goes toward the Elwood school district and he is now
15
16

not allowed to benefit from that.

17

11. My husband and I both experienced great mental anguish in trying to figure out how

18

we were going to homeschool him ourselves when he has special needs as well as

19

trying to figure out how to afford the co-op. We ended up having to borrow money

20

from family and friends.
21

12. Wherefore, I respectfully ask this Court to grant the relief and let our children remain
23

in school pending the outcome of this case and to stay the regulations that allow school

24

districts to overrule treating physicians.

25

26
27

DECLARATION OF M.N. TN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELTMTNARY
INJUNCTION - 2

28

-----------

- - - - - -------------

Case 1:20-cv-00840-BKS-CFH Document 41-35 Filed 08/25/20 Page 3 of 3

2

,/I
RESPECTFULLY SUBMITTED this ..?() day of August 2020

3

4

5
6

M.N.

7

8
9
10
11

12
13
14

15
16

17
18
19

20
21

22
23
24

25

26
27
28

DECLARATION OF M.N. TN SUPPORT OF PLATNTWFS' MOTION FOR A PRELJMTNARY
INJUNCTION - 3

APPENDIX AA

Case 1:20-cv-00840-BKS-CFH Document 41-36 Filed 08/25/20 Page 1 of 3

2
3

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

4

5

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

8
9

HOWARD ZUCKER, et al.

DECLARATION OF S.P. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10

11
12

S.P. pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:

13

2. I am the mother of a very sick medically fragile eleven-year-old boy who until

14

recently attended school in the Franklins Square School District (17) ofNew York.

15

3. My child suffers from a number ofneurodegenerative disorders, immunodeficiency

16

disorders and has mitochondrial disease and other health challenges. His seizure disorder
17
18

is so bad that he falls to the ground up to thirty-five times a day on average and needs

19

constant one on one attention to avoid suffering injury.

20

4. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

21

and as a potential class member in this suit.

22

12. Last fall, we submitted a medical exemption from my child's treating physician, who
23
24

is licensed to practice in New York and who we trust.

25

26
27

28

DECLARATION OF S.P. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-1

Case 1:20-cv-00840-BKS-CFH Document 41-36 Filed 08/25/20 Page 2 of 3

1

2

13. The school denied the request with no explanation. Worse, my son was not only
3
4

thrown out of school, but everything that had been put in place for him in terms of his

5

extensive required services (including in home teacher support) was taken away from him.

6

The district would not even give me work-books to try to teach him at home myself.

7

14. I am not a teacher and I do not have the necessary expertise to give my child the

8

additional services he needs. I tried my best to homeschool my son. I had to almost
9

10

completely give up my job to care for him.

11

15. Without income, we could not afford tutors, or online instruction. My child was

12

devastated after being told he could not go to school anymore, or participate in any of the

13

activities with the children who he had made friends with. It was so hard to make friends.

14

He'd finally found kids who weren't afraid ofhis ticking disorders, his seizures and his
15
16

falls to the ground and screaming.

17

16. To add insult to injury, the school district then called CPS on me to allege I hadn't

18

turned in my quarterly reports and they thought I was "lying" about the medication my son

19

was taking.

20

17. Teachers and administrators at the school have humiliated us and looked down on us.
21

22

They have no idea what is happening to us and how devastating the loss of school and

23

special services has been for our family. We are trying so hard every day to help our son

24

just even get through the day and to handle his health challenges, leave aside to also

25

26
27
28

DECLARATION OF S.P. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-2

Case 1:20-cv-00840-BKS-CFH Document 41-36 Filed 08/25/20 Page 3 of 3

2

educate him and provide everything that a team of professionals was supposed to be
3
4

providing for him.

5

18. Our doctor has written another medical exemption request. Our son clearly needs this.

6

He also clearly needs school. We ask for the Court's help. We have been put in an

7

impossible position and our child is suffering. He suffers so much already and does not

8

deserve to suffer more.
9
10

19. Wherefore, I respectfully ask this Court to grant the relief and let our children remain

11

in school pending the outcome of this case and to stay the regulations that allow school

12

districts to overrule treating physicians.

13

RESPECTFULLY SUBMITTED this Jj_day of August 2020

14
15
16
17

S.P.

18
19
20
21

22
23
24
25

26
27

28

DECLARATION OF S.P. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-3

APPENDIX BB

Case 1:20-cv-00840-BKS-CFH Document 41-37 Filed 08/25/20 Page 1 of 3

2

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

3
4

5

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

·8

HOWARD ZUCKER, et al.

9

10

DECLARATION OF J.H. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

~------------------------~

11
12

J.H. pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:

13

1. I am the father of two children residing in the Marcellus School District in New York.

14

2 .. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

15

and as a potential class member in this Suit.

16

3. Last year, on the advice of our Pediatrician, we submitted a medical exemption for our
17

son written by our pediatrician, a physician licensed to practice in New York who

18

treats my child.

19

20

4. I did not try to seek out this medical exemption. We were trying to do what was asked

21

of us by the state ofNY and had taken my son and daughter in to get vaccinated to

22

start the school year.

23

5. My daughter had side effects that were troubling and consistent with negative effects

24

that I had had as a child to immunizations.

25

26

27

28

DECLARATION OF J.H. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION

-I

Case 1:20-cv-00840-BKS-CFH Document 41-37 Filed 08/25/20 Page 2 of 3

2

6. However, when it came to our son, our regular pediatrician on his own suggested that
3

we get a medical exemption based on his determination that the potential harm vastly

4

5

outweighed the potential benefit given my son's condition. Our son clearly needed this

6

exemption and we agreed it was in his best interest.

7

7.

We handed in the exemption to the school and it was denied within hours. I asked

8

who denied it. The school nurse seemed very unsure how to answer but told me it was
9

the Department of Health. We gave up. It was awful.

10

8. I thought he had one more day before the 14-day cut off and sent my son to school.

11

12

They were waiting for him, pulled him aside, and took him to the office and held him

13

there away from his classes until I could come and pick him up.

14

9. To say he was devastated and embarrassed is an understatement. Mortified and in
15

disbelief as to what was happening. And it happened so quickly with no explanation

16

or discussion.

17

18

10. In addition to the above, my son was left completely depressed, alone, afraid, unsure

19

and he began to lose weight. He felt ostracized from society.

20

11. His mental state, which had some fragility before, has severely deteriorated. We were
21

all suddenly thrust into homeschooling which was the last thing that he wanted. He

22

wants to be in school.

23
24

25
26
27

28

DECLARATION OF J.H. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION

-2

Case 1:20-cv-00840-BKS-CFH Document 41-37 Filed 08/25/20 Page 3 of 3

1
2

12. My job, which I am no longer at, suffered because I needed to help with
3
4
5

6
7

homeschooling and honestly, we felt that it was not safe to leave him home alone due
to seeing the depression set in.
13. My heart absolutely goes out to the other families in this situation. But please be
assured of the fact that the effect this had on my son as an individual and us as a

8

family was very great indeed.
9
10
11

12
13

14. I want to also take a moment to say something. We are but one family from a small
town in Upstate NY.
15. We are trying the best we can to follow the rules the state sets, even though it goes
against our judgment of what is best for our children and is troubling to us. However,

14

at this point, we just have no choice. Even our son's doctor agrees he cannot be safely
15
16

17

18
19

vaccinated right now. What are we supposed to do? We feel helpless and we implore
the Court to intervene. This has gone too far.

16. Wherefore, I respectfully ask this Court to grant the relief and let our children remain
in school pending the outcome of this case and to stay the regulations that allow school

20

districts to overrule treating physicians.
21
22

RESPECTFULLY SUBMITTED this Jj_day of August 2020

23
24

J.H.

25

26
27

28

DECLARATION OF J.H. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-3

APPENDIX CC

Case 1:20-cv-00840-BKS-CFH Document 41-38 Filed 08/25/20 Page 1 of 4

1

2

3

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

4

5

Civil Action No.: 1:20- CV- 0840 (BKS/CFH)

JANE DOE, et al.

6

Plaintiffs,

7

vs.

8

9

HOWARD WCKER, et al.

DECLARATION OF H.D. IN SUPPORT OF
PLAINTIFFS' MOTION FOR A PRELIMINARY
INJUNCTION

Defendants.

10
11

12

H.D. pursuant to 28 U.S.C. § 1746 declares under penalty of perjury as follows:

13

2. I am the mother of a medically fragile high school aged boy who attends school in the

14

Auburn School District of New York.

15

3. I write this declaration in support of the Plaintiffs' motion for a preliminary injunction

16

and as a potential class member in this suit.
17
18

12. Our middle son has always had bad reactions to vaccines. After his vaccinations he

19

would be covered in a horrible and painful full body rash for months. It would start to

20

clear up and then would return after each set of vaccinations. He would also suffer from

21

personality changes after vaccinations. He would scream and be extremely irritable.

22
23

24
25

26

27
28

13. We never knew what vaccines were causing the problems because he was given so
many at once. One time after a vaccine appointment our son was unable to move his arm
for several days. It was terrifying.
DECLARATION OF H.D. IN SUPPORT OF PLAINTIFFS' MOTION FORA PRELIMINARY INJUNCTION
-1

Case 1:20-cv-00840-BKS-CFH Document 41-38 Filed 08/25/20 Page 2 of 4

1

2

14. All of these issues after his vaccine appointments caused us to research possible causes

3
4

and we obtained a religious exemption based on our sincere beliefs that further

5

vaccination would violate our religious responsibilities to our child given the harm he'd

6

suffered.

7

15. Our son is only missing a few vaccines. We noticed a remarkable improvement in his

8

health during the years he did not receive any boosters.
9
10

16. This last year we were forced to make an impossible decision after the religious

11

exemption was repealed. We tried to get our pediatrician to write a medical exemption but

12

he did not feel comfortable enough with the new regulations to do it. He did recommend

13

that the remaining vaccines be spaced out.

14

17. We waited until the last possible date and then made the appointments for the three
15
16

boosters our son needed to remain in school and sports.

17

18. We did the first one, meningococcal, and then made the appointments for the last two.

18

19. Despite our doctor's advice to spread them out, and the law, which provided for a

19

catch up schedule that allowed children to be in school so long as appointments were

20

scheduled, our son was kicked out of school several times and we were told he could not
21

22

be on a catch up schedule and he needed the last two shots immediately. We hired an

23

attorney but the school district would not budge and insisted that our son get all three

24

shots immediately without the two weeks in between as recommended.

25

26
27

28

DECLARATION OF H.D. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION
-2

Case 1:20-cv-00840-BKS-CFH Document 41-38 Filed 08/25/20 Page 3 of 4

2

20. Within a couple days, my son therefore also received his Tdap (which was the sixth

3

DTaP booster) and varicella.

4

5

21. The next morning he woke up and was completely unable to move his arm. He went to

6

school but was sent home with an excruciating headache. It went downhill from there. The

7

arm pain continued and was so bad he couldn't use his arm.

8

22. The headaches got worse and he also had extreme sensitivity to light. He also started
9

having very bad pain in his joints especially his knees and ankles.

10
11

23. His brain swelling became so bad that he ended up in the ER. The doctor in the ER

12

told us it was a vaccine reaction and he shouldn't receive any more vaccinations. We

13

asked her to write us a medical exemption but she said she could not.

14

24. My son's condition deteriorated and he ended up at Golisano Children's hospital. The
IS

doctors at Golisano agreed it was from the vaccines but there was nothing they could do.

16
17

25. Our son returned to school but has been dealing with several health problems since

18

being vaccinated in the fall including ongoing joint pain, migraines, neurological

19

symptoms and weakness and recently being diagnosed with an eating disorder. All of

20

these are known vaccine adverse side effects.
21

26. Next year, our son will need another meningococcal to continue high school. His

22
23

younger brother is vulnerable too, having exhibited some of the same early symptoms our

24

older son initially had.

25

26
27

28

DECLARATION OF H.D. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION

-3

Case 1:20-cv-00840-BKS-CFH Document 41-38 Filed 08/25/20 Page 4 of 4

2

27. We are beside ourselves. How can these doctors acknowledge that our son has been
3

hanned by vaccines and say it isn't safe for him to receive more, but then tell us that their

4
5

hands are tied and it isn't up to their clinical judgment? How is this okay for children like

6

my son?

7

28. Wherefore, I respectfully ask this Court to grant the relief and let our children remain

8

in school pending the outcome of this case and to stay the regulations that allow school
9

districts to overrule treating physicians.

10

11

RESPECTFULLY SUBMITTED this fL2._day of August 2020

12

13

14

H.D.
15
16
17
18

19
20
21
22

23
24

25

26
27

28

DECLARATION OF H.D. IN SUPPORT OF PLAINTIFFS' MOTION FOR A PRELIMINARY INJUNCTION

-4

